<html>
<title> - REVIEW OF THE FISCAL YEAR 2018 STATE DEPARTMENT BUDGET REQUEST</title>
<body><pre>[Senate Hearing 115-726]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 115-726

                REVIEW OF THE FISCAL YEAR 2018 STATE 
                  DEPARTMENT BUDGET REQUEST

=======================================================================

                                HEARING
                                
                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-614 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     4


Tillerson, Hon. Rex, Secretary of State, U.S. Department of 
  State, Washington, DC..........................................     7

    Prepared statement...........................................     9


        Secretary Tillerson's Responses to Additional Questions 
                 Submitted by Members of the Committee

Responses to Additional Questions for the Record Submitted to 
  Secretary Tillerson by Senator Corker..........................    39


Responses to Additional Questions for the Record Submitted to 
  Secretary Tillerson by Senator Cardin..........................    44


Responses to Additional Questions for the Record Submitted to 
  Secretary Tillerson by Senator Johnson.........................    74


Responses to Additional Questions for the Record Submitted to 
  Secretary Tillerson by Senator Menendez........................    75


Responses to Additional Questions for the Record Submitted to 
  Secretary Tillerson by Senator Young...........................    81


Responses to Additional Questions for the Record Submitted to 
  Secretary Tillerson by Senator Coons...........................    81


Responses to Additional Questions for the Record Submitted to 
  Secretary Tillerson by Senator Portman.........................    82


Responses to Additional Questions for the Record Submitted to 
  Secretary Tillerson by Senator Merkley.........................    89


Responses to Additional Questions for the Record Submitted to 
  Secretary Tillerson by Senator Booker..........................    91


              Additional Material Submitted for the Record

Letter to Senator Cardin from Ronald J. Daniels, President, Johns 
  Hopkins University.............................................    96


Material Submitted for the Record by Care USA....................    98




                                 (iii)

 
     REVIEW OF THE FISCAL YEAR 2018 STATE DEPARTMENT BUDGET REQUEST

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Young, Isakson, Portman, Cardin, 
Menendez, Coons, Udall, Murphy, Kaine, Markey, and Merkley.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    Mr. Tillerson, Mr. Secretary, we appreciate you being here. 
We are having a little bit of a discussion about the timing 
issue. We do have a lot of other things happening today, and I 
really would like to finish this in one round. So what I think 
I am going to do--I think what we will do, Senator Cardin, if 
it is okay with you, is let us put 6 minutes on the clock, and 
if we really need to have a second round for some reason, we 
will. I am open to discussion about that right now, if you 
wish.
    Senator Cardin. I think 6 minutes sounds fair on the first 
round. I do not want to preclude a member on either side that 
believes that they need additional time for a second round from 
having that second round, but I would encourage our members to 
try to be efficient on the use of their time.
    The Chairman. So I want to begin by saying that last night 
about 10:20, we finished negotiating a Russia bill to be 
attached to the Iran bill, and we were able to gavel in the 
Senate last night and have Senator McConnell file cloture on 
it.
    And I just want to thank Senator Cardin and his staff, 
along with my staff, for what I think was an incredible effort 
to bring balance to a bill but to send a very strong, strong 
message to Russia. And it was a cooperative effort between the 
Foreign Relations Committee but also the Banking Committee, 
which meant a number of Senators ended up being involved. But I 
really do think we have ended up with a very good piece of 
legislation.
    And, Senator Cardin, I want to thank you for the way that 
you have worked with us, and I want to thank all the Senators 
here for the issues that you brought up along the way to help 
us make sure that we tried to deal with the issues that were 
important to this committee.
    Senator Cardin. Mr. Chairman, on that point, let me just 
underscore the points that you have made. This was a very 
challenging negotiation between the Banking leadership and the 
Senate Foreign Relations leadership, and I want to thank you 
for the manner in which those negotiations took place.
    I encourage the members of the committee to read the filed 
amendment. I am extremely pleased with the way that we were 
able to manage that negotiation.
    On our side, I particularly want to acknowledge Senator 
Shaheen and Menendez who were very helpful in putting together 
this package. It does incorporate not only the work that this 
committee did on the democracy initiative that was passed out 
of this committee, but also two other bills, one that I 
authored with Senator McCain that deals with codification of 
executive sanctions against Russia, as well as additional 
sanctions against Russia. And that is included in the 
amendment. The other is a bill that was authored by Senator 
Graham that I worked with him on that provides for 
congressional review if the administration desires to remove 
any of the sanctions in regards to Russia.
    So I really believe that we did accomplish what we set out 
to do where we had initially 10 Democrats and 10 Republican 
Senators who had joined together in this effort and the 
chairman protected our work product. And I thank him very much.
    The Chairman. Just because I know we have a lot of media 
here, those bills are not in this bill. Those bills are not in 
this bill, but some of the topics that were brought up in these 
bills were points that we addressed in the overall legislation 
we developed. But I appreciate the input of all.
    And we will turn to the hearing. I do want to say we have a 
number of people here in the audience. I know people are pretty 
passionate about issues right now, and I just have to say that 
I do not like for anybody to be arrested. I asked someone to 
leave a meeting, and what that means is you are immediately 
arrested. I was able to go down and get them out of jail, but I 
am not going to do it anymore. So just be warned that if you 
stand up or make a noise or do something that you know to be 
inappropriate, we are going to ask you to be escorted out. And 
there is nothing I can do about it beyond that. So please do 
not do that. This is democracy in action, and this is our 
ability to express ourselves in appropriate ways. But you are 
here. We are glad you are here, but please conduct yourselves 
in an appropriate way.
    So with that, we will move to the business at hand. I want 
to thank Secretary Tillerson for being here. I want to thank 
him for what I believe has been unprecedented outreach to this 
committee and others who have wanted to give input. I share 
with people all over the country that, obviously, this 
administration is new. Some of the approaches have been very 
different. But one of the things that Secretary Tillerson has 
been willing to do and wants to do and seeks to do is to get 
input from the committee, and I appreciate that very much with 
all that you have got to do to organize. So that has been 
unprecedented.
    I do want to say in addition to that, I know some people 
are going to be taking shots. That is what happens in a budget 
committee meeting, especially one like this one. I think, 
though, I can speak for most everyone here. I will speak for 
myself, and I know others feel the same way. I am very thankful 
that you are serving as Secretary of State. I am very thankful 
that Secretary Mattis is serving as Secretary of Defense. I am 
very thankful that Mr. McMaster is serving as National Security 
Advisor. And I just have to tell you that around the world, 
people are thankful that you are in these positions. And I 
think that in spite of the fact that they may disagree with 
some of the policies that are coming forth, the fact that 
someone like you who is as seasoned as you are in this position 
gives me and a lot of people here and a lot of people around 
the country and a lot of people around the world a lot of 
comfort. So I want to thank you for your willingness to serve 
in the capacity that you are.
    On that point, I will say we sat down yesterday in the 
middle of the Russia negotiations. I took some time out to sit 
down with my staff, and we began going through the budget that 
you are presenting today. And after about 5 minutes, I said 
this is a total waste of time. I do not want to do this 
anymore.
    And the reason it is a waste of time is I think you know 
that the budget that has been presented is not going to be the 
budget we are going to deal with. It is just not. I mean, the 
fact is that Congress has a tremendous respect for the 
diplomatic efforts that are underway, the aid that we provide 
in emergency situations, and it is likely--and by the way, this 
happens with every presidential budget--every presidential 
budget. This one in particular, though, is likely--that what 
comes out of Congress is likely not going to resemble what is 
being presented today. And so I felt it was a total waste of 
time to go through the line items and even discuss them because 
it is not what is going to occur.
    So I say that with all due respect, pointing out that 
really over the last 17 years, you know, our Nation has been 
unwilling to deal with the fiscal issues that we face. And so 
70 percent of the budget is off budget. We are heading towards 
a fiscal calamity. Everyone knows it, sees it coming. And I 
realize that this President took an inordinate amount of cuts 
in this particular area to demonstrate that he was trying to 
address fiscal issues because in fairness, unwilling to address 
all the other issues that are driving spending so much. So we 
understand that. It has happened on both sides of the aisle for 
at least 17 years, and that is kind of where we are.
    So until we have a person who runs for President who says 
they are going to serve one term and they are going to try to 
deal with these issues, unfortunately, we are heading to a 
place that to me is a fiscal calamity.
    So what I do appreciate about what you are doing today and 
what you are doing within the Department, the fact that you ran 
a major company that had about the same amount of employees as 
the State Department has--what I appreciate is what you are 
doing today is bringing forth a debate that we have needed to 
have for a long time, and that is not focusing on everything we 
can do, but what we should be doing as a Nation. So I 
appreciate that very much.
    Since Congress is likely to write its own appropriations 
bills and spending, what I hope we will spend most of our time 
on today, instead of taking potshots, although everybody will 
do whatever they wish, I know, but I hope that you will help us 
lay out some of the things that you really think are 
appropriate for us to look at and different ways of 
approaching, whether it is international organizations, which 
many of us support, or whether it is how the State Department 
is going to be run.
    So we thank you for being here today. I respect you very 
much. I respect the role that you are playing for our Nation.
    And with that, I will turn to our ranking member, Senator 
Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, let me also welcome the 
Secretary here in order to discuss the proposed budget and 
other issues that are important for our national security.
    I just want to make an observation before I start my formal 
statement that reviewing the administration's fiscal year 2018 
budget is a waste of time. I know that we are going to write 
our own budget.
    Yesterday I was in Ellicott City, which suffered from a 
major, major flood almost a year ago, and I was talking to a 
federal administrator there not from the State Department--it 
was a different agency--about the tools that we need to make 
available for the businesses in Ellicott City in order to 
recover from that horrible tragedy and that the President's 
fiscal year 2018 budget for that agency would not allow the 
federal partner to continue providing mentoring services to the 
businesses and that it was a challenge for the administrator to 
be able to carry this out with the instructions being given by 
OMB in regards to budget issues.
    So, Mr. Chairman, I do not think the fiscal year 2018 
budget review is a waste of time. I think we will write our own 
budget, but I do think it has a chilling impact in the State 
Department with the career people trying to carry out their 
missions believing that their supervisors have a different 
vision as to what is necessary to carry out that mission.
    We meet at a challenging time for the State Department and 
for our Nation. Mr. Secretary, we meet at a time of deep and 
mounting concern regarding the tone, substance, and trajectory 
of your administration's foreign policy. Seventy years ago this 
month, one of your predecessors, George Marshall, delivered a 
speech that helped cement his reputation as a key architect of 
the post-war efforts to build a liberal international order. He 
was present at the creation.
    My concern today, quite frankly, is that your 
administration may go down in history as being present at the 
destruction of that order we have worked so hard to support and 
that has so benefited our security and prosperity and ideals.
    Mr. Secretary, I am deeply concerned with the direction 
that President Trump appears to intend on taking our country 
and the world with it. Indeed, no matter where we look around 
the world today, it seems that America's interests and values 
in the international system, which it has led, is under threat 
and under pressure. Most troubling, much of the recent pressure 
is coming not only from external forces and foes but also from 
the President of the United States and from your 
administration.
    I cannot tell you how devastating the President's decision 
to walk away from the Paris Accords was not only to our allies 
abroad but also to many Americans. The decision to abdicate 
America's leadership sent shock waves around the globe, raising 
concerns about our fundamental engagement as a stakeholder in 
the international order that the United States has worked so 
hard to help build and lead over the past 7 decades. I truly 
believe that climate change will be a defining issue for our 
generation, not just an environmental or security issue or even 
an economic issue, although they are all those, but a moral 
issue in which our success or failure as stewards of our 
Nation's interests and shapers of global interests will rise or 
fall.
    In your confirmation hearing, you said in response to one 
of my questions ``I think it is important that the United 
States maintain its seat at the table on the conversations 
around and how to address threats of climate change, which do 
require a global response. No one country is going to solve 
this alone.''
    Well, today we find that we have left our seat at the table 
and shredded the efforts of the international community to 
respond to climate change. And we stand alone. When President 
Trump repudiated the Paris, he repudiated all our partners in 
the international community, indeed, the very idea of an 
international community. It was, to quote from an op-ed penned 
by two of your colleagues, General H.R. McMaster and Gary Cohn, 
the encapsulation of a view that--and I quote--``the world is 
not a global community but an arena where nations, 
nongovernmental actors, and businesses engage and compete for 
advantage. Rather than deny this element, the nature of 
international affairs, we embrace it.'' So we have given up on 
the international community? These words are hard to read.
    President Truman once described the Marshall Plan as the 
dividing line between the old era of national suspicions, 
economic hostility, and isolationism and the new era of mutual 
cooperation to increase prosperity of people throughout the 
world. And I would agree, Mr. Secretary, that in advancing this 
new era of mutual cooperation, that successive bipartisan 
administrations effectively put America first. A return to the 
old era, be it by walking away from Paris or by the President's 
refusal to pledge to honor our Article 5 commitments to NATO or 
proposing a budget that would abruptly terminate key 
development investments in dozens of countries, we find America 
isolated alone and last.
    America's leadership and engagement of global issues and 
with global leaders is perhaps more vital today than ever 
before, and there is simply no substitute for presidential 
commitment to American leadership and engagement. America's 
first approach risks undermining key tools and mechanisms that 
enable the United States leadership in the world, and I am 
deeply concerned that your administration's approach does not 
place America first but rather leaves America alone and places 
our interests and values at risk.
    Our positions as leaders of the free world is at risk. The 
ideas of a democracy as a model of diplomacy, as a force 
multiplier and development as a catalyst for change are being 
significantly challenged. The idea of a Europe whole and free 
that wellsprings our security and prosperity for the past 70 
years is now being undermined, including by the President 
himself who hurls insults at the mayor of London following a 
terrorist incident and appears indifferent at best to our 
treaty commitments to our European allies. Russia and China 
appear to be elevated to privileged positions ahead of our 
allies in a new game of great power politics while allies like 
Australia and the Republic of Korea and democratic allies and 
partners seeking to uphold international norms and standards 
are subject to bullying.
    The leaders of Egypt and the Philippines and others who 
commit devastating human rights offenses are embraced, while 
the rights and aspirations of the Egyptian people and the 
Filipino people are dismissed.
    Russia has attacked our democracy, illegally annexed 
Crimea, and invaded eastern Ukraine. Yet, President Trump and 
your administration seems hell bent on finding accommodations 
and appeasements, even exploring how to return seized Russian 
spy facilities in the United States, which presumably Mr. Putin 
would be able to once again put to good use.
    As I have said before, democracy does not defend itself. 
We, those of us on this dais and those of us in this room, must 
defend democracy and must defend the notion of good governance. 
We know that America derives its strength from its values and 
we must never retreat from that core concept. Yet, when you 
suggested in a speech at the Department of State earlier this 
year that we could divorce our values from our policies, you 
suggested such a retreat.
    The deep cuts to international affairs spending in your 
budget proposal is an approach to American foreign policy that 
is nothing less than a devastating assault on America's 
interests and values. What is most perplexing to me about your 
efforts to gut international affairs spending is that the 
Defense Secretary, Mr. Mattis, made it clear that that is 
critically important development assistance to our national 
security. Slashing our foreign operations and foreign 
assistance makes the world more dangerous for Americans and for 
America.
    Yet, that is precisely what that budget would do. The 
budget takes a pennywise pound foolish approach that will cost 
lives and endanger Americans here at home. The proposed cut to 
the State Department and foreign assistance budget suggested by 
you and by the Trump administration will fatally undermine our 
ability to renew and revise our leadership and will leave us 
less safe and less secure in an increasingly complex world 
unable to advance our ideals or to secure our prosperity.
    So I look forward to hearing your thoughts and views on how 
this budget advances our interests and values around the world. 
But I can tell you that my starting point is to be prepared to 
work with Democratic and likeminded Republican colleagues to 
make sure that nothing remotely close to this budget is enacted 
by Congress.
    The Chairman. Thank you, sir.
    Mr. Secretary, since I know you just made an announcement, 
before you begin your opening comments, would you like to go 
ahead and share with us what has just occurred and then do your 
opening statement?

   STATEMENT OF HON. REX TILLERSON, SECRETARY OF STATE, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Tillerson. Well, some of you may have seen a 
press release that was put out just before I arrived announcing 
that at the President's direction, the Department of State has 
secured the release of Otto Warmbier from North Korea. He is on 
his way, en route home to be reunited with his family.
    We continue our discussions with the North Korean regime 
regarding the release of the three other American citizens that 
have been detained.
    We have no comment on Mr. Warmbier's condition out of 
respect to him and the family, and that is the statement that 
was released.
    The Chairman. Very good.
    Well, listen, we look forward to your opening comments and 
questions. Thank you again for being here. You can begin with 
that, if you would. Thank you.
    Secretary Tillerson.  Well, thank you, Chairman Corker, 
Ranking Member Cardin, distinguished members of the committee. 
Thank you for the opportunity to discuss this administration's 
State Department and USAID request for fiscal year 2018.
    As we all know, America's global competitive advantages and 
standing as a leader are under constant challenge. The 
dedicated men and women of the State Department and USAID carry 
out the important and often perilous work of advancing 
America's interests every day, 24/7, 365 days a year. That 
mission is unchanged.
    However, the State Department and USAID, like many other 
institutions here and around the world, have not evolved in 
their responsiveness as quickly as new challenges and threats 
to our national security have changed and are changing. We are 
challenged to respond to a post-Cold War world that set in 
motion new global dynamics, and a post-9/11 world characterized 
by historic new threats that present themselves in ways never 
seen before, enabled by technological tools that we have been 
ill-prepared to engage. The 21st century has already presented 
many evolving challenges to U.S. national security and economic 
prosperity. We must develop proactive responses to protect and 
advance the interests of the American people.
    With such a broad array of threats facing the United 
States, the fiscal year 2018 budget request of $37.6 billion 
aligns with the administration's objective of making America's 
security our top priority. The first responsibility of 
government is the security of its own citizens, and we will 
orient our diplomatic efforts toward fulfilling that 
commitment. While our mission will also be focused on advancing 
the economic interests of the American people, the State 
Department's primary focus will be to protect our citizens at 
home and abroad.
    Our mission is at all times guided by our longstanding 
values of freedom, democracy, individual liberty, and human 
dignity. The conviction of our country's Founders is enduring, 
that ``all men are endowed by their Creator with certain 
unalienable rights.'' As a Nation, we hold high the aspiration 
that all will one day experience the freedoms we have known. In 
our young administration's foreign policy, we are motivated by 
the conviction that the more we engage with other nations on 
issues of security and prosperity, the more we will have 
opportunities to shape the human rights conditions in those 
nations. History has shown that the United States leaves a 
footprint of freedom wherever it goes.
    Ensuring the security and prosperity of the American people 
and advancing our values has necessitated difficult decisions 
in other areas of our budget. The fiscal year 2018 budget 
request includes substantial funding for many foreign 
assistance programs under the auspices of USAID and the State 
Department, but we have made hard choices to reduce funding for 
other initiatives. Even with reductions in funding, we will 
continue to be the leader in international development, global 
health, democracy, and good governance initiatives, as well as 
humanitarian efforts. If natural disasters or epidemics strike 
overseas, America will respond with the care and support it 
always has. And I am convinced we can maximize the 
effectiveness of these programs and continue to offer America's 
helping hand to the world.
    This budget request also reflects a commitment to ensure 
every tax dollar spent is aligned with the Department's and 
USAID's mission-critical objectives. The request focuses the 
State Department and USAID's efforts on missions which deliver 
the greatest value and opportunity of success for the American 
people. The State Department and USAID budget increased over 60 
percent from fiscal year 2007, reaching a record high of $55.6 
billion in fiscal year 2017. Recognizing this rate of increase 
in funding is not sustainable, the fiscal year 2018 budget 
request seeks to align the core missions of the State 
Department with historic funding levels. We believe this budget 
also represents the interests of the American people, including 
responsible stewardship of the public's money.
    I know there is intense interest in prospective State 
Department and USAID redesign efforts. We have just completed 
collecting information on our organizational processes and 
culture through a survey that was made available to every one 
of our State and USAID colleagues. Over 35,000 surveys were 
completed, and we also have held in-person listening sessions 
with approximately 300 individuals to obtain their perspective 
on what we do and how we do it. I met personally with dozens of 
team members who spoke candidly about their experiences. From 
this feedback, we have been able to get a clear overall view of 
our organization.
    We have no preconceived outcomes and our discussions of the 
goals, priorities, and direction of the State Department and 
USAID are not token exercises. The principles for our listening 
sessions and subsequent evaluation of our organization are the 
same as those which I stated in my confirmation hearing for our 
foreign policy: we will see the world for what it is, be honest 
with ourselves and the American people, follow the facts where 
they lead us, and hold ourselves and others accountable.
    We are still analyzing the feedback we have received, and 
we expect to release the final findings of the survey soon. 
From all of this, one thing is certain: I am listening to what 
my people tell me are the challenges facing them and how we can 
produce a more efficient, effective State Department and USAID. 
And we will work as a team and with the Congress to improve 
both organizations.
    Throughout my career, I have never believed nor have I ever 
experienced that the level of funding devoted to a goal is the 
most important factor in achieving it. Our budget will never 
determine our ability to be effective. Our people will. My 
colleagues at the State Department and USAID are a deep source 
of inspiration, and their patriotism, professionalism, and 
willingness to make sacrifices for our country are our greatest 
resource. I am confident that the U.S. State Department and 
USAID will continue to deliver results for the American people.
    I thank you for your time and am happy now to answer your 
questions.
    [Secretary Tillerson's prepared statement follows:]


         Prepared Statement of Secretary of State Rex Tillerson

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the committee, thank you for the opportunity to discuss this 
administration's State Department and USAID budget request for Fiscal 
Year 2018.
    As we all know, America's global competitive advantages and 
standing as a leader are under constant challenge. The dedicated men 
and women of the State Department and USAID carry out the important and 
often perilous work of advancing America's interests every single day. 
That mission is unchanged. However, the State Department and USAID, 
like many other institutions here and around the world, have not 
evolved in their responsiveness as quickly as new challenges and 
threats to our national security have changed and are changing. We are 
challenged to respond to a post-Cold War world that set in motion new 
global dynamics, and a post- 9/11 world characterized by historic new 
threats that present themselves in ways never seen before, enabled by 
technological tools that we have been ill-prepared to engage. The 21st 
century has already presented many evolving challenges to U.S. national 
security and economic prosperity. We must develop proactive responses 
to protect and advance the interests of the American people.
    In Syria and Iraq, ISIS has been greatly diminished on the ground, 
but there is still a substantial fight ahead to complete the job and 
eliminate it from the region. But the battle to ensure that ISIS and 
other terrorist organizations do not gain or grow footholds in other 
countries will continue.
    The fight against Islamist extremism extends to the digital world. 
The battle to prevent terrorists' use of the internet and other digital 
tools will continue to challenge us from a security and diplomatic 
perspective.
    The regime in Iran continues activities and interventions that 
destabilize the Middle East: support for the brutal Assad regime, 
funding militias and foreign fighters in Iraq and Yemen that undermine 
legitimate governments, and arming terrorist organizations like 
Hezbollah, which threaten our ally Israel. We and our allies must 
counter Iran's aspirations of hegemony in the region.
    Thoughtful development and implementation of policies to ensure 
Afghanistan never again becomes a platform for terrorism, Pakistan does 
not become a proliferator of nuclear weapons, and the region is 
positioned for stable economic growth.
    On our southern border, illegal migration from countries in the 
Western Hemisphere presents a risk to our security, with criminal 
cartels exporting drugs and violence into our communities. Almost 
20,000 Americans died from overdoses of heroin or synthetic opioids in 
2015, and between 90 and 94 percent of all heroin consumed in the 
United States comes from or passes through Mexico. While we, as 
Americans, must take responsibility for being the largest demand center 
in the world for the drug trade, stopping the cross-border flow of 
drugs is an essential step in protecting American lives from the 
catastrophic effects of drugs and the violence that follows them.
    While we seek a constructive relationship with China, and in many 
cases are seeing signs of shared interests, their artificial island 
construction and militarization of facilities on features in 
international waters is a threat to regional stability and the economic 
livelihood of the United States and our allies. As a nation dependent 
on the free flow of commerce across the globe, we, and all other 
nations, have a legitimate interest in the peaceful use of 
international waters, and we must assert our lawful right to the use of 
the South China Sea and other bodies of water.
    Both state and non-state actors' malicious cyber capabilities 
present a threat to U.S. national security, and complicate our 
diplomatic efforts with a surge of misinformation and interference in 
sovereign countries' internal governments.
    With such a broad array of threats facing the United States, the FY 
2018 budget request of $37.6 billion dollars aligns with the 
administration's objective of making America's security our top 
priority. The first responsibility of government is the security of its 
own citizens, and we will orient our diplomatic efforts toward 
fulfilling that commitment. Within the FY 2018 request level, funding 
for Diplomatic Security operations will increase by approximately 11% 
over FY 2016. While our mission will also be focused on advancing the 
economic interests of the American people, the State Department's 
primary focus will be to protect our citizens at home and abroad.
    Our mission is at all times guided by our longstanding values of 
freedom, democracy, individual liberty, and human dignity. The 
conviction of our country's Founders is enduring, that ``all men are 
endowed by their Creator with certain unalienable rights.'' As a 
nation, we hold high the aspiration that all will one day experience 
the freedoms we have known. In our young administration's foreign 
policy, we are motivated by the conviction that the more we engage with 
other nations on issues of security and prosperity, the more we will 
have opportunities to shape the human rights conditions in those 
nations. History has shown that the United States leaves a footprint of 
freedom wherever it goes.
    Ensuring the security and prosperity of the American people and 
advancing our values has necessitated difficult decisions in other 
areas of our budget. The FY 2018 budget request includes substantial 
funding for many foreign assistance programs under the auspices of 
USAID and the State Department, but we have made hard choices to reduce 
funding for other initiatives. But even with reductions in funding, we 
will continue to be the leader in international development, global 
health, democracy and good governance initiatives, and humanitarian 
efforts. If natural disasters or epidemics strike overseas, America 
will respond with care and support. I am convinced we can maximize the 
effectiveness of these programs and continue to offer America's helping 
hand to the world. Despite necessary reductions from FY 2017 levels, we 
are still devoting $25.3 billion to foreign assistance, which accounts 
for over 2/3 of the State and USAID budget. This entails $7.1 billion 
in security assistance programs, and $5.6 billion, including our 
diplomatic engagement, to defeat ISIS and other terrorist 
organizations. In several other areas where we have chosen to make 
reductions, we will ask other donors and private sector partners to 
increase their support.
    This budget request also reflects a commitment to ensure every tax 
dollar spent is aligned with the Department's and USAID's mission-
critical objectives. The request focuses the State Department and 
USAID's efforts on missions which deliver the greatest value and 
opportunity of success for the American people. The State Department 
and USAID budget increased over 60% from FY 2007, reaching a record 
high $55.6 billion in FY 2017. Recognizing that this rate of increase 
in funding is not sustainable, the FY 2018 budget request seeks to 
align the core missions of the State Department with historic funding 
levels. We believe this budget also represents the interests of the 
American people, including responsible stewardship of the public's 
money.
    I know there is intense interest in prospective State Department 
and USAID redesign efforts. We have just completed collecting 
information on our organizational processes and culture through a 
survey that was made available to every one of our State and USAID 
colleagues. Over 35,000 surveys were completed, and we also held in-
person listening sessions with approximately 300 individuals to obtain 
their perspective on what we do and how we do it. I met personally with 
dozens of team members who spoke candidly about their experiences. From 
this feedback we have been able to get a clearer overall view of our 
organization. We had no preconceived outcomes, and our discussions of 
the goals, priorities, and direction of the State Department and USAID 
were not token exercises. The principles for our listening sessions and 
subsequent evaluation of our organization are the same as those which I 
stated in my confirmation hearing for our foreign policy: we will see 
the world for what it is, be honest with ourselves and the American 
people, follow facts where they lead us, and hold ourselves and others 
accountable.
    We are still analyzing the feedback we have received, and we expect 
to release the findings of the survey soon. From all of this, one thing 
is certain: I am listening to what my people tell me are the challenges 
facing them and how we can produce a more efficient and effective State 
Department and USAID. And we will work as a team and with Congress to 
improve both organizations.
    Throughout my career, I have never believed, or experienced, that 
the level of funding devoted to a goal is the most important factor in 
achieving it. Our budget will never determine our ability to be 
effective - our people will. My colleagues at the State Department and 
USAID are a deep source of inspiration, and their patriotism, 
professionalism, and willingness to make sacrifices for our country are 
our greatest resources. I am confident that the U.S. State Department 
and USAID will continue to deliver results for the American people.
    I thank you for your time, and I am happy to answer your questions.


    The Chairman. Thank you.
    I am going to use just a portion of my time, I think.
    If you could, since there will be an appropriations process 
that is underway soon, when do you expect to have your thoughts 
together on how the State Department itself will be 
reorganized?
    Secretary Tillerson.  Senator, as I indicated, we have just 
completed an important listening phase. I have had an initial 
readout. I will get a final report. I am interviewing a couple 
of individuals who will come in and help us now with the next 
stage which is the redesign effort itself, which will involve 
the colleagues in the State Department and USAID. That effort 
likely--we will have that framed over the course of the summer. 
The effort itself will likely get underway sometime in August-
September time frame when we have our pathway forward, the 
process, how we want to engage our colleagues, how we want to 
get at various elements and themes that emerged from the 
listening session. Some of this is work process. Some of it is 
how we handle people. Some of it is how decisions are made. It 
is a very broad set of issues, which will quite inform us. So 
we have got to map out how do we want to get at each of those.
    But the work itself will start towards the end of the year. 
Hopefully we will have some clarity around what that looks like 
by the end of this year. Early next year we will begin 
implementation.
    The Chairman. And when you say this year, you mean this 
fiscal year?
    Secretary Tillerson.  This calendar year.
    The Chairman. So we are likely, as we move through the 
appropriations process, not to have benefit of that effort. It 
will take place after the appropriations for this next year are 
in place.
    I know it is sometimes hard for State Department employees 
to speak, if you will, truth to power when people are sitting 
there talking with them about the future and sometimes their 
future. Can you give us some general contours of what, as you 
are talking with folks, you are hearing from them relative to 
the actual State Department operations?
    Secretary Tillerson.  I would be happy to. Several things 
emerged. I think the overarching theme obviously though is the 
extraordinary dedication and patriotism of the men and women in 
the State Department and USAID and why they undertake a career 
like this, and that is a strength that we will build upon.
    What we heard from a number of people is they are dedicated 
to this broad mission of representing America's interests 
around the world, but from time to time, not just now but 
historically as well, there have been mixed messages within the 
Department, between the Department and USAID, between the State 
Department and embassies' missions themselves. So greater 
clarity around how the mission is defined and how direction is 
given.
    There are significant layers--layering of work processes 
and approvals required to deliver on mission. Some of these are 
imposed by State Department procedures and rules. Some of them 
are imposed by the Congress and how appropriations and programs 
are established and approved, all well intended to monitor and 
ensure that we are delivering on what we have been asked to 
deliver. But it does create a number of duplicative layers that 
create real obstacles for people to deliver on mission. And it 
adds cost, obviously.
    We also heard a theme that they do not feel that people are 
held accountable for their work in the State Department, that 
poor performers are not dealt with. You know, the people in the 
State Department know who is getting the work done and who is 
not getting the work done. And it is demoralizing to them when 
they see that we do not deal with those who are not delivering 
on their responsibilities. That gets to how we appraise 
performance, how we give people feedback, how we work to 
improve their performance. So we have a number of human 
resources processes that we believe can be improved and a 
number of leadership areas that need to be addressed.
    So most of the themes have to do--and this is the nature of 
what we wanted to engage people with is not, you know, is this 
the right objective, are these the right organizational boxes. 
Tell us how you get your work done and tell us what gets in the 
way of you getting your work done and what frustrates you 
because that translates to inefficiency and ineffectiveness.
    As I said, we have no preconceived notions going in. It 
would have been very easy to approach this, take the 
organization chart, start collapsing boxes, start making it 
flatter in an uninformed way. I do not have any number in mind 
as to what the efficiency will be, whether it is going to be 10 
percent, whether it is going to be 25, 30. We are going to let 
the redesign drive what those efficiencies will be. That is my 
experience in doing this in very large organizations both in 
the private sector and in the nonprofit sector where I have 
taken a similar approach. At the end of it, we capture 
significant efficiencies. But let us let the work of the 
redesign drive that, not going and saying I am looking for 20 
percent because those generally are not sustainable changes 
then.
    The Chairman. So much of that we can deal with, by the way, 
with the State Department authorization. I will say we are 
moving along. I know Senator Cardin and I have a meeting today. 
But many of the things you just addressed I know in the last 
administration, they began to see the State Department 
authorization process as a tool for them to help cause the 
Department to run better. And I hope you will work with us in 
that regard.
    I am going to reserve my last 37 seconds for an 
interjection at some point. But thank you.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    I want to follow up on this reorganization and your desire 
to make sure you work with Congress on that because I think the 
chairman raises a good point. We are working on the State 
Department authorization which with the authorizing committees, 
we may have some views that may be consistent, it may be 
inconsistent. But we are the policy arm so we do that. The 
appropriators are going to pass a budget. They are going to do 
that. And that budget may very well be consistent or 
inconsistent with the way that you are moving forward. So if we 
do not have that update--we have asked for an update, and I 
understand you are in a process. Our staff nor myself have been 
given any briefings as to how the reorganization is coming 
along.
    So let me just give you one practical example. You could 
not remove the ambassador on trafficking because that is set up 
by statute. But you could remove the ambassador on gender 
issues because that is not set up by statute. So Congress may 
want to weigh in now to let you know we want an ambassador on 
gender issues. So if we do not have that close working 
relationship, it is going to be very difficult to get an 
agreement on how this committee operates or the Appropriations 
Committee operates consistent with what you are trying to 
accomplish.
    Secretary Tillerson.  Well, first, Senator, we welcome the 
input at all times on the wishes of Congress, what your 
priorities are.
    As you point out, we have a large number of special envoys, 
special representatives. I think there are some 70-plus of 
them. What we have done is, obviously, those that are required 
by statute, we have left incumbents in place if they wanted to 
continue. So all of those that require us to have someone in 
the job, some people are double-hatting. They are doing two 
jobs at this point. But we have left this alone.
    As I said, it would be very easy to go ahead and just tell 
you, look, we are just going to collapse all of this into 
bureaus. But that would be prejudging an outcome, and I am 
trying to let--I am trying to get input on this.
    Senator Cardin. Well, understand Congress and previous 
Congresses have spoken on these by statutes. We have had 
traditions here of strong support for particular functions. I 
agree with you that that needs to be looked at, but if you do 
it in isolation of working with us, we are going to have a 
collision.
    Secretary Tillerson.  We have no intention of doing it in 
isolation. I am trying to give you a sense of where we are in 
the exercise.
    Senator Cardin. But my concern is the train is leaving the 
station in regards to the appropriations bill and the 
authorization bill, and your process will not conclude a lot of 
these issues until after those trains have departed. We have 
got to get better input as to your thinking as we move through 
this process.
    Secretary Tillerson.  I think that perhaps the difference 
in how we are thinking about this--it is just what people think 
about things differently. The effort that we are undertaking is 
to institutionalize change so that it stays, and we capture now 
and forevermore these----
    Senator Cardin. I think I understand.
    Secretary Tillerson.  I understand we are working on a 
fiscal year budget, and I know it is hard for people to know 
where to----
    Senator Cardin. We want to give you the authority you need 
to run your agency as efficiently as you possibly can. There is 
no disagreement. How you put a spotlight on different 
priorities is something that the Congress has some strong 
views.
    Secretary Tillerson.  We welcome that.
    Senator Cardin. That is why we set up these specialties.
    Let me just ask you quickly. Anti-corruption priorities in 
the budget. I had a hard time finding, as the budget was 
submitted, a commitment to fighting corruption, which is 
something that we talked about during your confirmation hearing 
and you were pretty committed about. Am I missing something?
    Secretary Tillerson.  In particular, whether it is in 
development areas or in law enforcement areas, we have looked 
carefully in particular countries of particular focus. We have 
done our best to preserve our ability to continue those 
efforts. For instance, in the Triangle country areas of Central 
America, through the initiatives there and other initiatives 
that we are working collaboratively with the Department of 
Homeland Security and others, to maintain our efforts towards 
strengthening law enforcement, strengthening the judicial 
system, strengthening the courts' ability to prosecute 
corruption because we have made progress down there and we do 
not want to lose that momentum.
    So we have looked in particular areas of the world where 
that has been--and we see the opportunity to capture lasting 
gains. We are trying to make sure we do not give ground to any 
place that we have current efforts underway. But we are looking 
at also ways to execute on that mission by bringing others in, 
seeking other contributors, finding other ways to enable that.
    Senator Cardin. In regards to the Paris agreement, you 
heard my opening statement. Did you change your view on that, 
or is this a matter that was just a political decision made by 
the administration?
    Secretary Tillerson.  My view never changed, Senator, from 
what I shared with you. It was run through an interagency 
process. I would tell you that the President was quite 
deliberative on the issue and took some time to come to his 
decision, particularly waiting until he had heard from European 
counterparts in the G7 on it. So my view did not change. My 
views were heard out. I respect that the President heard my 
views, but I respect the decision he has taken.
    Senator Cardin. I appreciate that. That is pretty clear, 
and I can understand.
    I want to ask one more question, if I might, and that is, 
as you heard from the chairman and from me, we have reached an 
agreement in regards to a Russian sanctions bill that will be 
considered on the floor later this week.
    We had deferred committee action pending your input as to 
whether there was any positive progress with your discussions 
with Russia as to either their reductions in their affirmative 
attacks on democratic institutions, their views in regards to 
Syria, their views in regards to Ukraine. Is there any positive 
message that you can report back to us?
    Secretary Tillerson.  We have a large placemat of difficult 
issues with the Russians. You just cited a number of them. As I 
have said, our relationship is at an all-time low and it has 
been deteriorating further. Our objective is to stabilize that. 
We are working in a couple of areas in particular to see if we 
can establish that there is a basis for reestablishing some 
type of working relationship with the Russian Government that 
is in our interest. There are efforts underway in Syria 
specifically. Those are, I would say, progressing in a positive 
way, but it is far too early in the process to say whether they 
are going to bear fruit.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. So a liberty there. Because of the way that 
today is going to go, I am going to hold pretty firm to time 
here, if we could.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Secretary Tillerson, for your service and your 
time today.
    Yesterday I noted that Secretary Mattis declared that North 
Korea was the most urgent threat to national security facing 
the United States. I share your assessment that North Korea is 
the top national security concern for the United States and 
that exerting maximum pressure is the only way to force this 
regime to peacefully denuclearize.
    Two weeks ago, I had the opportunity to visit with the new 
South Korean Government, and I hope that in the coming weeks, 
they will decide that this June summit between President Moon 
and President Trump is an opportunity to strengthen the U.S.-
Republic of Korea alliance.
    But I want to draw your and my colleagues' attention to two 
independent reports that have recently come out regarding North 
Korea. They have been released this past week.
    The first report was a report released by an independent 
organization named C4ADS, and this report identified over 5,000 
Chinese companies that are doing business with North Korea. 
These Chinese companies are responsible for $7 billion in trade 
with North Korea, which represents 90 percent of North Korea's 
total global trade. Moreover, the C4ADS report found that only 
10 of these companies controlled 30 percent of Chinese exports 
to North Korea in 2016 alone. One of these companies--just one 
of those companies--controlled 10 percent of total imports from 
North Korea. Some of these companies were even found to have 
satellite offices here in the United States.
    The second report I want to highlight was a report released 
by the Royal United Services Institute in the United Kingdom 
last week. It concluded the report finds that not a single 
component of the United Nations sanctions against North Korea 
currently enjoys robust international implementation.
    In February of 2017, the U.N. Panel of Experts on North 
Korea similarly assessed that Pyongyang's illicit networks 
overseas were, ``increasing in scale, scope, and 
sophistication.''
    Do these reports undermine the administration's claim that 
we are exerting maximum pressure on Pyongyang?
    Secretary Tillerson.  No. I think they shed a significant 
amount of light on how complex and difficult applying pressure 
to North Korea is. But what we are doing is we are calling on 
everyone, obviously the Chinese Government. We are calling on 
governments around the world. And there is not a bilateral 
discussion I have with any government anywhere in the world, 
whether it is in eastern Europe, Southeast Asia, or Central and 
South America that we do not talk about their relationship with 
North Korea and asking them to examine all of those ties. And 
even when they say, oh, we only have $5 million worth of 
business, I say make it $2 million. So we are at least at this 
stage making clear to people around the world and governments 
what the U.S. policy and position is.
    The report that you cite, which I have not had an 
opportunity to review in detail, but I am familiar with it, I 
think does illustrate just how sophisticated and complex 
getting at North Korea's sources of revenue are. That is why we 
are also working with China and Russia to put pressure more on 
how commodities are delivered into North Korea because that is 
very visible.
    The intricate financial networks that they have established 
around the world are challenging, but they are not impossible 
to address. So we are working closely with the Treasury 
Department. We can substantiate because we do not want to take 
inadvertent action against someone that we are not confident is 
violating these sanctions. We are moving. The approach is we 
reveal to the host government. We say to them we have this 
information. We are confident with this information. We are 
going to ask you to deal with this within your own country so 
that we are not, to the extent possible, interfering with their 
own ability to manage this. But we have also told them if you 
do not deal with it or if you do not want to deal with it, we 
will certainly be willing to deal with it ourselves.
    So we are in a stage where we are moving into this next 
effort of are we going to have to, in effect, start taking 
secondary actions because countries that we have provided 
information to either have not or are unwilling to, do not have 
the ability to do that.
    But I think you have highlighted how challenging this is. 
That is why we are going to have to move to work with others to 
begin to deny North Korea basic needs like crude oil supplies, 
petroleum fuel supplies, things that are fairly--or at least 
they are easier. I do not want to say they are fairly easy. 
They are easier to monitor whether we are getting cooperation 
with people or not.
    Senator Gardner. Would you support an Iran-style global 
embargo on North Korea, getting international community support 
to deny things like petroleum and other exports into North 
Korea?
    Secretary Tillerson.  Well, clearly we would have to work 
very closely and carefully with their two principal suppliers, 
which is China and Russia. So if China and Russia said we are 
never going to vote for a global embargo--and that has 
historically been their position for reasons I think we all 
understand--then it would be ineffective.
    Senator Gardner. Do you believe that China is living up to 
the agreements that they have made in conversations with 
President Trump? Do you believe they are living up to what they 
said they would do as it relates to North Korea?
    Secretary Tillerson.  I would tell you it is uneven at this 
point.
    Senator Gardner. Because I think trade with China and North 
Korea has increased 40 percent just in the first quarter 
alone--between China and North Korea.
    Secretary Tillerson.  And some of that was prior to our 
conversations with the Chinese. They have taken steps, visible 
steps that we can confirm. We are in discussions with them 
about entities inside of China.
    Senator Gardner. Is there a timeline for those discussions 
on sanctions?
    Secretary Tillerson.  We have another high-level dialogue 
with the Chinese next week. This is going to be the first topic 
on the agenda.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you. Good timing.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Chairman, just a prefatory remark. As the longest-
serving member of this committee presently, I can tell you that 
budget hearings are never necessarily about budgets, and they 
are not about potshots. Getting to the truth about what an 
administration's views and policies are is a search for the 
truth and an understanding. And I know that there is an attempt 
to gloss over the administration's budget as it is dead on 
arrival, but a budget is a statement of values. And the 
administration has put forth a budget for the State Department 
that I do not think shares American values.
    So in that context, I am particularly concerned, Mr. 
Secretary--and we appreciate you being here today--about the 
cuts to programs that support democracy, human rights, and good 
governance. While our support for democratic governments, 
independent media, and the rights of people to freely express 
themselves and organize are rooted in the core values that 
shape this great country, our support for these programs 
overseas is not solely in pursuit of lofty ideals. History has 
proven that over the long term, governments around the world 
with strong democratic institutions that respect the human 
rights of all their citizens are more stable, more prosperous, 
more resilient to the tentacles of radicalization and 
instability and ultimately make better partners for the United 
States.
    This administration, despite statements to the contrary, 
seems to have deemed democracy and human rights a low priority 
for our American foreign policy. The administration has 
requested 31 percent less money for democracy, human rights, 
and governance programs. Furthermore, when heads of state from 
countries who have a long and visible history of repressing 
human rights make official state visits, human rights seem 
nowhere on the President's agenda.
    So I am appalled that you have completely zeroed out--
zeroed out--the democracy assistance account. As brave citizens 
continue to risk their lives advocating for the basic freedoms 
we enjoy here, this budget sends a message that the United 
States is no longer on their side and abandoning the pursuit of 
justice. It effectively withdraws American leadership around 
the world, pushing the door open for Russia and China to 
increase their scope of influence. There is a direct connection 
between repressive actions domestically and adversarial actions 
abroad.
    The Russian Government this week continued a long tradition 
of arresting and detaining peaceful opposition protesters. This 
is the same Russia that violated international order by 
invading and occupying Ukraine, spreading its repressive 
tactics.
    Now, in your opening statement to this committee at your 
confirmation hearing, you stated the following. ``Our approach 
to human rights begins by acknowledging that American 
leadership requires moral clarity. We do not face an either/or 
choice in defending global human rights. Our values are our 
interests when it comes to human rights and humanitarian 
assistance.''
    So my question, Mr. Secretary, is simple. Does this 
administration believe that support of democracy and human 
rights is a reflection of American leadership and values? And a 
simple yes or no to that would be appreciated.
    Secretary Tillerson.  Yes.
    Senator Menendez. How can you say that then when the budget 
completely zeroes out assistance for democracy assistance?
    Secretary Tillerson.  As you know, there are other 
mechanisms in other parts of the budget where we continue to 
remain engaged with countries that are dealing with 
interference or repressive regimes. Certainly areas of Eastern 
Europe that are being threatened--we have ensured that we can 
maintain our engagement there and parts of Africa. There are 
countries that we have had to withdraw the support. And again, 
these are some of the hard choices that I mentioned in terms of 
where do we put the dollars we have to best use it where we are 
making progress and the threats are the greatest.
    Senator Menendez. If this is a core value of our foreign 
policy, then ultimately zeroing out its account does not speak 
to that core value.
    Let me ask you this. Do you believe that the Russia 
sanctions that the Senate is about to vote on--first of all, do 
you believe that the Iran sanctions bill, which has been out 
there for some time, is on the Senate floor--do you believe the 
administration will support that legislation?
    Secretary Tillerson.  I have not had a conversation 
directly with the President as we have not reviewed that in the 
interagency discussion yet.
    Senator Menendez. What would be your advice to him?
    Secretary Tillerson.  I think it looks pretty good to me, 
and so I think you are going to find it receptive. But I do not 
want to speak on behalf of the President or the interagency 
process.
    Senator Menendez. I understand.
    What about Russia sanctions that have been agreed to in a 
bipartisan fashion?
    Secretary Tillerson.  I have been reviewing those as they 
have emerged in the last 24 hours. I think with respect to 
Russia--and the chairman and I have had discussions about this 
as well and I have had discussions with others who have called 
to inquire. I think what we would like is the flexibility to 
turn that heat up when we sense that our efforts with Russia, 
whether it be in Syria--we have engagements that they have 
asked for us to engage with them on Ukraine. So we have some 
channels that are open where we are starting to talk, and I 
think what I would not want to do is close the channels off 
with something new.
    Senator Menendez. I understand. They have done plenty 
already that they should be responded to.
    Finally, you said in your confirmation hearing that slavery 
and human trafficking have to be addressed and America has to 
lead. The President's budget calls for a drastic 68 percent cut 
in funding for the State Department's anti-trafficking efforts. 
How is that we fight modern slavery when you make that type of 
cut?
    Secretary Tillerson.  Again, we have to target there as to 
where we see the greatest risk and the greatest opportunity to 
achieve some success, but also engage other countries in 
multilateral approaches, which we are doing in our trans-
criminal organization's initiative with Mexico, the Mexican 
Government. That is targeted at illicit narcotics, but it is 
also targeted at human trafficking and other illicit trade. So 
we have got to take new approaches that engage other countries 
who should share our same objectives for their part of the 
world. Then we will move and try to engage others elsewhere and 
keep the effort underway with the resources we have, but call 
on others to do more as well.
    Senator Menendez. Well, I hope, Mr. Chairman, we change the 
budget in a way that reflects the values. And I know that in 
this particular case, the chairman is very passionate about it.
    The Chairman. I appreciate you raising that point very 
much.
    Senator Young?
    Senator Young. Welcome, Mr. Secretary. I first want to 
commend you and the dedicated public servants of the State 
Department for securing the release of an American national 
from North Korea.
    I also want to applaud the Trump administration for your 
effort to reform our development assistance. To help inform 
that effort, on May 30th, Senator Shaheen and I announced that 
we are co-chairing a Center for Strategic and International 
Studies congressional task force on reforming and reorganizing 
U.S. development assistance. We brought together a bipartisan 
group of top development experts, former Bush and Obama 
administration officials, retired senior Foreign Service 
officers of USAID and State, former ambassadors, former members 
of the National Security Council staff. And our goal is to 
provide recommendations to you regarding what optimal reform 
and reorganization looks like, something you have spoken to you 
are deeply interested in. We want to provide you some 
actionable steps that this administration can take working with 
Congress.
    We have already met twice. We will be meeting a number of 
other times. And our plan is to issue a report in mid-July. So 
we will have a work product very soon.
    Would you be willing, Secretary Tillerson, to meet with me, 
Senator Shaheen, and some of these panelists to discuss the 
findings of this task force, the recommendations we put forward 
to improve the effectiveness, the efficiency, and the 
accountability of our Nation's development assistance?
    Secretary Tillerson.  Certainly we would welcome the 
perspective of that group that you just described. We are also 
reaching out to former Foreign Service officers, retired 
ambassadors to get them involved as well in terms of helping 
inform this initiative and effort. So, yes, I certainly would 
welcome the opportunity to do that and to have some others who 
are going to help us with this exercise also participate in 
that. I think it would be useful.
    Senator Young. Great. So we will look forward to sitting 
down with you and the others we mentioned. Thank you so much.
    As you know, Mr. Secretary, we are seeing a heartbreaking 
humanitarian crisis in four countries: Nigeria, Somalia, South 
Sudan, and Yemen, the so-called four famines, a humanitarian 
crisis. You may recall that on March 23rd I handed you a letter 
signed by 10 members of this committee asking the Department of 
State to implement an urgent and comprehensive diplomatic 
search to address political obstacles that are preventing the 
delivery of food and humanitarian supplies to these countries, 
each of which have their own complexities and challenges. Since 
then, this committee has passed my resolution, Senate 
Resolution 114, calling for the very same thing.
    Sadly, in the meantime, the humanitarian situations in many 
of these places have only gotten worse.
    Can you provide this committee with an update of what 
specific steps the Department of State has taken to address the 
political obstacles that are preventing the delivery of food 
and medicine in these four countries?
    Secretary Tillerson.  Well, we have had discussions with 
the United Nations people as well to get their perspectives. We 
have worked with some other partners in the region. And again, 
on this issue, we are trying to elicit participation by others, 
have others bring their own capacity as well. As you point out, 
in all these countries, the situation is quite dynamic, and the 
circumstances on the ground does shift, and it does move back 
and forth on us, which makes delivery of humanitarian 
assistance all the more difficult. We have more work to do, 
obviously, in this regard, and we have more work to do with 
partners who have influence as well.
    So I would welcome the opportunity to get back to you with 
more details later on the circumstances there. They are 
extremely challenging because of the situation on the ground 
that is contributing to the famine itself. As you well know, it 
is not entirely driven by just Mother Nature. It is driven by 
the conflict situations which we are dealing with as well.
    Senator Young. So very complex, sometimes quite challenging 
to make a significant difference in each of these four 
countries.
    One area where, frankly, I see some low-hanging fruit, as 
it were, is Yemen. Arguably the greatest humanitarian crisis of 
the four countries. Roughly 20 million people will be facing 
near death circumstances either through starvation or lack of 
medical attention. Thousands, we can anticipate, will be 
infected with cholera. The situation goes on and on. No need 
for me to lay out the parade of horribles in my limited time.
    But I have been working on this issue very directly for 
some time trying to engage the administration's interest and 
attention on the matter.
    You visited with the Saudi foreign minister this morning. 
You, of course, know the Saudi-led coalition is engaged in a 
regional conflict there. There is a civil war in Yemen. And I 
think there is a real opportunity to mitigate some of the 
suffering while increasing, furthering U.S. national security 
interests in that region.
    Were there any specific steps that you asked of the Saudis 
this morning with respect to improving the humanitarian 
situation in Yemen? For example, there are four cranes in the 
major port of Hodeidah in Yemen where 80 percent of the 
incoming food and other supplies are typically delivered. Those 
cranes, paid for in large measure by U.S. taxpayer dollars, 
have not been delivered. Was that or anything else brought to 
the foreign minister's attention, sir?
    Secretary Tillerson.  On the Yemen situation, I have been 
in discussions with the crown prince of the Emirates. I had a 
fulsome meeting with him and with the Saudis.
    The issue in the Port of Hodeidah is it is controlled today 
by the Houthi rebels. We have evaluated how do you get the aid 
delivered and then not have it stolen, which is what is 
happening. And so we are working on how to open up a secure 
delivery mechanism as well. We are actively working it. I am 
very familiar with the situation with the cranes. We are very 
familiar with the situation of turning the operation of the 
port over to perhaps the United Nations. We are working through 
all of these in a very specific way to ensure that if we 
deliver aid, it ends up to the people that need it.
    Senator Young. I have some comebacks. Regrettably I am out 
of time, which is how this works.
    Secretary Tillerson.  We look forward to continuing this 
with you offline. Please call me.
    Senator Young. Thank you, Mr. Secretary.
    The Chairman. I really appreciate your pursuing these 
issues prior to today's vote. I mean, I know you have had 
conversations about that and look forward to that outcome.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much. And I 
appreciate, Mr. Chairman, the regular order that you have 
created here so that we can question the Secretary on the State 
Department budget.
    I wish that there was regular order to deal with the health 
care bill. I wish that the Republican leadership was having 
open hearings, public input so that this massive health care 
bill, which is being constructed clandestinely, could be seen 
not only by the American public but by every Member of the 
Senate before it is brought out to the Senate floor. It could 
lead to 23 million Americans losing their health insurance, 
people losing their opioid coverage for illnesses in their own 
families. And it is just absolutely wrong. This is the way the 
Senate should operate. What they are doing with that health 
care bill is absolutely--it is just wrong what they are doing. 
And we are going to have to continue to elevate that issue.
    So, Mr. Secretary, I want to follow up on what Senator 
Gardner said. This story that is in the ``Washington Post'' 
today about C4ADS, a company that has put together a report 
called ``Risky Business,'' which tries to find the links 
between the China Government and its companies and the North 
Korean Government. And it has identified key component 
companies that, if they were targeted, could potentially 
cripple the networks because they are so intertwined with links 
right into the United States of America. And it could go a long 
way towards choking off this global illicit finance system, 
which the North Koreans have constructed. They are centralized. 
They are limited. They are vulnerable. I really recommend this 
report to you, Mr. Secretary. I think that this is where we 
should be going.
    There has been a 37 percent increase year over year in 
trade between China and North Korea. There is no way they are 
going to respond to our request that they negotiate on the 
ballistic missile and nuclear question unless they feel the 
pain of the noose tightening around their economy.
    This report today is a blistering, scalding indictment of 
the lack of true enforcement of the trade between China and 
North Korea with actual financial benefits that flow to 
individuals and companies in the United States. So I just 
strongly recommend that you become very familiar with this 
because I think it goes right to the core of what we have to be 
concerned with.
    Illicit fentanyl comes in from China, comes in from Mexico. 
In the United States last year, unbelievably 59,000 people died 
from overdoses. In Massachusetts, 2,000 people died from 
fentanyl in their system. If that was multiplied out by the 
whole country, that would be 70,000 Americans who died from 
fentanyl. The precursor chemicals come from China. They are 
moved to Mexico. Then the Mexican gangs bring them up into the 
United States.
    This for me is the real terror on the streets of our 
country, this opioid epidemic. And given the scope of the 
tragedy, the Trump administration's proposed 32 percent cut to 
the budget of the Bureau of International Narcotics Control and 
Law Enforcement is absolutely unacceptable. It just shows that 
instead of prioritizing an issue that goes right to the heart 
of what people are concerned about, where they want our State 
Department, where they want our law enforcement, and instead, 
we see this dramatic undermining of the effort to stop these 
lethal drugs.
    Can you talk about why there would be a 32 percent cut, Mr. 
Secretary, given the epidemic of fentanyl coming in from China 
and Mexico?
    Secretary Tillerson.  Senator, I could not agree more with 
your assessment of the seriousness of the threat of fentanyl, 
as well as other illicit narcotics. We have underway, as a 
result of Secretary Kelly and my first bilateral visit to 
Mexico City--one of the issues we had on our discussion early 
on was this trafficking that occurs either from Mexico or 
certainly through Mexico. I told my Mexican counterparts it is 
time to stop playing small ball. We got to start playing large 
ball.
    We have followed that up now with two additional 
bilaterals, one most recently held here in Washington where we 
are mapping out a different way of attacking the issue in a 
supply chain, value chain mechanism. Where are things produced? 
Where are they manufactured? Where are they distributed and 
transported? How are they marketed? How are they delivered?
    So clearly there are parts of all of that they own. There 
are parts of it that we own together. And certainly the part 
that we own is how do we get at why we are the demand center 
for this. We brought in Health and Human Services to work with 
us in this effort as well.
    Senator Markey. Have you raised this issue with your 
counterpart in the Chinese Government?
    Secretary Tillerson.  We have discussed with the Chinese 
Government, yes.
    Senator Markey. Did you raise it yourself?
    Secretary Tillerson.  In my discussion with the Chinese, I 
have talked to them about the illicit drug flow coming out of 
China through Mexico.
    Senator Markey. Fentanyl specifically?
    Secretary Tillerson.  Yes.
    Senator Markey. And what did they say?
    Secretary Tillerson.  Well, obviously, they say it is a 
serious problem. Yes, they will crack down on that as well. I 
think it is too early to tell what efforts and whether that is 
producing anything. But we are going to keep it in our dialogue 
with the Chinese that we need you to work on your source of 
supply with this particular additive, this fentanyl additive 
which is deadly.
    Senator Markey. A kilo of heroin costs $6,000. It can be 
sold for $80,000. A kilo of fentanyl costs $6,000. It can be 
sold for $1.5 million. The Chinese and the Mexicans are 
rational economic actors. They are moving in that direction, 
and unless you get a positive response from the Chinese 
Government and Mexican Government, then we have to escalate 
this up to the very top of the list of issues that our country 
expects the Trump administration to deal with.
    Thank you, Mr. Chairman.
    The Chairman. Thank you for that point.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Secretary, first of all, thank you for the great job. I 
do not just say that in a pandering way. Your first 6 months 
have been very impressive, and I appreciate it. The first trip 
you took with the President, with the leadership in the State 
Department. We are fortunate to have you in place, and thank 
you for doing what you are doing.
    Secondly, having reorganized a large company on the scale 
of a small business but not a large company on the scale of 
Exxon Mobil, you are in an unenviable position of answering 
budget questions in advance of the result being determined by 
how you reorganize the Department and how they use the budgets 
of the future. In fact, if we could have fiscal year 2019 in 
front of us instead of 2018, the questions would be totally 
different, I am sure. But you do not get to do it that way. I 
think your statement to Senator Cardin, I do not think the 
train has left the station yet and do not prejudge us, but 
gives us the chance to do the job.
    And you made a great statement in your prepared remarks 
when you said the budget will not determine our effectiveness. 
Our people will. And I think the way you are approaching the 
reorganization of the Department and getting all the facts in 
before you take any steps will serve well the reorganization 
that does take place in the State Department of the future.
    With that said, the hiring freeze that is currently in 
place has had an impact on the State Department's hiring of new 
Foreign Service officers. Is that not correct?
    Secretary Tillerson.  Well, as of today, Senator, we 
actually are up about 50 Foreign Service officers from the 
start of the year, about a half a percent. The effect will come 
later as what we are doing is just allowing normal attrition to 
bring the numbers down.
    And as we look forward, we know we have got to continue to 
replenish our Foreign Service officer corps. So we are still 
interviewing people, and as we look ahead, we will probably be 
looking at a one for three kind of replacement. But the Foreign 
Service, if we look further out--and I think we have said this 
publicly--by the end of fiscal year 2018, we think we will be 
down about 8 percent overall on permanent State Department 
Foreign Service, Civil Service. Foreign Service is actually 
only going to be down about 4 percent. Civil servants are going 
to be down about 12. So it is being managed in a deliberate 
way, but being very mindful of not diminishing the strength of 
our Foreign Service officers.
    Senator Isakson. I just do not want to see you get into a 
position where we have a brain drain that we could not make up 
for pretty quickly down the line because these people are 
important to the visibility of America overseas.
    Finally, was there a freeze relative to the employees of 
the State Department?
    Secretary Tillerson.  State Department family members that 
are eligible to be hired in mission--we have a waiver process 
in place for that, and I have approved a number, in answer to 
your question, to all of those. But where we have critical 
missions like in Iraq, Pakistan, Afghanistan, where we really 
need these positions filled by family members who are willing 
to go to those tough locations, I have been providing waivers 
in those circumstances.
    Senator Isakson. That is why I raised the point because 
those people have invaluable experience that nobody else has 
and a reason to have a willingness to serve that nobody else 
would have as well. So they would be valuable to the State 
Department.
    Secretary Tillerson.  Indeed.
    Senator Isakson. One example of what has been read in the 
budget by some people when they have seen consolidations of 
departments and responsibilities without the future result is 
you have got the economic support fund and the development 
assistance account merged into one fund without any change in 
the authorization for the fund and a new name called the 
economic support and development fund. Well, our 2019 showed 
the results of these mergers not just in terms of financially 
but in terms of reauthorization for these departments. You are 
not just going to redo the budget, but you are, in fact, going 
to restructure these departments and the mission too, I assume.
    Secretary Tillerson.  That will be the intent coming out of 
this redesign. As all of you well know, we have a number of 
bureaus that have common missions. Some of them have 
overlapping missions, not just true within the State 
Department, but we have that with other agencies as well.
    This exercise is to also identify where we have overlapping 
missions with Defense, Agricultural Department, Commerce, where 
do we have opportunities to achieve delivery on mission, do it 
perhaps more effective because there is a common greater 
coordination. All of that is yet to come. And that is why I 
said I do not want to foreclose anything at this point.
    Senator Isakson. In other words, the train has not left the 
station. So stay tuned.
    Secretary Tillerson.  Please get on the train with us. We 
need everybody on the train.
    Senator Isakson. Thank you for your service.
    The Chairman. Thank you, sir.
    Senator Murphy?
    Senator Murphy. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Secretary.
    I want to echo the comments and concerns of Ranking Member 
Cardin. To many of us and to many people who follow U.S. 
foreign policy, the withdrawal of American leadership from the 
world in the first several months of the Trump administration 
looks deliberate, whether it be a proposed 32 percent cut to 
your Department which represents us in some of the most forums 
and in every country around the world, whether it be the 
decision to back out of the most important international 
agreement that has been entered into over the course of the 
last decade, or whether it be this decision, whether it be 
deliberate or not, to keep Assistant Secretary and Deputy 
Secretary positions unstaffed for a longer time than any of us 
can remember in any previous administration. You know, it has 
resulted in some fairly dramatic statements by leaders around 
the world, not the least of which was Chancellor Merkel who 
said, upon President Trump's first foreign trip, at the 
culmination of it--she said ``the times in which we can count 
on others are somewhat over, as I have experienced in the past 
few days.''
    So this decision to take a big step back from U.S. 
leadership--it does seem deliberate. It does seem intentional. 
I can understand that certainly could be a strategy, to 
telegraph to the rest of the world that they need to make their 
own plans, that they need to form their own alliances, that 
they just simply are not going to be able to rely on us.
    So let me just ask you that simple question. Is this a 
deliberate strategy? Should our allies start making plans that 
rely less on U.S. leadership and U.S. support?
    Secretary Tillerson.  Well, Senator, I take a completely 
counter view to the way you have interpreted it, the 
President's actions and what the administration has had 
underway. In discussions with many of our longstanding allies 
and friends, I think we are really leaning into U.S. leadership 
to make it clear to these longstanding allies and very 
important allies and friends of ours that America has been 
leading for a very long time, and the American people have been 
reaching in their pockets and paying for this leadership for a 
very long time. And we are going to continue to be in this 
leadership role, but you, our allies, must do your part. You 
must do your share. And I think there is a realistic and honest 
examination of what the American people have been asked to do 
relative to what some of our allies and partners have been 
asked to do. There is a lack of alignment there. And I think 
what our approach is----
    And I would tell you my interpretation of Chancellor 
Merkel's remark was for her to say to the German people you 
need to understand we are going to have to do more than we have 
been doing because we have that responsibility now. We should 
not look to America to carry us on their backs every step of 
the way. That is part of the conversation that we have been 
trying to stimulate, and every leader has to express it to 
their own people in their own way.
    I would tell you NATO is a perfect example. And you are 
well aware of the demands we have been making of NATO members. 
Secretary-General Stoltenberg has thanked us for taking this 
position. NATO has never seen a response from countries like 
they are seeing now because of this pressure that has been put 
on others. And it is a very open, honest conversation we are 
having with our friends and allies about how are we going to 
share this burden. We all carry the burden. We are not going to 
set the burden down. We are not going to walk away. But we have 
to talk about how we are going to carry this burden going 
forward because the world has changed. The world has changed 
dramatically.
    Senator Murphy. I want to switch to a question about what 
is happening in Syria today, just to get you on the record. In 
the last 30 days, the United States has come into conflict with 
Syrian forces, with forces aligned with the Assad regime, and 
with his Iranian proxies three different times. We have taken 
offensive action against those forces.
    Let me ask you this. Has the administration made a decision 
to actively contest territory inside Syria with the Assad 
regime? And what legal authorization is the administration 
using to take action against the Syrian regime or against 
Iranian proxies inside Syria?
    Secretary Tillerson.  Well, I do not want to get into 
detail since we are in an unclassified environment here. But 
our mission and our purpose and reason for being in Syria is 
unchanged. We are there to defeat ISIS. And all of our efforts 
are focused on defeating ISIS, denying them of their caliphate. 
As you know, both in Iraq and Syria, it is a coordinated 
effort. We are making tremendous progress in denying ISIS their 
caliphate and chasing them further down the lower Euphrates 
River Valley. That is the objective. That is why we are there.
    Senator Murphy. Would you agree that there is no legal 
authorization granted to the administration by Congress to wage 
war against the Assad regime or against Iranian proxies?
    Secretary Tillerson.  I would agree with that.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you. And I do want to say that this 
work period we plan to deal with an AUMF, and I thank everybody 
for their interest in that.
    Senator Risch?
    Senator Risch. Mr. Chairman, thank you.
    I wish Senator Markey had stayed. I understand that the 
memo went out to all the Democrats that they are supposed to 
raise health care. So I do not know what that had to do with 
our hearing today, but Senator Markey raised health care. And I 
should respond to him briefly, if I might.
    He was beating his breast in righteous indignation that we 
have working groups that are trying to resolve this mess that 
is called Obamacare, and the stuff is not getting out. I would 
remind him that 3,000 pages of that complex legislation was 
dropped on my desk 30 minutes before we voted on it in the 
middle of the night. And so he is right. We should have 
substantially more work on it than doing it in the middle of 
the night like happened with Obamacare or we are going to wind 
up with the same mess.
    Secretary Tillerson, I have been very impressed with your 
service. There was a lot of criticism of the President over a 
lot of things but particularly when he appointed you because of 
the fact that you did not come out of what has traditionally 
been diplomatic circles. And I can tell you that seeing you 
work in the months, it has been a real pleasure when you have 
been on board because you have certainly picked this up. As you 
know, this is not run-of-the-mill stuff when you are dealing in 
diplomatic circles. So thank you for your service. Thank you 
for doing that, and we are very proud of you. And it is not 
just me. In my service here and on the Intelligence Committee, 
I deal with people from other countries all the time, and I am 
telling you you are getting high marks wherever you put 
footprints on the ground. So thank you for your service.
    Senator Murphy brought up the comments by Angela Merkel 
about the comments that she made about people taking care of 
themselves. And I want to ask you a question that I have 
noticed. I have been here over the last 8 years meeting with 
people from other countries, and they were incredibly 
frustrated by our leading from behind or whatever you--doing 
nothing I guess is what it was.
    After the President pulled the trigger twice, which you 
never hear about in the media anymore, once in Syria after the 
use of chemical weapons and then again in Afghanistan after one 
of our SEALs got killed, there was a marked change in my view 
of the attitude of particularly our allies and some that are 
not particularly allies of ours. Indeed, I met with some right 
after that Syrian episode, and some of them were positively 
giddy about the fact that America was back.
    Are you finding the same thing as you travel around the 
world?
    Secretary Tillerson.  Senator, I am. I think all of our 
allies and friends appreciate decisiveness. Even if we make a 
decision they may not like or agree with, they appreciate 
decisiveness. So it is clear where we are going. They certainly 
on the security front and in our shared battle against ISIS and 
counterterrorism--our moves have been very welcomed. I find our 
relationships to be quite strong.
    My discussions with my counterparts. Whether they are 
foreign secretaries, foreign ministers, it is very open. It is 
very frank about where we are agreeing, where we are not. But 
there is a real common sense that U.S.-ally relationships are 
stronger today. We have our differences and we express them in 
different ways. But there is greater clarity to where we are 
going today than there has been in some time. That is what I 
hear.
    Senator Risch. I hear the same thing. And that decisiveness 
that you talk about has given them, in my judgment, a lot 
stronger confidence in what they can expect of us. I saw 
confusion. I saw a real troubling view from their point of view 
during the last 8 years, and it has changed markedly since 
those two events that nobody ever talks about.
    And by the way, have you heard any reports of use of 
chemical weapons in Syria since that episode?
    Secretary Tillerson.  None that we are aware of, but we are 
watching it closely.
    Senator Risch. Thank you.
    And I would assume it would not take a rocket scientist to 
figure out that if we can drop 97 of them on a dime in one of 
their airfields, that we can probably put one down the chimney 
in Damascus somewhere. Would that be something that some 
reasonable person might conclude?
    Secretary Tillerson.  We would just like to know who is 
sitting next to the fireplace.
    Senator Risch. Lastly, Mr. Tillerson, those of us that sit 
on this committee and, for that matter, on the Intelligence 
Committee--one of the things--and this is not something that is 
a huge part of this budget, but there is money that goes to 
assistance to the Palestinian Authority. And the payments that 
have been made over the years from some of that money to the 
Palestinian Liberation Organization that they use to pay 
families of suicide bombers--I will tell you that is like 
grating on a blackboard as far as a lot of us are concerned. I 
am sure that is on your radar. And I realize that there are 
other sides of that as far as those payments into the West Bank 
or into Gaza. But this is something that really galls on us. 
Anything you can do about that would be greatly appreciated.
    Secretary Tillerson.  Well, let me assure you, Senator, it 
was discussed directly when President Abbas made his visit with 
his delegation to Washington. The President raised it, but then 
I had a much more detailed bilateral with him later that day, 
and I told him you absolutely must stop making payments to 
family members of ``martyrs.'' I said it is one thing to help 
orphans and children, but when you designate the payment for 
that act, that has to stop.
    They have changed their policy. At least I have been 
informed they have changed that policy, and their intent is to 
cease the payments to the family members of those who have 
committed murder or violence against others. So we have been 
very clear with them that this is simply not acceptable to us. 
It is certainly not acceptable to the American people.
    Senator Risch. Well, Mr. Abbas probably has something to 
say about the West Bank, but you get deep into Gaza--I do not 
know how much influence he has got there.
    Secretary Tillerson.  Well, and I would say in Gaza we are 
working with others who have provided assistance and funding 
into Gaza, much of which is, as you know, to relieve the 
humanitarian problem, rebuilding homes, hospitals, schools. But 
there is always a lot of leakage of that money. And so we are 
working carefully with others as to how do you help. And the 
Israeli Government is supportive of stabilizing Gaza by 
providing these type of humanitarian actions. We just cannot 
have the money leaking into the hands of those who would commit 
violence with it.
    Senator Risch. Thanks for the job you are doing.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I do want to thank you for 
bringing up the Taylor Force issue. And I just want to say to 
the committee that it is my hope that before we go home for 
August recess, that we will have passed out of committee a 
Taylor Force-like piece of legislation to address that issue. 
So thank you for raising it.
    Senator Coons?
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Cardin.
    Thank you, Secretary Tillerson, for your service and the 
chance to be with you again. We will be together later today at 
an Appropriations subcommittee.
    So in this context, I will focus on some narrow questions 
that are about State Department functioning and authorization, 
if I might.
    Let me just first more broadly say my predecessor in this 
seat, former Vice President Biden, often said, ``Do not tell me 
what you value. Show me your budget and I will tell you what 
you value.'' And I am greatly concerned that the proposed deep 
cuts to development assistance and diplomacy suggest we do not 
value diplomacy and development as tools of foreign policy at a 
time when we badly need them and need more of them.
    I think the growing threat we have seen, the attack on our 
democracy by Russia, the destabilizing acts of North Korea, the 
nuclear program, and the world's worst humanitarian and refugee 
crisis since the Second World War call for us to invest more in 
diplomacy and development, not to dramatically cut it. But I 
will save the rest of that for the appropriations hearing this 
afternoon.
    I understand from your testimony you are nearly done 
conducting a review of the whole State Department. How soon can 
we expect nominations for the six regional bureaus? I am 
concerned about some of the difficulty in moving forward key 
nominations.
    Secretary Tillerson.  We are at about, I would say, the 50 
percent mark in terms of under secretaries, assistant 
secretaries, in terms of people that have been identified. 
Names are actually being submitted so they can begin to work 
their way through the White House PPO process, but also for a 
lot of people, they have to get this paperwork behind them. And 
I would tell you that is no small challenge. As I check on the 
status of various people we have recommended and nominated to 
the White House, what I am finding, is more often than not it 
is the paperwork that is slowing them down. In my own case, I 
had to hire eight people to help me get mine done. Most people 
cannot afford to hire eight people to help them get their 
paperwork done. So it takes a very long time.
    But we are about 50 percent of the way through, and we have 
other names that are in process. What we are doing, we try to 
get the candidate list of people we think would be useful to 
talk to down to a couple, and then we actually interview them 
face to face and then make a decision and submit them.
    So this is a pretty active process. It is one I sit down 
with the people that are helping me coordinate it about every 
10 days just to see where are we, make decisions on other 
people, if we are hearing feedback, we have talked to folks. 
Maybe they do not want to do it after all. So it is moving and 
that is about where we are within the State Department and the 
bureaus.
    Senator Coons. It is my hope and expectation, Mr. 
Secretary, that we will work on a bipartisan basis to confirm 
qualified candidates who come forward. I am concerned about the 
impact on our embassies in a lot of places in the world that 
may not be top of the news but that need an Assistant Secretary 
to help coordinate policy.
    As I have traveled recently--I traveled to Uganda with 
Chairman Corker not too long ago, traveled to Vietnam with 
Senator McCain recently--I make my best efforts to visit with 
mid-level Foreign Service officers and with the Civil Service 
folks who really run the Department. And I am concerned about 
the impact on morale of these proposed cuts.
    One specific concern I have also got is about diversity. As 
part of the hiring freeze, I understand State has frozen the 
accession for all current Rangel and Pickering fellows. And 
last week all those current fellows were told these classes 
were on hold indefinitely. And this is one of the premier 
accession programs in the Foreign Service and has served as a 
key tool for improving diversity in the ranks of FSOs. These 
actions taken to freeze the program to me could indicate a 
disturbing lack of attention to the importance of diversity.
    What are your plans for these programs, and how do we move 
forward on diversity initiatives taken by previous 
administrations that are worthy of continued effort?
    Secretary Tillerson.  Well, I will follow up on it, 
Senator, but I do not think we have frozen the Rangel and 
Pickering programs in terms of people that are in process. We 
are continuing and we are going to continue to take applicants 
as well. But let me follow up with you because I do not think 
there is a full freeze in place on those.
    Senator Coons. My understanding is they are being asked to 
make very difficult choices in terms of seeking employment 
elsewhere while they wait for the next opportunity for an entry 
level class. And you can imagine how someone with a lot of 
skill and ability would find it quite difficult to go take 
another job while waiting an indeterminate period for an 
opening in the State Department.
    In April, I was one of a number of Senators on 
Appropriations who pressed for additional money for emergency 
funds to address famine conditions in Nigeria, South Sudan, 
Somalia, and Yemen where there is roughly 20 million people at 
risk of starvation. And the congressional budget justification 
accompanying your fiscal year 2018 request notes unusually high 
carryover funds. I think the estimate was $1.3 billion in IDA 
funds.
    Why were these funds not obligated in the year they were 
appropriated by Congress, which was 2016 and 2017? And what is 
your longer-term goal? I am concerned about impoundment and 
whether or not these funds, which are critically needed to 
address famine, might instead be reprogrammed or returned as 
unobligated balances.
    Secretary Tillerson.  Well, first, let me thank the 
Congress for the big plus-up in 2017 in recognition, as you 
point out, of some serious challenges around the world.
    I think, Senator, our intention is to get that deployed in 
a way that the food shows up, the relief shows up where it is 
needed.
    I think what you are seeing is how difficult it is to 
execute on some of these areas. And so having the money--having 
the funds are certainly appreciated and needed, but then we 
have to be able to deliver, working with other aid agencies and 
working with the situation on the ground to have the aid reach 
those most in need. Our expectation, as we reflect--I just 
wanted to be completely transparent with everyone--is that we 
are pushing that out as quickly as we can effectively do that, 
but that we are going to have some carryover as a result of the 
plus-up. I think when we get around--it is broader budget 
question as to--you know, it is difficult to execute a $55 
billion budget for the organization.
    And so the statement show me your funding and I will show 
your level of commitment I do not agree with. Funding does not 
equal results. Show me your results and I will tell you your 
commitment. And that is what we are trying to get the folks in 
the State Department--is what are the results, and then I will 
tell you what I need to deliver on those results. Giving me a 
pot of money and suggesting that that confirms our success and 
our commitment is just simply--I have to take exception to 
that. I have never had the experience anywhere.
    Senator Coons. Mr. Secretary, we may share a view that once 
money is obligated, we also have an obligation to spend it in 
the most efficient way possible. I do not think this is an 
either/or conversation. I think the chairman and I have worked 
hard to try and find ways to improve the efficiency of delivery 
of food assistance, and having this funding in the IDA accounts 
I believe was a way that it would be streamlined and moved 
forward more efficiently. I did not mean to suggest that simply 
spending proves our values. Spending efficiently is what proves 
our values. Cutting without a reasonable justification at a 
time of record famine I also have some difficulties with. I 
look forward to our further conversation this afternoon about 
how we can be more efficient and effective in our support of 
development and diplomacy.
    Secretary Tillerson.  And I agree with delivering through 
the IDA program, we believe is also much more effective as 
well.
    The Chairman. We look forward to working with you. 5 
million to 8 million people a day--5 million to 8 million 
people a day--would be being fed around the world if we would 
break down these cartels that are controlling us right now and 
move funding appropriately to IDA. It is a shame. The same 
amount of dollars, not a penny more. Think about that--5 
million to 8 million people a day--so thank you for that.
    Senator Rubio?
    Senator Rubio. Thank you for coming. How is it going? You 
could have been HHS, you know, Health and Human Services. You 
could have answered all the Obamacare questions today.
    I want to start with the Asian continent, the news I guess 
today or yesterday about a $4.5 billion cut to Radio Free Asia. 
And that comes on the heels of what I am hope you are aware of, 
an article in ``The Wall Street Journal'' from May 23rd about 
an interview that had been scheduled in the Mandarin language 
broadcast with a Chinese real estate and investment tycoon 
about his claims of extensive corruption in the Chinese 
Communist Party. The Chinese Government got very upset about 
this interview. They actually issued a red notice on Interpol 
to try to wrap him up and the like. And then there was a 
dispute within the Voice of America. This interview was cut 
short. The person who conducted the interview, Sasha Gong, who 
I believe was the head of the Mandarin radio broadcast is on 
suspension, and now there is this fight going on internally.
    So two questions that I have. The first is the combination 
of the cuts and the interview. You could assure us here today 
that our efforts to improve relations with China have nothing 
to do with either the budget cut and/or the directive that was 
given to this reporter to cut the interview short.
    Secretary Tillerson.  I can confirm that to my knowledge, 
it had nothing to do with our relationship with China.
    Senator Rubio. And would you be supportive of an IG 
investigation into this dispute that is occurring within that 
branch between the head of the Voice of America and this 
particular reporter?
    Secretary Tillerson.  I would like to look at it, get a 
greater understanding myself. But certainly if it would seem 
that if there has been anything improperly done there, we 
should call for one.
    Senator Rubio. The concern is basically is that we cannot 
allow geopolitical pressures from China to influence our 
ability to broadcast the truth, particularly in that language 
in Mandarin. And so, obviously, we want to understand whether 
that is what would happen or not.
    Secretary Tillerson.  I strongly agree, strongly agree.
    Senator Rubio. Now, obviously you have heard from a lot of 
the members here about the budget situation. And, look, I get 
it. We have got to do better. We have got to get more bang for 
our buck in terms of the money we invest in foreign aid and in 
foreign engagement. I am a big believer in foreign engagement 
because it certainly has paid extraordinary dividends. And it 
is always important to remind people, when it comes to foreign 
aid, it is less than 1 percent or about 1 percent of our 
budget. Some people think it is like 25 or 30, and it has 
brought real successes.
    And I think South Korea is a success of that. People forget 
that 35 to 40 years ago, South Korea's economy was smaller than 
North Korea's. It was a dictatorship. And today I believe it is 
the 11th largest economy in the world, the strongest American 
ally, a vibrant democracy. And nothing illustrates that better 
than that famous Google Earth picture of the darkness on the 
North Korean side and all the lights on the South Korean side. 
American engagement.
    In the western hemisphere, one of the best news stories 
from that engagement is Plan Colombia and the state that was on 
the verge failure, thanks to extraordinary bravery and courage 
and investment by the Colombians and U.S. support for that 
effort, brought them to a better place under President Uribe.
    As you are well aware, President Santos visited here a few 
weeks ago. And it has always been my preference and inclination 
to be helpful because of the importance of our relationship 
with Colombia.
    That said, I left open-minded. Despite the fact that the 
Colombian people in a referendum rejected his peace deal, I 
have tried not to opine about internal matters in that country 
because they are an ally and a democracy. So he comes to 
Washington. And after the visit, I am actually more concerned 
than I was before he came for a couple points.
    The first is I remain concerned about their creation of the 
special legal framework in their peace deal that basically puts 
the FARC on par with the Colombian Government in terms of 
prosecuting people, which basically means human rights abusers, 
prosecute them. But it basically means some of these people 
that were working with us to destroy these drug gangs and these 
guerilla groups could be on trial for working with us to carry 
that mission out. We put the FARC at equal footing, not to 
mention they have now become a political party.
    I am concerned about them stopping extraditions. As of the 
latest count, about 60 members of the FARC are potentially 
wanted for extradition because they violated all laws. And they 
have even pushed at one point to delist the FARC as a terrorist 
organization, which they should always be on that list.
    And the one that is really concerning is this massive surge 
in cocaine production in Colombia over the last year and a 
half, which perfectly coincides with President Santos' decision 
to suspend aerial eradication, which he chalks up to not 
wanting to spray in national parks. But I would just advise him 
when he keeps saying that to Members of Congress who know 
better, that may have been an element of it, but that is not 
entirely the rationale. They stopped aerial eradication because 
he did not want to upset the peace deal with the FARC.
    I raise all this because they are now coming back for 
additional money to help implement all of these things we have 
concerns about. So the peace deal belongs to the sovereign 
nation of Colombia, but our willingness to participate and fund 
it depends on the conditions that we lay out. And I just wanted 
to get your sense,in the minute that we have remaining, where 
we are in that process, what those conditions are, and in 
particular, the delisting of the FARC, the release of a 
criminal, Simon Trinidad, who is in federal prison, the aerial 
eradication. In essence, why should the American taxpayer be 
paying for a deal that is flawed and, actually in many ways, 
could potentially undo the progress of Plan Colombia?
    Secretary Tillerson.  Well, all of the flaws that you have 
identified and the peace plan that they have we would agree 
with. I think we see it the same way.
    We have had discussions with them, and as you point out, I 
think it is a question of how far do we want to go in trying to 
interfere with or condition or in any way undo the plan that 
they have arrived at and the agreement they have arrived at 
with the FARC.
    I would comment on the spraying of the fields. And we had a 
long discussion about this because the numbers are just eye-
popping in terms of what has happened with the acreage under 
cultivation in particular. They indicated they had, in some 
sense, created this problem of their own because they had been 
paying farmers to get out of production of cocaine fields and 
the supply fields and convert to other. And they have halted 
that program while they were in the midst of these talks. And 
what the farmers did is they went out and planted more acreage 
so they could get more payments. So we have told them, no, we 
have got to get back to the spraying. We have got to get back 
to destroying these fields, that they are in a very bad place 
now in cocaine supply to the United States. And the President 
talked to President Santos directly about that. So we are going 
to work with them on how do we address that particular issue.
    And then on the other issues, it is a question of how 
heavily we want to condition our support to them in terms of 
making changes to a peace process that they have put together 
and understanding would that completely unwind it. What is the 
consequences of that?
    So I share all of the concerns you have. We have 
highlighted those concerns to them as well. Very troubling to 
us because we were on a great track. It kind of came off the 
track with the vote, and this is where we are.
    The Chairman. Thank you. Very good, good exchange.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today.
    I think everyone on this panel can agree that among our 
greatest national security threats are nuclear proliferation 
from North Korea, as well as remnants of the A.Q. Khan group in 
Iran, among others. Just yesterday, Secretary Mattis made it 
clear by stating ``the most urgent and dangerous threat to 
peace and security is North Korea.''
    Given the importance of countering this threat, I would 
expect the State Department to prioritize nonproliferation and 
programs that support anti-terrorism. Yet, the budget the 
President has presented to the Congress for consideration does 
the opposite. Instead of robustly funding these programs, this 
budget puts Americans at risk by cutting the nonproliferation 
and anti-terrorism, demining, and related programs that account 
for $333 million.
    Based on your personal review, have you directed the State 
Department to deemphasize these areas? Is the official State 
Department position that these accounts are no longer a 
priority?
    Secretary Tillerson.  No, Senator, we have not in any way 
deemphasized this. As you point out, we agree North Korea is 
the greatest threat, and that is why if you look back at the 
early stages of the administration, that was the first foreign 
policy area that we dealt with at the State Department was 
North Korea. That process continues, as you well know.
    I think in terms of our activities that you just listed, 
some of those we are working with the Defense Department on 
areas of budgeting authority they have, how do we coordinate 
the most effective deployment of the resources available to us 
to achieve common objectives. We are not looking for their 
money to supplant our money. Rather, we have, between Secretary 
Mattis and I, developed a very, very close process between our 
two relevant bureaus as to how we are putting our funds that 
are available to work, what funds do they have in the same 
geographic locations where they are trying to achieve similar 
objectives, how do we manage that in a way that continues to 
allow us to address the issues that you are discussing there.
    But we have not deemphasized the threat of 
nonproliferation. We have other parts of the world that this is 
a serious concern to us and are developing policy approaches 
there. Again, these are just some of the difficult choices that 
have been made in where to take certain budget reductions.
    Senator Udall. Mr. Secretary, I would like to move to our 
own hemisphere here. The U.S. Chamber of Commerce and its 
support for engaging Cuba and during its launch of the U.S.-
Cuba Business Council stated that--and I am quoting here--``we 
are facing an historic opportunity to support a vital and 
growing Cuban private sector, one that is defined by 
entrepreneurs whose expanding efforts show that the spirit of 
free enterprise is already taking hold in the country.''
    In fact, multiple States are already in trade agreements 
with Cuba, increasing business opportunities for rural and 
urban areas alike. And the Cuban people themselves, including 
those who host tourists from the United States either in 
cuentapropistas or Airbnb's have gained entrepreneurial 
experience and have begun the work to pull themselves out of 
poverty.
    Do you agree we should continue these efforts, or do you 
believe that we should return to the failed policies of the 
Cold War?
    Secretary Tillerson.  Senator, what you described is the 
sunny side of the relationship, and it is all positive and it 
is great and it is good. There is the dark side, though, and 
that is that Cuba has failed to improve its own human rights 
record. Political opponents continue to be imprisoned. 
Dissidents continue to be jailed. Women in White continue to be 
harassed. And so what we have to achieve in approaching Cuba is 
if we are going to sustain the sunny side of this relationship, 
Cuba must--absolutely must--begin to address its human rights 
challenges.
    Now, within that sunny side of the relationship, there are 
troubling elements to us that bring the relationship into 
conflict with existing statute obligations. And that is, as we 
are developing these business relationships, as we are enjoying 
the benefits on the economic and development side, are we 
inadvertently or directly providing financial support to the 
regime? Our view is we are. And the question is how do we want 
to deal with that. How do we bring that into compliance with 
longstanding statutory obligations?
    So we are examining that. We would love to keep the sunny 
side. We would love to keep it in compliance with existing 
statutes that does not lead to financial support for this what 
we can only describe continues to be a very oppressive regime.
    Senator Udall. Mr. Secretary, should the United States make 
it easier or harder for U.S. companies to engage in Cuba to 
improve access to the Internet? Do you believe, as many on this 
committee do, that access to the Internet is an important part 
of creating a modern and just society, including supporting 
nascent entrepreneurs? And finally, will you build on efforts 
from the previous administration to help U.S. companies do 
business in Cuba?
    Secretary Tillerson.  We do support greater access to the 
Internet, not just for the commercial economic reasons, but we 
also think it is an important way people have access to voices 
of freedom and democracy and greater visibility. So we are 
supportive of that. We are supportive of continued economic 
development as long as it is done in full compliance with our 
existing statutes to not provide financial support to the 
regime. That is the focus of our current policy review.
    Senator Udall. And this is not a question. It is just a 
final comment. If that is the sole test on financial support 
from the regime and if they are getting money from small 
businesses and everything, then it just seems to me we are 
headed down a path of once again closing down the abilities of 
these private businesses and Airbnb's and cuentapropistas and a 
lot of others to be out there and people be making a living and 
developing the private sector. I mean, as long as I have been 
working on this issue and the opening up, I mean, we have seen 
half a million people that are working there in the private 
sector. But if the test is going to be do they give a single 
dime to the government, then we get ourselves, I think, in a 
situation where we go back to the old Cold War policy, which I 
think has been a real failure.
    Secretary Tillerson.  Well, Senator, I know you are not 
suggesting that we encourage private companies to violate the 
law, but it does require perhaps a more thorough discussion 
among the Congress and the executive over is that law still 
useful. But the law is there. We cannot ignore that law, and we 
cannot encourage people to violate that law.
    Senator Udall. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cardin for closing comments and observations.
    Senator Cardin. So, first, Mr. Chairman, I would ask 
consent that a letter addressed to me from President Ron 
Daniels at Johns Hopkins University concerning the global 
health budget be included in the record.
    The Chairman. Without objection.


    [The information referred to is located at the end of this 
hearing transcript.]


    Senator Cardin. And two documents I received from CARE 
USA--one is testimony for the record, the other an assessment 
of human impacts of the budget--also be made part of our 
record.
    The Chairman. Without objection.


    [The information referred to is located at the end of this 
hearing transcript.]


    Senator Cardin. And then two observations.
    One, Mr. Secretary, in regards to the discussion with 
Senator Coons on the Pickering and Rangel fellows, there has 
been an historic challenge within the Department of State that 
predates your stewardship on attracting a diversified 
workforce. And this committee has weighed on it. We have had 
legislation on it. I have introduced some legislation in this 
Congress. I would just urge you that in regards to the 
Pickering and the Rangel fellows, that is one of the avenues 
that have been a bright spot for diversity within the State 
Department and that your personal attention to allow that 
process to continue would be very important.
    The second observation--the chairman has made this 
suggestion. You have also, working together as you go through 
the reorganization at the State Department. I will just give 
you another example. Your budget proposes to eliminate the 
development assistance account at USAID and the economic 
support fund at State, instead creating a new economic support 
and development fund. There is a cut in that, which we will 
leave aside, but then the organizational aspects of how that 
would be done versus USAID and State is something of interest 
to our committee. So I would just urge you to work with us on 
those issues because I think these are areas where we can work 
together to give you the type of accountability that we have 
all talked about that we want to see in the Department.
    Secretary Tillerson.  I look forward to that, Senator, and 
welcome it.
    The Chairman. I just, in my closing observations and 
comments, want to say that I really do think that there are 
things that prevent the State Department from functioning as 
well as it could that we can help with. And I leaned over in a 
side conversation with Senator Cardin, and I know you all have 
been in to brief us both--your staff has--and briefed our staff 
as to how things are moving along. But we do look forward to 
working with you in that regard. And I think for this year in 
particular, I think people are going to want to be very engaged 
in that in a way that--I think we began to see the 
opportunities last year, but this year see tremendous 
opportunities in working with you in that regard.
    On the food aid component, if I could, you know, the 
American farmer, generally speaking--these are people that are 
patriotic, care about other people, proud of what they do. And 
as I have talked with them about what we are doing in food aid, 
I get a response of disbelief. They are unaware, totally 
unaware, that people who represent them here have forced U.S. 
commodities to be used, when it is only one-half of 1 percent 
of their entire output--to be used in places that you cannot 
get U.S. commodities to. Senator Coons referred to Uganda. In 
some cases, it takes 6 months, believe it or not, when people 
are starving to get U.S. commodities to these places. And as 
you know, when we do that, 50 percent of it has to be shipped 
by these maritime entities that--it costs 40 percent more for 
us to do it that way. So I appreciate the comments you made 
about IDA and some of the things that we can do.
    I would just ask, with all the things that you have going, 
that you sit down with Secretary Perdue also because I think as 
we talk to the grassroots farmers out there, again they are in 
disbelief that we have a program that for the same amount of 
dollars could feed 5 million to 8 million more people a year, 
and yet people who ``purport to be representing their interests 
are keeping that from happening.'' So if you could make that 
happen, I would appreciate it. I know we are planning to do the 
same.
    And then secondly, I know this Friday the President is 
going to be laying out Cuba policy. I know Senator Udall asked 
some questions about it. Can you give us some of the general 
contours you see shaping up relative to what that policy is 
going to be?
    Secretary Tillerson.  Well, Senator, it is still in an 
interagency review going on actually today. My deputy is 
hefting it for me since I am here. The general approach, if I 
can say that, is to allow as much of this continued commercial 
and engagement activity to go on as possible because we do see 
the sunny side, as I described it. We see the benefits of that 
to the Cuban people and to ultimately restoring somehow down 
the road, getting to some point of normalization.
    But on the other hand, we think we have achieved very 
little in terms of changing the behavior of the regime in Cuba 
and its treatment of people, and it has little incentive today 
to change that. And in fact, our concern is they may be one of 
the biggest beneficiaries of all of this, which just, again, 
promotes the continuance of that regime. So we are examining 
how the past policy was implemented, how it was described to 
others, you know, what were people told, what assurances were 
given. But we think it is important that we take steps to 
restore the intent of the Helms-Burton legislation which was to 
put pressure on the regime to change. And that pressure has 
been, in our view, largely removed now. How do we reengage on 
that and still allow as much of the sunny side of what has been 
done to be preserved?
    There are other areas of important diplomatic issues 
regionally that we want to engage with the Cuban regime on 
because we think there may be some areas of common interest if 
we can establish what this relationship is going to be.
    So the policy takes all of these things into consideration.
    The Chairman. Well, look, I was down there not long ago. 
America has always felt if it could do more business with 
folks, then that would help pave the way towards Western 
values, capitalism, democracy, and those kinds of things. On 
the other hand, the obstinance that the government has--it is 
almost like it is engrained in them that whatever it is the 
United States wishes for them to do on human rights and other 
activities, they are not going to do just to demonstrate that 
the revolution is still alive, still calling what is happening 
down there a blockade.
    So I look forward to engaging some this week with you and 
others over what we ultimately do on Friday. And I understand 
the rub, and I do hope we end up with a policy that over time 
will cause the Cuban people themselves to be able to reach 
their aspirations. It is a country that has incredible 
potential, like Venezuela, with a terrible governance system 
that has held people back for years and yet very intelligent, 
well-educated folks that could be in a very different place 
standard of living-wise if the policy would ever get right.
    So with that, thank you for being here today. I think it 
has been a great hearing.
    We are going to keep the record open until Thursday for 
written questions. I know you have a lot of responsibilities, 
but to the extent you could answer those fairly promptly or if 
Mary or others can answer those fairly promptly, we would 
appreciate it. Thank you.
    And the meeting is adjourned.


    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                             ----------                              


             Secretary Tillerson's Responses to Additional 
            Questions Submitted by Members of the Committee

           Responses to Additional Questions for the Record 
           Submitted to Secretary Tillerson by Senator Corker

    Question 1. What processes do you use or anticipate developing to 
prioritize the allocation, composition, and deployment of sector 
assistance resources?
    Answer. The Department has longstanding practices for prioritizing 
the allocation, composition, and deployment of its security assistance 
funds, including the development of the Integrated Country Strategy, 
which details each Mission's goals and objectives; the development of 
the Mission Resource Request, which reflects each Mission's annual 
funding request for all State assistance accounts; various interagency 
planning forums; and program-specific proposal review processes.
    State is also working with DoD to develop processes to integrate 
security assistance planning and programming across the two 
Departments. At the direction of Secretary Mattis and myself, the 
Departments have established a new State-DoD Security Sector Assistance 
Steering Committee that is taking on this important task. The Steering 
Committee will oversee a process to ensure that State and DoD are 
optimizing our respective department resources and individual 
authorities to advance top national security priorities and 
partnerships.


    Question 2. Security Cooperation programs and expenditures 
administered by the Department of Defense have grown relative to those 
administered by the Department of State over the past 15 years. Do you 
have any concern for an erosion of civilian oversight over this 
instrument of national influence?

    Answer. The provision of security assistance is inherently an act 
of foreign policy. The Department must be able to coordinate and align 
all U.S. security assistance programs to ensure that we are advancing a 
unified foreign policy strategy. We appreciate this Committee's strong 
support for the Department's role in this regard.
    Both State Department and DoD foreign assistance resources advance 
U.S. foreign policy objectives. State and DoD are working together to 
develop processes to synchronize security assistance planning and 
programming across the two agencies. At the direction of Secretary 
Mattis and Secretary Tillerson, the Departments have established a new 
State-DoD Security Sector Assistance Steering Committee that is taking 
on this important task.
    Legislated provisions for State concurrence with, and joint 
planning of, DoD assistance programs-like those included in DoD's new 
section 333 train and equip authority-help ensure the synchronization 
of State and DoD assistance policy and programs over the long-term. 
State encourages the inclusion of this requirement in all other DoD 
train and equip programs.


    Question 3. The FY 2017 National Defense Authorization Act that was 
passed and signed into law last year consolidates many of the 
Department of Defense authorities for security cooperation programs and 
mandates a number of organizational and administrative structures, 
including a single office for oversight at the undersecretary level or 
below. Do you anticipate that you will identify a similar single point 
of contact for security sector assistance with the Department of State? 
Where will it be? How will it be integrated with the regional bureaus 
and embassies?

    Answer. I have designated the Assistant Secretary for Political-
Military Affairs (PM) as the lead coordinator for the Department in the 
joint planning, development, and implementation of section 333 
programs, in line with the requirement for the Department to designate 
an individual responsible for program coordination at the lowest 
appropriate level. At the same time, the Office of U.S. Foreign 
Assistance Resources (F) maintains overall responsibility for ensuring 
the alignment of foreign assistance resources with administration 
policy and strategies, and exercises the delegated authority to concur 
with section 333 programs.
    In fulfilling its role as lead section 333 coordinator, PM manages 
a consultative and inclusive planning and approval process to ensure 
that Departmental priorities and policy concerns are reflected in DoD 
plans and programs. This process involves the Department's functional 
and regional bureaus, including F, the Legal Advisor, the Bureau of 
Democracy, Human Rights, and Labor, and Chiefs of Mission.


    Question 4. The FY 2017 NDAA requires the establishment of a system 
for assessment, evaluation, and monitoring of Title 10 security 
cooperation programs:

   Do you anticipate that you will seek to establish such a system for 
        Title 22 security assistance programs that is consistent with 
        or complementary the DOD system? Will it be consistent to the 
        extent practicable across the various international security 
        assistance funding and program streams (INCLE, FMF, NADR, PKO, 
        and parts of ESF / DA, etc.)?

    Answer. With respect to security assistance, the Department has 
been and remains a leader among U.S. government agencies on developing 
and implementing assessment, monitoring, and evaluation for these 
programs. State led the interagency effort to create a Performance 
Management Framework to establish common principles for effective 
security sector assistance (SSA) performance management, including: 
assessment, design, performance management, and monitoring and 
evaluation of SSA plans and programs. DoD contributed to the framework 
and the interagency ensured that the framework was consistent with and 
complementary to DoD's Assessment, Monitoring and Evaluation process. 
This framework lays the foundation for Departments and Agencies to 
better realize the goals of effective SSA programs by determining 
whether and how plans are progressing through looking at the collective 
effort supporting and, when appropriate, refining SSA objectives and 
sub-objectives. The framework also provides SSA policymakers, planners, 
program managers, and implementers the information and evidence 
necessary to make effective decisions, maximize program outcomes, 
increase program accountability, and report program achievements.
    The Department's evaluation policy, which applies to security 
sector activities, has guided the conduct of and standards for 
evaluations of assistance and establishes evaluation requirements. The 
policy also provides considerable flexibility in the implementation of 
evaluation activities within the Department. This flexibility is 
necessary due to the number and scope of foreign assistance programs 
implemented by the Department around the world.
    Through the early evaluation work of the PKO-funded Global 
Peacekeeping Operations Initiative and followed by other State 
programs--the Department has developed a range of frameworks, tools, 
and best practices widely recognized to ensure effective programs, 
improve future plans, and, ultimately, inform policy. While the 
programs cited cover a broad range of activities serving an array of 
foreign policy objectives, the Department continuously seeks to ensure 
consistency. Ensuring that our efforts are complementary with DoD's 
nascent assessment, monitoring, and evaluation effort is a focus for 
our military assistance programs.


    Question 5. What are the incentives, structure, and management 
tools in place or anticipated for security assistance implementers 
within State to coordinate among themselves? To coordinate with the 
Department of Defense and Regional Commands?

    Answer. The Department has longstanding mechanisms for coordinating 
security assistance, including processes such as the development of the 
Integrated Country Strategy, which details each Mission's goals and 
objectives and provides a framework to organize and prioritize the full 
spectrum of in-country activities; the development of the Mission 
Resource Request, which reflects each Mission's annual funding request 
for all State assistance accounts; various interagency planning forums 
throughout the budget cycle; and program-specific proposal review 
processes.
    State is also working with DoD to develop processes to synchronize 
security assistance planning and programming across the two 
Departments, in light of DoD's expanded assistance authority. At the 
direction of Secretary Mattis and myself, the Departments have 
established a new State-DoD Security Sector Assistance Steering 
Committee that is taking on this important task.
    Both State and DoD benefit from coordination, as close 
collaboration permits the agencies to maximize our limited resources 
and capitalize on each other's unique expertise and authorities.


    Question 6. When should this Committee expect a communication of 
State Department management reorganization plans?

    Answer. The Department of State (State) takes very seriously its 
responsibility to consult with Congress on its plans and vision for the 
future of the agency.
    Executive Order 13781 of March 13, 2017, calls for each agency to 
submit a plan, due in September, to improve the efficiency, 
effectiveness, and accountability of that agency. State and U.S. Agency 
for International Development (USAID) are working to meet this deadline 
and have begun to discuss goals, priorities and the strategic direction 
of the organizations to adapt to the changes that we will face over the 
next twenty years. We are looking at aligning resources, people, and 
our overarching mission, including restructuring State and USAID's 
operations, in order to deploy the talent and resources of State and 
USAID in the most efficient way possible. This review has no 
preconceived outcomes.
    In the first ``listening'' phase of this discussion, we asked for 
the participation of the State and USAID community, to enlist their 
help in identifying how they are going about completing the 
organizations' missions. We engaged Insigniam, a consulting firm, to 
conduct a survey made available to all of our State and USAID 
colleagues, including employed family members, locally-engaged staff, 
and contractors. Over 35,000 surveys were completed. Insigniam also 
held in-person listening sessions with approximately 300 individuals, 
including Committee staffers, to obtain their perspective on what we do 
and how we do it. Most of the sessions were conducted with randomly 
identified individuals who fit a representative cross-section of our 
workforce, and some of these were held abroad at our posts. The surveys 
and listening sessions, all of which occurred in early-mid May, 
collected information on our organizational processes and culture, 
including what activities to eliminate, ideas for restructuring the 
organization, ideas for improving organizational efficiency and 
effectiveness, and workforce management. Insigniam compiled the results 
and generated a report, which was previewed to me on May 30. From this 
feedback, we have been able to get a clearer overall view of our 
organization. We are still analyzing the feedback we have received, and 
intend to use the results of the report as input to efficiency 
improvements as part of our larger efforts called for under E.O. 13781.
    Before the end of June, I will communicate with all State and USAID 
employees, as well as the committee and others in Congress, about the 
results of the report and the plans for the second phase of this 
endeavor. The general intent for the second phase is to engage the 
State and USAID community to design how the agencies will function for 
the next twenty-plus years. We will seek the input of the Committee and 
others in Congress throughout this process. The recommendations, 
blueprints, and new vision that emerge from the redesign phase will be 
presented to OMB in September as part of the requested Agency Reform 
Plan, and will be fully discussed with the Committee and others in 
Congress before implementation begins in FY 2018.


    Question 7. In response to a question regarding Cuba, you stated 
that in assessing policy changes, the administration wants to ensure 
you are in compliance with longstanding statutory obligations:

   Were you referring to the Libertad Act? Also, it is my 
        understanding that the policy changes undertaken by the 
        previous administration were taken based on statutory 
        authority, including the President's authority to issue 
        licenses under the embargo. Is this also your understanding?

    Answer. The embargo in its current form results from both executive 
and legislative actions over the past half century. The LIBERTAD Act 
constitutes one of the statutes relevant to the embargo against Cuba, 
along with others, including the Trading with the Enemy Act of 1917, 
the Cuba Democracy Act of 1992, and the Trade Sanctions Reform and 
Export Enhancement Act of 2000. While the embargo contains certain 
prohibitions on transactions, it is well established that the Executive 
branch may authorize transactions notwithstanding the prohibitions, by 
license or otherwise, within certain limits.


    Question 8. What role has the State Department and USAID played in 
the administration's strategic consideration of U.S. policy for 
Afghanistan and Pakistan?

    Answer. Both the State Department and USAID are integrally involved 
in a thorough and wide-ranging ongoing interagency strategic review for 
South Asia to clarify our priorities in the region and how best to 
achieve them. The interagency is continuing discussion to ensure that 
U.S. policy for Afghanistan and Pakistan is integrated within a broader 
regional strategic framework. When the administration concludes its 
strategy review, we look forward to briefing Congress on the State 
Department's activities under this reframed strategy.


    Question 9. How has diplomacy and development been incorporated 
into overall U.S. strategic policy deliberations and conclusions with 
regard to Afghanistan and Pakistan?

    Answer. The Department of State and USAID have been active 
participants in the administration's review of our policy towards 
Afghanistan, Pakistan, and South Asia. Diplomatic and development goals 
and initiatives continue to play a central role in the administration's 
approach to South Asia.
    Our primary goal is to ensure that transnational terrorist 
organizations never again exploit Afghanistan, or the broader region, 
to threaten the United States. Diplomatic and development initiatives 
in the region will continue to play an integral role in achieving our 
national security objectives in Afghanistan and Pakistan, including 
encouraging regional security, stability and peace. We continue to 
prioritize the launch of an Afghan-led, Afghan-owned peace process to 
end the conflict in Afghanistan.


    Question 10. What is the overall USG strategy, broken down by 
agency, as it relates to Afghanistan, and how each will implement in 
the field?

    Answer. The National Security Council (NSC) is currently leading an 
interagency strategy review for South Asia. Although the strategy is 
still in development, the underlying objective is to protect U.S. vital 
national interests in Afghanistan and the region. Achieving this 
objective requires a capable Afghan government partner and a stable 
political order.

    U.S. Government agencies currently do the following:

   The State Department works to promote a political dialogue to end 
        the Taliban insurgency and advance U.S. interests in 
        Afghanistan through political, economic, and public diplomacy. 
        State implements assistance programs to support the Afghan 
        government in the following sectors: counternarcotics, justice, 
        corrections, weapons removal and abatement, export control and 
        border security, and anti-terrorism assistance. State also 
        provides humanitarian assistance to Afghan refugees and 
        internally displaced persons.
   The Department of Defense maintains a presence of 8,400 U.S. troops 
        to support the bilateral counterterrorism mission and NATO's 
        non-combat Resolute Support Mission.
   USAID implements development and technical assistance programs to 
        support improvements in health, education, women's empowerment, 
        economic growth, infrastructure, agriculture, and good 
        governance, to include rule of law and anti-corruption efforts. 
        USAID also provides substantial on-budget support to the Afghan 
        government through a World Bank-managed trust fund.


    Question 11. Describe in detail the national strategic interests 
for continued U.S. commitment in Afghanistan and what if any 
expectations must be met by the Afghan government and regional actors 
to sustain that commitment.

    Answer. Our primary vital national interest in Afghanistan is to 
keep the United States safe and to prevent al-Qa'ida, ISIS-K, and other 
terrorist groups operating in South Asia from using Afghan soil to 
develop the capability to direct or support attacks against the U.S. 
homeland or U.S. persons. Our diplomatic, development, and military 
engagement in Afghanistan contributes to this goal by bolstering the 
Afghan government's ability to provide security and services to the 
Afghan people. The Afghan government counts on its partnership with the 
United States and recognizes that it has an obligation to improve its 
performance. President Ashraf Ghani has committed to a comprehensive 
reform agenda to address core governance issues that include reducing 
corruption, improving transparency, and increasing economic growth. 
Many of these commitments have already been codified in the Self-
Reliance through Mutual Accountability Framework, which was established 
in 2015 and updated at the October 2016 Brussels Conference on 
Afghanistan. Long-term stability in Afghanistan will only come through 
a peace process and negotiated settlement between the Afghan government 
and the Taliban.


    Question 12. Describe in detail the national strategic interests 
for continued cooperation and collaboration with Pakistan, and what if 
any expectations must be met by the Pakistan government to sustain that 
commitment.

    Answer. Our relationship with Pakistan involves a number of vital 
national strategic interests, including combatting terrorism, promoting 
security and economic growth across Central and South Asia, ensuring 
strategic stability, and safeguarding the U.S. homeland from threats.
    There are, however, elements of our relationship that have proved 
challenging. For instance, the United States and Pakistan have 
collaborated successfully to combat many terrorist groups operating in 
Pakistan, including those that pose a direct threat to the U.S. 
homeland--such as Al Qai'da and ISIS. However, the Afghan Taliban, 
including the Haqqani Network, and other externally-focused militant 
groups retain the ability to plan, support and conduct terrorist 
operations from Pakistani soil, including attacks that target U.S. 
interests in Afghanistan. We continue to stress to the Pakistani 
leadership the need to take specific and deliberate action to curb the 
activity of all militant and terrorist groups in Pakistan. As you know, 
we are currently engaged in an interagency policy review to determine 
the most effective policy for achieving our goals in Pakistan and the 
region.


    Question 13. What role has the State Department, USAID, MCC, OPIC, 
BBG, our embassy country teams--as well as specific inclusion of USTR, 
defense and intelligence community input--played in the 
administration's budget and organizational review relative to U.S. 
policy and presence in African countries?

    Answer. The initial input for developing the budget request for 
Africa comes from the Chief of Mission at each sub-Saharan Africa post 
in response to these overarching policy goals. It incorporates input of 
all U.S. government partners at post--including USAID, MCC, OPIC, BBG, 
USTR, and the defense and intelligence communities--and lays out an 
integrated approach for meeting the diplomatic and development 
challenges in each country. The Africa Bureaus at both State and USAID 
work hand in hand throughout all phases of the budget development 
process--from the initiation of the request in the field to the 
development of the final request for the President.
    Other U.S. government partners are included throughout the planning 
and budget development process as appropriate for their areas of focus. 
For example, through the U.S. President's Emergency Plan for AIDS 
Relief (PEPFAR), the cornerstone of health programming in the region, 
the State Department's Office of the U.S. Global AIDS Coordinator and 
Health Diplomacy leads an interagency process--including, USAID, the 
Department of Health and Human Services, the Department of Defense, and 
the U.S. Peace Corps--in planning and implementing the comprehensive 
U.S. government response to the HIV/AIDS pandemic.
    MCC Board members include the Secretary of State who serves as 
Chairman, the USAID Administrator, and other principals from the 
interagency community, such as the Secretary of the Treasury and the 
U.S. Trade Representative. This participation ensures that our 
respective resources are brought to bear on common objectives that both 
increase the impact of developmental objectives and optimize 
stewardship of U.S. resources.


    Question 14. How does the FY 18 budget proposal incorporate the 
input or otherwise consider the input of each of the above elements?

    Answer. State Department budget proposals for Africa incorporate 
inputs from a variety of stakeholders, including Washington and field-
based missions, the interagency community, regional and functional 
bureaus, and technical roundtable and working group recommendations. 
These inputs combined help to inform final request levels.
    The initial input for developing the budget request for Africa 
comes from the Chief of Mission (COM) at each sub-Saharan Africa post 
in response to several overarching policy priorities jointly agreed 
upon by the interagency community. They include: 1) advancing peace and 
security; 2) spurring economic growth and trade; 3) strengthening 
democratic institutions; and 4) promoting opportunity and development.
    Under COM leadership, the initial request incorporates input from 
all U.S. government partners at post and lays out an integrated 
approach for meeting the diplomatic and development challenges in each 
country. The Africa Bureaus at both State and USAID work hand in hand 
throughout all phases of the budget development process--from the 
initiation of the request in the field to the development of the final 
request for the President.


    Question 15. List each sub-Saharan African country where the United 
States has diplomatic facilities or representation, including regional 
and sub-regional organizations and chart the existing personnel levels 
by agency and function at each. Please carry this chart out, extending 
4 years as the administration's budget process currently projects for 
each of these posts.

    Answer. Due to the sensitivity of the requested information, the 
Department of State is not able to provide it publicly. The Department 
will provide the requested information in an appropriate setting.


    Question 16. As man-made humanitarian crises persist, and have 
grown significantly more threatening relative to civilian populations, 
describe the preventive or deterrent U.S. foreign policy that will help 
minimize the threat of and ultimate high U.S. cost in response to such 
events?

    Answer. The United States is a leader in global humanitarian 
response and conflict prevention efforts. The U.S. Government is 
actively engaging with partners to reduce fragility and promote 
stability in conflict-affected states. This includes enhancing the 
ability of fragile countries to mitigate shocks and prevent conflict, 
and advancing the stabilization of conflict-affected areas so that they 
can transition to long-term political, economic and social stability.
    To strengthen fragile states and prevent conflict, our diplomatic 
and development efforts promote accountable and transparent governance, 
equitable delivery of services, along with inclusive economic growth, 
job creation, and the sound policies needed for sustainable private 
sector expansion and stable employment. We are actively working to 
assess dynamics that put countries at greater risk of conflict and 
violence and the best mechanisms to address those factors. Our FY 2018 
request includes programs that will build the capacity of civil society 
actors including those operating in closing and closed spaces so they 
can successfully advocate for peaceful change and mitigate conflict.

                               __________


           Responses to Additional Questions for the Record 
           Submitted to Secretary Tillerson by Senator Cardin

    Question 1. The FY 18 Budget Request makes a draconian $1 Billion 
cut to the FMF program, exempting only Israel, Jordan and Egypt; 
Pakistan receives a significant reduction. All other states receive 
zero allocations, and are to be offered the option of loans; however, 
this is a false choice, in that all but a literal handful will be 
likely be ineligible for such loans, and most if not all will be 
unwilling to assume such debt. As such, the President's request is, in 
practical effect, the end of the FMF program as a long-standing U.S. 
global tool to assist countries with their legitimate defense needs, 
promote better U.S. security and foreign policy relationships with 
them, and a golden opportunity for China and Russia to fill the gap and 
gather greater influence. Moreover, since FMF is spent on U.S. defense 
companies, and according to Department of Commerce estimates, it is 
likely that this cut could affect or eliminate as many as 6,000 U.S. 
jobs: Why does the administration and the State Department wish to cut-
off this long-standing and successful national security program?

    Answer. The administration is taking steps to encourage our 
partners to assume more responsibility for their defense needs, 
including by making U.S. defense articles and services available on a 
repayable basis, via Foreign Military Financing (FMF) loans. At the 
same time, the administration's request maintains the flexibility to 
provide both grants and loans, and resources for DoD to undertake 
foreign assistance programs. Partners may have the opportunity to 
borrow more than they received in prior years in grant assistance, 
potentially allowing recipients to purchase more American-made defense 
equipment and services than they have in the past.


    Question 2. What will the State Department use to replace this 
program and attempt to maintain U.S. influences with all the countries 
that are about to [be] cut-off from this assistance?

    Answer. U.S. influence around the world does not depend solely on 
the provision of grant military assistance. The Department will work 
with other U.S. government agencies, including DoD, to leverage all our 
available diplomatic tools, authorities, and resources to advance our 
foreign policy objectives in a strategic manner.


    Question 3. How will the U.S. seek to prevent Russia and China from 
taking advantage of this opportunity to replace U.S. assistance with 
these countries and thereby garner greater influence?

    Answer. The administration's request gives the United States a 
range of tools to build the capacity of foreign militaries, including 
through FMF grants, FMF loans, and DoD assistance programs.
    The administration has requested $200M in global FMF funds to 
support current foreign policy priorities. To ensure the strategic 
focus of these resources, the Department will finalize the most 
appropriate allocations and purposes for these funds during the year of 
appropriation, based on real-time requirements and priorities, and 
notify Congress appropriately. This approach permits greater 
flexibility, selectivity, and responsiveness than the previous 
structure, which required the Department to determine and publish 
requested bilateral allocations years before the funds would be 
implemented.
    DoD resources will also be available to build the security capacity 
of foreign partners. The Department will work with DoD to optimize our 
respective resources and authorities to advance top national security 
priorities.


    Question 4. In going through the budget proposal you submitted I 
note that the number of accounts where the budget requests a total 
amount but provides no detail is upwards of 30 percent of the entire 
Function 150 budget. How can Congress make decisions on authorization 
levels, budgets, or appropriations when we don't know how you arrived 
at the number or what level is appropriate to support activities that 
both the Department and this committee want to support? For example, 
with the exception of Israel, Egypt and Jordan, no country levels for 
FMF were included in the budget proposal, other than vague language 
that says that amounts will vary in the new loan system. The result is 
that we have no visibility into how much other nations would get, for 
example, or how FMF can continue to play a role in partners capacity 
building in the Asia-Pacific maritime domains: Can you provide this 
Committee, today, country-by-country details on your FMF proposal?

    Answer. The administration has requested $200M in a global FMF fund 
to support current foreign policy priorities. To ensure the strategic 
focus of these resources, the Department will finalize the allocations 
and purposes for these funds during the year of appropriation, and 
notify Congress appropriately. This approach permits greater 
flexibility, selectivity, and responsiveness than the previous 
structure, which required the Department to determine and publish 
requested bilateral allocations years before the funds would be 
expended.


    Question 5. On the other budget items where no detail has thus far 
been provided to Congress? If you can't do so today--and I understand 
that this is somewhat of an unfair question--can we get your commitment 
to provide that necessary detail to this Committee and other relevant 
congressional committees by the end of this month?

    Answer. The FY 2018 Department of State and USAID Congressional 
Budget Justification (CBJ) did not include as much detail as previous 
years due to the accelerated budget formulation during the Presidential 
transition. The Department has committed to providing additional 
program or account details, as presented in past CBJs, upon request by 
Congress.


    Question 6. The International Development Association (IDA), part 
of the World Bank, was created in 1960 at the suggestion of the United 
States to provide concessional loans to the world's poorest countries. 
Over the last five years, IDA financing has helped immunize 227 million 
children, provide access to better water sources for 64 million, and 
provide access to health services for 500 million people. The 
President's Budget request reduces our IDA contribution by nearly $100 
million: As U.S.-led international financial institutions face 
increasing competition from organizations such as the Asian 
Infrastructure Investment Bank and BRICS Bank, are you concerned that 
the reduction in U.S. funding for the multilateral development banks 
will negatively affect our international standing?

    Answer. We do not believe that the proposed funding level for the 
MDBs will negatively affect our international standing. The proposed 
funding level for MDBs opens space for funding other security and 
domestic priorities, has limited impact on the funding that the MDBs 
will be able to make available to developing countries, and ensures 
that the United States remains a leading donor to the MDBs. Please note 
that as the lead agency overseeing the MDBs, Treasury, is responsible 
for the funding request for the MDBs and can provide any further 
details.


    Question 7. Your budget proposal cuts ECA funding by 55 percent, 
but at the same time enumerated in the congressional budget 
justification a large number of programs that have, as I suspect you 
know, political support on the Hill, indicating that these programs 
would be protected and supported. Help me understand how the math will 
work on that. At what level will these programs be supported? Likewise, 
the budget documents also suggest that private sector exchanges will 
fill the relationship void made by budget cuts: And while I support 
private sector exchanges as well, given that the Hire American 
Executive Order policy review is looking at cutting the J-1 Summer Work 
Travel program by 90 percent please help me understand how gaps in 
programs cut will be filled by programs that are also likely getting 
gutted. Something does not seem to add up?

    Answer. Facing a limited resource environment, ECA has reviewed the 
full range of the Bureau's exchange programs. The Department's budget 
request for ECA proposes to retain a portfolio of established and 
effective programs to meet the highest priority foreign policy goals. 
In consultation with Department leadership, ECA would identify how and 
where to deploy specific people-to-people exchange programs and at what 
scale in order to most effectively address foreign policy challenges 
around the world.
    Private sector exchanges overseen by ECA, including the Summer Work 
Travel program, are an important part of our outreach. However, private 
sector exchanges do not replace the targeted foreign policy effect of 
United States Government funded exchanges.


    Question 8. Defense, diplomacy and development make up the three 
legs of our national security stool. The Defense leg of the stool has 
no shortage of champions on Capitol Hill. The other legs--diplomacy and 
development- which combined make up just over 1 percent of the federal 
budget--are grossly underfunded and yet save millions of lives and 
promote global stability and security. We need to invest in these 
aspects of our foreign policy, to strengthen our alliances and to 
combat the apathy and sympathy towards extremism and political 
instability that can be generated by poverty, hunger and disease. In 
addition to the immediate development and economic gain there is also a 
critical element for U.S. moral leadership in these programs. Yet your 
budget proposes a massive cut in development assistance from State and 
USAID: Do you believe that robust investment in civilian foreign 
assistance programs is necessary for effective US global leadership?

    Answer. The Fiscal Year 2018 budget request includes substantial 
funding for many State Department and USAID foreign assistance 
programs. In a constrained budget environment, the request focuses on 
the most critical U.S. national security interests and foreign policy 
priorities. I acknowledge we had to make some tough choices, but even 
with reductions in funding, we will continue to be the leader in 
international development, global health, democracy and good governance 
initiatives, as well as humanitarian efforts. If natural disasters or 
epidemics strike overseas, America will still respond. I am convinced 
we can maximize the effectiveness of these programs and continue to 
offer America's helping hand to the world.
    It is important to note that global challenges cannot be met by the 
United States alone. Focusing our efforts will allow us to advance our 
most important foreign policy goals, while ensuring that other donor 
countries contribute their fair share toward meeting these global 
challenges.


    Question 9. The budget is very scant on detailing the policies and 
procedures that would govern this new ESDF program. In fact, extent of 
the budget's operational description of this new program is limited to 
one sentence in the budget: ``Through ESDF, assistance previously 
provided separately in the DA, ESF, Assistance for Europe, Eurasia, and 
Central Asia (AEECA), and Democracy Fund (DF) accounts will support 
only those countries and programs that are most critical to U.S. 
national security and strategic objectives:'' Did you and your staff 
undertake a thorough review to ensure that best practices remain and 
that there is sufficient funding available to achieve America's goals 
under this proposal?

    Question 10. Do you have a detailed policy and administration 
proposal for how this new program would be governed? If so will share 
it with this committee? If not, then please explain how this program 
will work and why are you proposing it, at the expense of eliminating 
other well established programs, if it does not appear ready for 
execution?

    Question 11. How are determining which countries and programs ``are 
most critical"? Will you share with this committee the inputs, data and 
stakeholders that are informing these decisions?

    Question 12. Do you believe the public has a right to know how 
these decisions are being made?


    Answer to Question 9 to 12. The Fiscal Year 2018 budget request 
supports the President's commitments to make the U.S. government more 
efficient by streamlining efforts to ensure effectiveness of U.S. 
taxpayer dollars. Our proposed creation of a new, consolidated Economic 
Support and Development Fund (ESDF) account that replaces the Economic 
Support Fund (ESF), the Development Assistance (DA), Assistance for 
Europe, Eurasia, and Central Asia (AEECA), and Democracy Fund (DF) 
accounts is one example of how we are streamlining our efforts.
    This consolidated account does not mean that development programs 
are eliminated, or that development is no longer important to the 
United States. Instead, it allows the State Department and USAID to 
better assess, prioritize, and target development-related activities in 
the context of broader U.S. strategic objectives and partnerships. It 
will support many of the same programs previously funded with ESF, DA, 
AEECA, or DF funds.
    In a constrained budget environment, the request focuses on the 
most critical U.S. national security interests and foreign policy 
priorities as determined by the administration. The President is 
committed to a government that is transparent and accountable to the 
American taxpayer.


    Question 13. Does the administration intend to seek congress 
authorization for the ESDF?

    Answer. The Economic Support and Development Fund requested in the 
FY 2018 budget is a new account that would combine existing authorities 
of the Economic Support Fund and Development Assistance Accounts. If 
the requested ESDF appropriation is enacted, it would be based on the 
existing authorities in the Foreign Assistance Act of 1961, and no 
further legislation would be requested.


    Question 14. If the administration is not provided specific funds 
for the ESDF, but is instead appropriated funds for the historical 
programs the FY 18 budget proposes to eliminate, will you just 
reallocate those funds to the ESDF anyway? And if that happens or is 
planned will you consult this committee beforehand?

    Answer. The Department of State and the U.S. Agency for 
International Development (USAID) will obligate funds consistent with 
the appropriations and authorities provided by law.


    Question 15. How will you ensure that development with identified 
long-term objectives to reduce poverty--including by supporting 
education, agricultural improvements, and health interventions--is 
prioritized over short-term political calculations?

    Answer. Development programs are critical to meeting our foreign 
policy objectives, but challenges to global development cannot be met 
by the U.S. alone. Focusing our efforts will allow us to advance our 
most important policy goals and national security interests, while 
ensuring that other donor countries contribute their fair share toward 
meeting global challenges.


    Question 16. The budget eliminates DA and ESF investments in 37 
countries. The goal of U.S. aid should be to foster long-term self-
sufficiency in partner countries, ultimately supporting their 
transition from foreign aid. However, these transitions should not be 
driven by arbitrary budgets or timelines, but by measurable and 
realistic benchmarks, such as social and economic progress across 
social groups, public sector capacity, and the enabling environment for 
civil society and the private sector: What do you believe is the 
appropriate way for the U.S. Government to help countries move along a 
continuum of partnership with the United States?

    Answer. Under the FY 2018 budget request, the United States will 
remain a major donor of foreign assistance while focusing our funds on 
the most critical priorities. In some cases, we are leveraging prior-
year funds to continue some support to particular countries. In others, 
we propose utilizing funds from a regional line to support activities 
in a particular country. When making these difficult choices, we 
considered the track record of the assistance partnership as well as 
our interests and goals.
    As the President has said, we need to focus foreign assistance on 
regions and programs that most advance our national interests. The 
challenges facing countries today cannot be met by our assistance 
alone. We anticipate that the private sector, other donors, and 
countries themselves will make effective use of other resources for 
development. We will continue to partner with these countries and 
organizations.


    Question 17. How will you leverage alternative finance mechanisms 
like domestic resource mobilization and co-financing that assist 
countries build self-reliance?

    Answer. The development finance landscape has changed considerably 
over the last several years, and USAID is taking significant action to 
adapt to it.
    USAID is committed to use its assistance whenever possible to help 
developing countries better mobilize their own domestic resources to 
finance their development, build self-reliance, and reduce dependence 
on foreign aid. In particular, USAID is helping more than 15 countries 
strengthen their capabilities in domestic resource mobilization (DRM) 
so that their systems of public financial management including their 
tax systems are more efficient, transparent, and accountable, and raise 
more revenue while lowering barriers to economic growth.
    In this same vein, USAID is supporting mobilization of large and 
growing pools of home-grown institutional capital, particularly local 
pension funds. The Agency is also working with more private capital 
providers to spur new lending in sectors critical to development. For 
example, through its loan guarantee program, the Agency has mobilized 
$4.8 billion in private sector financing from 382 partners across 77 
countries to support development programming in agriculture, education, 
health, environment, small business and microenterprise expansion, and 
municipal finance.


    Question 18. What risk analysis has the State Department conducted 
on the impacts of ending or significantly curtailing U.S. development 
presence in countries like Sierra Leone, Niger, Laos, and Malawi--all 
countries where we've historically invested DA and ESF funds, but under 
the President's FY 18 budget would receive zero ESDF funds?

    Answer. The State and USAID budget formulation process considers 
inputs from a variety of stakeholders, including Washington and field-
based missions, regional and functional bureaus, and technical 
roundtable and working group recommendations. These combined inputs 
help to inform final request levels.
    To ensure the efficiency and effectiveness of U.S. taxpayer 
dollars, we acknowledge that we have to prioritize and make some 
difficult choices. Not requesting bilateral funding for a particular 
country does not necessarily mean that no programs are supporting that 
country. For example, the USAID/West Africa Regional and USAID/Sahel 
Regional operating units will fund activities in Niger, Cote d'Ivoire, 
and other countries in the Sahel. We may also utilize Washington 
central funds to support activities in countries that do not receive 
bilateral assistance. In some cases, other U.S. government funding 
(e.g. MCC, Peace Corps or via international organizations) will 
continue to provide critical support.


    Question 19. If you've done such a risk analysis, would you share 
it with this committee? If not, what confidence can you provide this 
committee that a U.S. retreat from these countries won't contribute to 
a collapse in governance, economic growth, and sustainable development 
in these countries.

    Answer. To ensure the efficiency and effectiveness of U.S. taxpayer 
dollars, we acknowledge that we had to make some tough choices. We do 
not consider this a retreat from the affected countries. We recognize, 
instead, that global challenges cannot be met by government assistance 
alone, and cannot rely too greatly on the United States. The FY 2018 
request expects to see greater leverage of U.S. investments, along with 
increased efficiency and effectiveness of each dollar. The request 
moreover requires that the private sector and countries themselves make 
better use of their own investments for development.
    Not requesting bilateral funding for a particular country does not 
necessarily mean that no programs are supporting that country. In some 
cases we may utilize funds from a regional line to support activities 
in a particular country. In other cases we may utilize Washington 
central funds to support activities. In several cases, other U.S. 
government funding (e.g. MCC, Peace Corps) will continue to provide 
critical support. Countries for which bilateral funding has not been 
requested may also receive critical support from the private sector, a 
variety of international organizations to which the U.S. contributes, 
and other governments worldwide.
    We will continue to partner with key allies to protect Americans, 
advance bilateral partnerships, open new markets for U.S. businesses, 
and promote U.S. interests abroad, in a manner that puts America first.


    Question 20. A common metaphor I often hear you, Mr. Secretary and 
Chairman Corker recite is that you believe we need to evolve our 
approach to foreign affairs and foreign assistance away from a ``Cold 
War Mentality". I have to be honest, I'm not what you mean when you say 
this. If you are saying that you don't think the U.S. should work to 
counter Russian aggression or that Russia's meddling in our elections, 
and the elections of our close allies, than I have to strongly disagree 
with you. If perhaps you mean the U.S. practice of ``buying influence'' 
through development investments needs to stop, than I would ask you to 
explain how that squares with all the ``counter ISIS'' mentions in the 
State Foreign-USAID Budget, where the budget seems to suggest that 
foreign economic and development assistance should be focused in areas 
to counter terrorism--i.e. buy influence: Can you please tell the 
committee what this metaphor means? The sentence explaining how the new 
all-encompassing ESDF program, would seem to perpetuate a ``Cold War 
mentality'' by requiring all ESDF funds to be dispensed based on 
political and strategic (i.e. defense) goals determined by the 
President. How is that not perpetuating the Cold War mentality on 
development and foreign policy? Isn't this administration just changing 
out who the enemy is: exchanging the USSR for ISIS?

    Answer. As noted in my opening comments, America's global 
competitive advantages and standing as a leader are under constant 
challenge. In spite of the important work that the dedicated men and 
women of the State Department and USAID carry out each and every day, 
the Department and USAID, like many other institutions here and around 
the world, have not evolved in their responsiveness as quickly as new 
challenges and threats to our national security have changed and are 
changing. We are challenged to respond to a post-Cold War world that 
set in motion new global dynamics, and a post-9/11 world characterized 
by historic new threats that present themselves in ways never seen 
before, enabled by technological tools that we have been ill-prepared 
to engage. With such a broad array of threats facing the United States, 
the Fiscal Year 2018 budget request aligns with the administration's 
objective of making America's security our top priority.
    The proposed Economic Support and Development Fund (ESDF) is an 
effort to streamline accounts and ensure the most effective use of 
foreign assistance funding. The ESDF account will continue to support 
select programs and activities previously requested under the Economic 
Support Fund and Development Assistance accounts, allowing the 
Department and USAID to better assess, prioritize, and target 
development-related.


    Question 21. The line item for PL 480, Title II is zero. The budget 
appendix section on Foreign Disaster Assistance, however, says: ``This 
request includes $723.7 million for the USAID Office of U.S. Foreign 
Disaster Assistance to prepare for and respond to natural disasters, 
civil strife and prolonged displacement of populations that continue to 
hinder the advancement of development and stability. It also includes 
$1.094 billion for the USAID Office of Food for Peace for emergency 
food responses with a range of interventions such as local and regional 
purchase of agricultural commodities near crises, the provision of U.S. 
food commodities, food vouchers and cash transfers and complementary 
activities:'' What is the rationale for zeroing out PL 480 and changing 
the account source for the program to one where food assistance must 
compete with other global crisis situations?

    Answer. The International Disaster Assistance (IDA) Account request 
includes $690.3 million in enduring resources as well as $1.817 billion 
in Overseas Contingency Operations resources. The combined total of 
$2.508 billion will provide humanitarian assistance in response to 
natural disasters and complex emergencies around the world.
    Given the topline budget constraints of FY 2018, the administration 
looked for budget-neutral means to increase critical Defense Department 
gaps. The proposed FY 2018 humanitarian budget decreased in size along 
with the total proposed FY 2018 State/USAID budget. The proposed 
percentage of humanitarian funding requested as part of the FY 2018 
State/USAID foreign assistance budget remains the same as in FY 2016, 
roughly 22 percent, and the relative priority of these interventions 
has not diminished.
    The International Disaster Assistance (IDA) Account provides USAID 
with the full flexibility needed to provide the most appropriate food 
assistance modality for any emergency context. IDA is the most flexible 
and efficient account when responding to food security emergencies 
overseas, allowing partners to provide in-kind food purchased in the 
United States or in markets closer to beneficiary populations, and 
allowing beneficiaries to purchase food themselves in local markets.


    Question 22. Feed the Future is specifically driven by needs and 
capacity, not to be politicized: Will you commit to fulfilling the 
goals of the Feed the Future program according to the law and keep this 
program free of political or ``strategic'' influence?

    Answer. Yes.


    Question 23. The success of this program, is of course linked to 
how well it is resourced, will you commit to adequately resourcing Feed 
the Future so that the U.S. can continue to be a force for good in 
getting more countries on the path towards sustainable food production 
making them more food secure and less likely to need disaster food 
assistance in the future?

    Answer. The U.S. Government will remain a global leader in the 
effort to increase food security and resiliency around the world. 
Through targeted, catalytic investments, the State Department, USAID, 
and nine other USG agencies will continue to partner with other 
countries, international organizations, and the private sector to 
invest in sustainable food production.


    Question 24. How many of the 10 countries where the administration 
is proposing not to continue Feed the Future effort were based on these 
countries achieving ``transition'' status and what were the metrics 
used and benchmarks achieved in making these determinations?

    Answer. The interagency undertook a process of country selection in 
three phases to produce an objective and evidence-based list of target 
countries. The countries were selected based on the six selection 
criteria outlined in the Global Food Security Strategy: level of need, 
potential for agriculture-led growth, opportunities for partnership, 
opportunities for regional integration, host government commitment to 
investment and policy reform, and U.S. Government resource 
availability. The interagency, led by USAID, analyzed a wide range of 
quantitative and qualitative data to inform the selection process. 
While the U.S. Government will focus and concentrate its efforts in the 
new target countries, we remain committed to supporting food security 
efforts, where possible, in other countries where there is still need 
and potential for sustainable impact.
    Former Feed the Future focus countries still investing in 
agriculture and nutrition will continue to receive BFS technical and 
programmatic support. Similarly, countries that continue to prioritize 
food security but have not yet reached target country status will 
receive support tailored to meet their specific food security needs. 
The interagency is developing a thoughtful graduation approach that 
analyzes where each target country falls along the development 
continuum to meet each country's specific food security needs and bring 
to bear interagency tools that can accelerate success.


    Question 25. Poor maternal and child nutrition in the first 1,000 
days has irreversible physical and economic impacts for the rest of a 
child's life. Poor nutrition can hold entire national economies back. 
Nutrition in Global Health Programs was requested at $78.5 million for 
FY 2018--a decrease of almost $50 million from the past few years. And 
the total specified for maternal and child nutrition from all accounts 
was $120 million--a decrease of $136 million in the total budget for 
nutrition in the State Department and USAID from last year: What is the 
justification for cutting funding to maternal and child nutrition 
programs?

    Answer. Good nutrition is central to successful development, 
creating a defining link among health, economic growth, and food 
security. We have looked at our programs and are strategically focusing 
our investments within a reduced overall budget. Funds will support 
evidence-based approaches to nutrition and innovations that will 
improve outcomes for the most vulnerable populations. We are also 
looking to our development partners and host country partners to 
increase their efforts to help improve maternal and child nutrition. 
While the United States will continue significant funding for global 
health programs, even while refocusing foreign assistance, other 
stakeholders must do more to contribute their fair share to global 
health initiatives.


    Question 26. How do you plan to maintain current U.S. commitments 
to global nutrition (USAID Multi-Sectoral Nutrition Strategy, U.S. 
Government Global Nutrition Coordination Plan, U.S. Government Global 
Food Security Strategy, Global Nutrition Targets 2025, 2030 Agenda) 
with such a budget?

    Answer. We are confident that this budget request will allow us to 
support US commitments and priorities. The United States is committed 
to helping achieve global nutrition targets and we have been a large 
funder of global nutrition programs for many years. Our commitments are 
made together with the commitments of other development partners and 
countries, and we expect these partners to increase their efforts to 
help meet these global targets.


    Question 27. How would the proposed elimination of Food for Peace 
and IDA funds impact the ability to help treat and prevent the life-
threatening condition of acute malnutrition afflicting millions of 
children around the world?

    Answer. The International Disaster Assistance (IDA) account 
provides USAID with the full flexibility needed to save lives, reduce 
suffering, and mitigate and prepare for natural disasters and complex 
emergencies through relief, rehabilitation, and reconstruction 
assistance, including emergency nutrition programming.
    USAID has used both Food for Peace Title II and IDA resources to 
procure specialized food products and support emergency nutrition 
interventions overseas. IDA resources can be used to procure 
commodities--including specialized products used to prevent and treat 
acute malnutrition--both in the United States and from suppliers closer 
to targeted beneficiary populations.


    Question 28. What do these cuts mean for preventing the long-term 
effects of malnutrition such as stunting?

    Answer. The United States will continue to implement effective 
nutrition programs to prevent the long-term effects of malnutrition, 
such as stunting. Funds will support evidence-based approaches to 
nutrition and innovations that will improve outcomes for the most 
vulnerable populations. Activities focus on the prevention of 
undernutrition through integrated services, including nutrition 
education to improve maternal diets; nutrition during pregnancy; 
exclusive breastfeeding and infant and young child feeding practices; 
diet quality and diversification including through fortified or bio-
fortified staple foods, specialized food products, and community 
gardens; and delivery of nutrition services such as micronutrient 
supplementation and community management of acute malnutrition. We will 
work with countries to increase domestic investments in nutrition 
programs. The FY 2018 request expects greater leverage of U.S. dollars, 
along with increased efficiency and effectiveness of each dollar. In 
addition, the request requires that the private sector and countries 
themselves make better use of their own investments.


    Question 29. There is no line item for Power Africa in the Budget, 
although USAID's Africa Regional summary in the CBJ states: 
``Assistance will fund Power Africa's work towards 2020 targets 
identified under 277 the Electrify Africa Act of 2015 by supporting new 
power generation and access to electricity and leveraging private and 
public sector commitments made to Power Africa:'' Will you commit to 
supporting Power Africa and provide a specific FY 18 budget goal or 
target for Power Africa to this committee?"
    Answer. Power Africa is an extremely valuable and successful 
program, and I commit to supporting it. As one of the largest public-
private partnerships in the world, Power Africa is leading a global 
consortium of public and private partners to revolutionize the power 
sector by bringing American innovations and investments to the African 
continent. The administration remains committed to emphasizing programs 
such as Power Africa that, as Ambassador Green said in his confirmation 
hearing, ``incentivize local capacity-building and implementation, 
mobilize domestic resources, and ensure that our host-government 
partners have `skin in the game.' '' The administration believes that 
Power Africa represents these values. In the FY 2018 budget, the Africa 
allocation of $5.2 billion includes a planned level of $45.45 million 
for Power Africa under the USAID Africa Regional Operating Unit to 
support transaction assistance, on-grid and beyond the grid 
connections, and enabling environment reforms critical to the 
development and sustainability of the power sector.


    Question 30. In the FY 18 State Department Congressional Budget 
Justification it says that, ``. the United States is working to 
significantly reduce child and maternal deaths--with all countries 
having fewer than 20 deaths per 1,000 live births and fewer than 50 
maternal deaths per 100,000 live births by 2035:'' Please explain how 
eliminating the Family Planning and Reproductive Health program account 
at USAID will help reduce child and maternal deaths by 2035. Will you 
commit to ensuring that ending preventable deaths of mothers and 
children remains a USAID priority?

    Answer. Preventing child and maternal deaths is a priority for 
USAID and relies on sustained investment and appropriate linkages 
across diverse health programs focused on maternal and child health, 
nutrition and malaria. All of these efforts contribute to preventing 
child and maternal deaths. The FY 2018 request includes $1.3 billion to 
prevent child and maternal deaths and proposes to redirect $250.0 
million in previously appropriated Ebola supplemental funds for malaria 
programs.
    The United States is by far the largest overall global health 
donor. While the United States will continue significant funding for 
global health programs, even while refocusing foreign assistance, other 
stakeholders must do more to contribute their fair share to global 
health initiatives.


    Question 31. USAID plays a critical and distinct role in global 
health research and development (R&D), supporting late-stage and 
implementation research to advance new drugs, vaccines, diagnostics, 
and other health tools intended for use in remote and low-resource 
settings. Since 2000, the agency has supported development of 21 new 
health technologies with demonstrated track records of saving lives and 
cutting program costs. USAID's research investments are also critical 
for American health, and allow health technologies to be tested in 
regions of the world with the highest disease burdens, which in turn 
ensures Americans have access to the most effective, high-performing 
health tools. Despite these returns, the administration's FY 18 budget 
proposal cuts USAID funding for global health R&D--and zeros out USAID 
investments in HIV/AIDS research. This work is unique, and not 
duplicative of research happening at other US Agencies: Can you detail 
why global health research is being deprioritized by administration's 
budget at a time when global infectious disease epidemics are on the 
rise?

    Answer. The FY 2018 budget consolidates all U.S. assistance for 
global HIV/AIDS efforts within the State Department to simplify the 
management and coordination of these investments. USAID will continue 
to remain one of the primary implementing agencies for PEPFAR, and will 
continue to implement a significant share of U.S. global HIV/AIDS 
assistance in this capacity. With regard to global health research, 
USAID intends to increase its efforts to leverage partners' expertise 
and resources, strengthen country capacity to conduct their own 
research and development (R&D), and strategically utilize market 
shaping and innovative financing tools to incentivize private companies 
to invest in R&D.
    While the United States will continue significant funding for 
global health programs, other stakeholders must do more to contribute 
their fair share to global health initiatives. USAID will work closely 
with the State Department's Office of the Global AIDS Coordinator to 
highlight the importance of developing and introducing microbicides for 
women, HIV vaccines, and improved HIV treatment regimens.


    Question 32. International basic education assistance works. Not 
only does it exemplify core US values, it is a powerful determinant of 
economic growth. Studies have shown that each additional year of 
education can bring with it a 10 percent increase in income, and if all 
children in low-income countries left school with basic reading skills 
there would be a 12 percent reduction in world poverty. Since 2011, 
U.S. education projects in 45 different countries have reached over 41 
million learners and trained an average of 450,000 teachers annually. 
USAID's programs ensure that students develop the necessary skills to 
be part of the global workforce, have safe learning opportunities, and 
have equitable access to quality education.

    Answer. Thank you for your acknowledgement of the successes of our 
basic education programs. USAID has focused on learning outcomes and 
taken seriously the measurement of results in education. The Agency 
recently released its USAID Education Strategy 2011-2015 Progress 
Report, which is publicly available at http://pdf.usaid.gov/pdf--docs/
pa00mg68.pdf. The report shows that, from 2011 to 2015:

   In reading, USAID reached a cumulative 37.7 million individual 
        primary school students (18.4 million females, 19.3 million 
        males). Of these 37.7 million, we have measured change, through 
        a baseline and midline or endline assessment, in reading for 10 
        million (4.9 million females, 5.1 million males). Of these 10 
        million, 1.5 million meet our definition of improved reading 
        (900,000 females, 600,000 males). As data become available, we 
        will report on the results for the 27.7 million learners who 
        have been reached but not yet measured with a midline or 
        endline assessment.
   In terms of access to education in conflict and crisis, USAID 
        programs reached a total of 11.8 million individual children 
        and youth (5.6 million females, 6.2 million males) through 
        programming designed to improve or establish safe, quality 
        education. This number includes increased access to education 
        for 2.4 million who were previously out-of-school (1.1 million 
        females, 1.3 million males).


    Question 33. Do you agree that for United States to fully engage in 
and benefit from a stable and healthy international economy, we must 
continue to invest in the world's most at-risk and vulnerable children?

    Answer. Yes. Improving educational opportunities for the world's 
most vulnerable populations and strengthening education systems 
accelerates economic growth, strengthens communities, and reverses the 
root causes of instability that often fuel crime, conflict, and 
extremism. Investments in education are a smart, strategic, and 
effective part of U.S. foreign assistance, and remain vital to U.S. 
national security and economic interests.


    Question 34. The administration's current review and potential 
reorganization of the federal government should increase the 
effectiveness and efficiency of U.S. development institutions, rather 
than undermine them. This includes a critical recognition that 
development and diplomacy serve complementary, but distinct, roles in 
U.S. foreign policy: Recognizing it is critical that development and 
humanitarian assistance be provided in an independent and impartial 
way, how will you protect development and humanitarian assistance at 
the State Department and USAID from political, security, and economic 
priorities of other U.S. Government entities?

    Answer. Both development and humanitarian assistance are necessary 
to help prevent and mitigate humanitarian crises. The administration's 
goal for FY 2018 is to balance humanitarian and development 
interventions to help prevent the next humanitarian crisis.
    Humanitarian assistance is provided by the United States based on 
need, regardless of political, religious, and other affiliation, and 
does not discriminate against or favor one group over another. The goal 
of humanitarian assistance is to save lives and alleviate suffering and 
supporting the most vulnerable populations is the core value of our 
humanitarian assistance.


    Question 35. The President's budget proposes a 44 percent cut 
across accounts that provide the bulk of U.S. humanitarian assistance: 
International Disaster Assistance, Migration and Refugee Assistance, 
Emergency Refugee and Migration Assistance, and Food for Peace Title 
II, the latter of which also includes significant funds for development 
assistance. This is despite 128 million people being in need of 
humanitarian assistance globally, including over 70 million who are 
food insecure--30 million of whom are at risk of famine--65 million 
forcibly displaced persons, and the possibility of large-scale natural 
disasters or pandemics which we cannot currently foresee:

   In the face of potential cuts, how will you ensure decisive and 
        adequate humanitarian action to meet increasing needs in 
        response to emergencies in countries like Afghanistan, Burundi, 
        Central African Republic, the Democratic Republic of Congo, 
        Iraq, Libya, Nigeria, the Northern Triangle in Central America, 
        Somalia, South Sudan, Syria, Venezuela, and Yemen?

    Answer. The proposed percentage of humanitarian funding requested 
as part of the FY 2018 State/USAID foreign assistance budget remains 
the same as in FY 2016, roughly 22 percent, and the relative priority 
of these interventions has not diminished.
    Both development and humanitarian assistance are necessary to help 
prevent and mitigate humanitarian crises. The administration's goal for 
FY 2018 is to balance humanitarian and development interventions to 
help prevent the next humanitarian crisis.
    We remain committed to providing lifesaving assistance to those who 
need it most. The FY 2018 request includes significant funding for 
humanitarian assistance, including food assistance, disaster, and 
refugee program funding. This request would focus funding on the 
highest priority areas while asking the rest of the world to pay their 
fair share.
    Humanitarian funding decisions are based on need, as assessed by 
international and non-government organizations, USG field teams, 
assessments, and in close coordination with local governments and our 
implementing partners. The Department and USAID continually work to 
support populations with the greatest humanitarian need, and to assess 
whether implementing partners have the operational capacity and access 
to the people in need.


    Question 36. Given growing humanitarian need around the world, what 
criteria will you use to prioritize the allocation of humanitarian 
assistance?

    Answer. The Department and USAID continuously monitor humanitarian 
needs worldwide and make emergency funding decisions on a rolling 
basis, providing lifesaving assistance where it is most needed today 
while also meeting and mitigating anticipated emergency needs. We rely 
on a variety of tools to determine need and vulnerability and 
prioritize resources, including information from international and non-
government organizations, our field staff and partners, as well as 
forecasting from the Famine Early Warning Systems Network (FEWSNET) 
funded by USAID.
    Unfortunately humanitarian needs always exceed global resources 
available and we may not be able to fund responses to all crises at the 
desired levels. Difficult trade-offs, such as prioritizing immediate 
action at the expense of longer-term resilience and development 
activities may need to be made.
    Recognizing that the U.S. alone cannot meet all needs, we will 
continue to engage with fellow donors and actors within the 
international humanitarian community to seek their assistance and 
collaboration. Sustained U.S. humanitarian leadership, both diplomatic 
and financial, is critical for the continued engagement of both 
traditional and emerging donors, and to further develop new 
partnerships with the private sector, and the World Bank.


    Question 37. How will you ensure that humanitarian assistance goes 
to the most vulnerable, regardless of location? How will you protect 
humanitarian assistance from political/security/economic priorities of 
other USG entities?

    Answer. Both development and humanitarian assistance are necessary 
to help prevent and mitigate humanitarian crises. The administration's 
goal for FY 2018 is to balance humanitarian and development 
interventions to help prevent the next humanitarian crisis.
    The United States provides humanitarian assistance based on need, 
regardless of political, religious, and other affiliation, and does not 
discriminate against or favor one group over another. The goal of 
humanitarian assistance is to save lives and alleviate suffering. 
Supporting the most vulnerable populations is the core value of our 
humanitarian assistance.


    Question 38. Timeliness is vital in a humanitarian response. Not 
only do timely interventions save lives, they also help ensure that 
crises do not deepen, increasing demand for larger, costlier responses 
in the future. The President's budget indicated that OMB intends to use 
higher levels of carry-over funding--or to withhold funding allocated 
by Congress in FY 17, including additional resources provided for 
immediate famine relief--in order to blunt the impacts of its proposed 
cuts to and consolidation of humanitarian accounts: How will you ensure 
that humanitarian responses limited by the proposed cuts in FY 18, as 
well as OMB's stated intention to carry over funding from FY 17, will 
not lead to larger, costlier humanitarian response in future years?

    Answer. The amount of carry-over from humanitarian accounts each 
year is a function of prioritizing needs in crises, funding 
availability, timing, humanitarian access, the capacity of our 
implementing partners, the ability to effectively monitor programs, and 
the ongoing and prospective actions of other donors. The administration 
is continually adjusting to changing conditions and needs, and building 
in the ability to respond to unanticipated new disasters, humanitarian 
crises, or changes in existing situations.
    The USG continues to respond robustly to the major humanitarian 
crises facing the world today, including famine and potential famine in 
South Sudan, Nigeria, Somalia, and Yemen, as well as conflict and 
refugee crises in Syria and Iraq. The State Department and USAID will 
utilize funds appropriated in 2017 to provide life-saving assistance 
through the remainder of the fiscal year and into early FY 2018. We 
will continue to make programming decisions based on humanitarian need.


    Question 39. How do you justify carrying over levels of funding 
above historical norms in the face of clear Congressional intent to 
respond to pressing crises now?

    Answer. The administration is continuing to assess needs in order 
to determine the U.S. share of the resources needed to adequately 
respond to crises. As with previous years, the State Department and 
USAID anticipate that it will carry over significant FY 2017 funds into 
FY 2018 to enable it to respond quickly early in the new fiscal year to 
the needs that do not correspond with the budget cycle.
    Due to the timing of the generous FY 2017 IDA appropriation, which 
is higher than the administration anticipated, and over $2.1 billion 
above the record FY 2016 spending levels, the administration 
anticipates that the carryover of IDA from FY 2017 into FY 2018 will be 
significantly higher than in prior years even while responding at a 
higher level to ongoing crises. [NOTE: Including P.L. 480 Title II, the 
increase is nearly $2.6 billion (over 60 percent) above the record FY 
2016 spending levels.] Carry over of MRA from FY 2017 into FY 2018 is 
anticipated to be in line with more traditional levels.


    Question 40. While no one objects to reforms which may create 
efficiencies, we cannot plausibly expect that a drastic reduction in 
funding will not impact the extent of humanitarian response. Where do 
you plan to cut back on such funding in FY 18? Which crises do you feel 
warrant a lesser response now?

    Answer. Given the topline budget constraints, the proposed FY 2018 
humanitarian budget has decreased in size along with the total proposed 
FY 2018 State/USAID budget. However, the proposed percentage of 
humanitarian funding requested in the FY 2018 State/USAID foreign 
assistance budget remains the same as in FY 2016, roughly 22 percent, 
and the relative priority of these interventions has not diminished.


    Question 41. Has your counsel advised you about what level of 
carry-over funding may run afoul the Congressional Budget and 
Impoundment Control Act of 1974? Do you intend to push back on this 
withholding of funds to meet the exceptional level of humanitarian need 
globally?

    Answer. The Department and USAID will obligate funding appropriated 
by Congress consistent with applicable law, including the Congressional 
Budget and Impoundment Control Act of 1974.


    Question 42. If the goal of our global health programming is to 
``graduate'' countries off U.S. assistance by helping them develop 
strong, sustainable health systems: Please discuss how a 26 percent 
reduction in State and USAID global health programs will help us 
achieve that goal.

    Answer. While the United States will continue significant funding 
for global health programs, other stakeholders and the partner 
countries must do more to contribute their fair share to global health 
initiatives. In the aftermath of the Ebola epidemic, for example, many 
partner countries have made renewed commitments to building resilient 
health systems. Countries are moving toward strengthening the 
management capacity needed to develop and sustain essential health 
institutions and programs.The FY 2018 budget will continue our efforts 
to strengthen country health systems, with the goal of graduating 
countries from U.S. assistance.


    Question 43. Democracy and Governance: Assistance for Democracy, 
Rights, and Governance pays dividends. In recent years we have 
witnessed gains in Colombia, Myanmar, Nigeria, Lebanon, Sri Lanka, and 
Tunisia, among others: How will this administration support these 
positive trends and support fragile states headed in the right 
direction?

    Answer. Supporting countries in strengthening democracy, human 
rights, and governance (DRG) is critical for defending national 
security, fostering economic opportunities for the American people, 
asserting U.S. leadership and influence, and ensuring effectiveness and 
accountability to the American taxpayer. It is also fundamental to 
reducing fragility. As has been the case for many years, DRG programs 
implemented by both USAID and the State Department seek to build the 
accountability, transparency, and responsiveness of democratic 
governing institutions; foster respect for human rights and the rule of 
law; fight corruption; promote citizen participation and engagement in 
good governance and rule of law; and strengthen civil society 
organizations and independent media. These programs are foundational to 
sustainable development and, coupled with sector-specific programs such 
as health, economic growth, and food security, help reinforce the 
positive gains made by countries such as Tunisia, Nigeria, Myanmar, and 
Colombia.


    Question 44. Every year, hundreds of aid workers are attacked, 
killed, injured, and kidnapped in the course of their work, with the 
largest number of these attacks occurring in Afghanistan, Somalia, 
Sudan, South Sudan, and Syria. A new report released May 3 by the 
Safeguarding Health in Conflict Coalition found that in 2016, hundreds 
of attacks on healthcare providers took place in 23 different 
countries: How will the State Department respond to these 
unconscionable assaults to ensure that humanitarian personnel are 
respected and protected while carrying out their work?

    Answer. We remain deeply concerned by frequent lapses in the 
respect for the rules of international law, in particular international 
humanitarian law. We are gravely concerned that in many places affected 
by conflict, access to medical care continues to be severely restricted 
due to indiscriminate attacks on healthcare facilities (including their 
water and power sources), targeting of healthcare workers, and 
restrictions on medical supplies, among other limiting factors. We 
continue to use all means available to call upon all parties to armed 
conflict to comply with their obligations under international 
humanitarian law, including with respect to the protection of 
healthcare staff and humanitarian aid workers. As the largest single 
humanitarian donor, we regularly condemn these attacks in our bilateral 
discussions, in the U.N. Security Council, and in our public diplomacy.
    The United States strongly supports the principles of humanity, 
neutrality, impartiality, and independence for the provision of 
humanitarian assistance and regularly calls upon all States, all 
parties involved in armed conflict, and all humanitarian actors to 
respect these principles in order to ensure the provision of 
humanitarian assistance, the safety of civilians receiving such 
assistance, and the security of humanitarian personnel. We urge all 
parties involved in an armed conflict to allow full, unimpeded access 
by humanitarian personnel to all people in need of assistance; to make 
available all necessary facilities for their operations; and to promote 
the safety, security, and freedom of movement of humanitarian 
personnel.
    We regularly and consistently express deep concern that attacks and 
threats against humanitarian personnel, the United Nations, Red Cross 
and Red Crescent, and associated personnel are factors that severely 
restrict the provision of assistance and protection to populations in 
need. We regularly and consistently urge States and all parties to 
armed conflict to develop effective measures to prevent and address 
unlawful violence against such personnel, their means of transport and 
equipment, as well as hospitals and other medical facilities.
    The United States has and will continue to reiterate our strongest 
condemnation of all violations of international law committed against 
or directly affecting civilians, including healthcare workers and 
humanitarian personnel. At every opportunity, we will continue to 
restate our insistence that all parties to armed conflicts comply 
strictly with the obligations applicable to them under international 
humanitarian law, international human rights law, and international 
refugee law, and emphasize the need for all parties to armed conflict 
to take all feasible precautions to avoid civilian casualties and to 
respect and protect civilian populations, including healthcare workers 
and humanitarian personnel.


    Question 45. Civil Society: NGO access and preserving the role of 
civil society is critical to both humanitarian and development 
assistance, especially in supporting societies that hold their 
governments accountable: How will funding be provided to support civil 
society under the President's budget?

    Answer. An independent civil society is not only critical to the 
delivery of development and humanitarian assistance, it is also an 
important bulwark against state fragility. Despite the critical role 
that Civil Society Organizations (CSOs) play in a country's development 
process, CSOs have faced a mounting backlash and closing of the 
political space in which they operate in many parts of the world. In 
2017, Freedom House reported the eleventh consecutive year of global 
decline in civil liberties and political rights.
    In response, the Department of State and USAID's FY 2018 budget 
request includes $1.6 billion for Democracy, Human Rights and 
Governance (DRG) programs, of which, $261.6 million is dedicated to 
civil society. This funding would support CSOs working in closing and 
closed spaces by building their capacity to galvanize citizen 
participation, foster a positive shift in government responsiveness to 
citizen demands, improve freedom of information, and expand civic 
participation and CSO engagement with governments for improved 
accountability.


    Question 46. Today, youth between the ages of 15 and 29 comprise 
more than 30 percent of the population of the Arab world--roughly 100 
million out of 300 million people. Is it in the national interest to 
engage with these young people who will one day be the region's leaders 
and citizens? If so, how should the U.S. engage the youth of the Middle 
East and how can the U.S. do it effectively given the deep cuts to 
diplomacy and development budgets in the President's request?

    Answer. The youth bulge, rise of violent extremism, and high youth 
unemployment in the NEA region demonstrate the urgency to engage with 
and invest in youth. The State Department and USAID work in partnership 
with governments, the private sector, and civil society to advance our 
interests in reducing extremism and violence by supporting educated, 
healthy, employed and civically engaged youth who drive economic 
growth, democracy and prosperity. Public diplomacy focuses on robust 
social media outreach, educational exchanges like the Kennedy-Lugar 
Youth Exchange and Study (YES) program, and English teaching programs, 
including English Access Micro-scholarships. Foreign assistance 
programs emphasize areas of economic growth such as vocational 
education, skills training, and small and medium enterprise 
development; democracy and governance programs that partner with civil 
society to develop youth leadership in democratic processes and 
institutions; conflict resolution and countering violent extremism; and 
social sector development programs that promote literacy, support 
equitable access to quality basic education and higher education 
scholarships. We will work to maintain current program levels for the 
most effective youth programs, expand virtual exchange programs like 
the J. Christopher Stevens Virtual Exchange Initiative which endeavors 
to involve 20 million regional youth in on-line, digital exchanges by 
2020, and explore additional outreach opportunities.


    Question 47. In the Middle East, we have heard plenty from the 
administration about use of military force to defeat ISIS, including 
delegating decision-making down to commanders in the field. In the 
medium and long term however, the conditions that allowed ISIS to 
flourish cannot be addressed exclusively through military means. This 
is another reason why the President's proposed budget is deeply 
alarming--this budget cuts funds for the experts and programs that seek 
to address entrenched systemic problems--a deficit of good governance, 
open economies, and fundamental freedoms that enable citizens to 
flourish: Are you raising the challenges of long-term accountability, 
anti-corruption, human rights, and genuine reform with your 
counterparts in the Middle East?

    Answer. We continue to raise these long term challenges with our 
interlocutors across the region in the full range of our diplomatic 
engagements, including through private engagement and, when 
appropriate, public engagement and targeted programming. We are deeply 
committed to promoting human rights and good governance and, combatting 
corruption around the world, particularly in the Middle East and North 
Africa. We consider these activities as integral factors in fostering 
long term regional stability and security. Budgetary fluctuations do 
not mean that these issues are not priorities. As I said in my 
testimony, the United States will continue to be the leader in 
international development, global health, democracy and good governance 
initiatives, and humanitarian efforts. I am convinced that we can 
maximize the effectiveness of our diplomacy and programs.


    Question 48. The May 3rd readout of President Trump's meeting with 
President Abbas said that the President ``raised his concerns about 
payments to Palestinian prisoners in Israeli jails who have committed 
terrorist acts, and to their families, and emphasized the need to 
resolve this issue:'' What would be required for the issue to be 
resolved? What steps is the administration taking to pressure 
Palestinian leaders to abandon a system of payments that incentivizes 
violence?

    Answer. The United States always condemns any payments for acts of 
terrorism. We cannot tolerate any program that results in financial 
gain for committing acts of violence.
    Senior U.S. government officials have repeatedly asked senior 
Palestinian Authority (PA) officials to stop payments related to 
perpetrators of violent acts, and have facilitated meetings with 
members of Congress who have made similar requests. Last month, the PA 
announced it was stopping payments to some Hamas-affiliated prisoners. 
While this is a positive first step, much more needs to be done to 
address our concerns.


    Question 49. The May 3rd readout of President Trump's meeting with 
President Abbas said that the President ``raised his concerns about 
payments to Palestinian prisoners in Israeli jails who have committed 
terrorist acts, and to their families, and emphasized the need to 
resolve this issue:'' What would be required for the issue to be 
resolved? What steps is the administration taking to pressure 
Palestinian leaders to abandon a system of payments that incentivizes 
violence?

    Answer. The United States always condemns any payments for acts of 
terrorism. We cannot tolerate any program that results in financial 
gain for committing acts of violence.
    Senior U.S. government officials have repeatedly asked senior 
Palestinian Authority (PA) officials to stop payments related to 
perpetrators of violent acts, and have facilitated meetings with 
members of Congress who have made similar requests. Last month, the PA 
announced it was stopping payments to some Hamas-affiliated prisoners. 
While this is a positive first step, much more needs to be done to 
address our concerns.


    Question 50. It is my understanding that U.S. and Iraqi officials 
are currently discussing a follow-on mission for U.S. forces in Iraq, 
after the defeat of ISIS. However, I am concerned that Iraq will remain 
perpetually unstable and susceptible to ISIS' successor if Iraq's 
leaders do not come together in a national program of inclusive 
governance and reconciliation: What conditions should the U.S. insist 
on if we are to shoulder the cost and risk of keeping forces in Iraq?

    Answer. Defeating ISIS and ensuring that it cannot reconstitute is 
a core national security priority of the United States. The ISF, 
including Kurdish Peshmerga, are bravely leading this fight, taking the 
vast majority of the casualties, and slowly but surely pushing ISIS out 
of Iraq. More than 70 percent of the territory ISIS once held is now 
back under Iraqi control and not a single liberated community has 
fallen back under ISIS control. At the invitation of the Government of 
Iraq, the United States has played a supporting, but critical, role in 
helping the ISF achieve a nearly two-year run of unbroken victories in 
Tikrit, Ramadi, Sinjar, Fallujah, Hit, Bayji, Rutbah, Qayyarah, and 
soon Mosul. Nevertheless, ISIS remains a brutal foe that is a threat to 
the United States and our partners in the region and Europe; it is 
clearly in the interest of the United States to defeat ISIS and to 
remain engaged with our partners to ensure the group cannot reemerge.
    President Trump and Prime Minister Abadi made it clear during 
Abadi's March visit to Washington that together they seek to build an 
enduring bilateral security partnership after the defeat of ISIS in 
Iraq. A continued U.S. security partnership will help Iraq to develop 
the forces needed to prevent threats to Iraqi sovereignty and a 
resurgence of terrorist activity, and will ensure our gains against 
ISIS are lasting. It is in the interests of both the United States and 
Iraq to develop this post-ISIS partnership.
    We share your concerns about instability in Iraq and the potential 
for continued terrorism, even after ISIS no longer controls territory. 
This is all the more reason why the United States should remain engaged 
with our Iraqi partners--we, and they, must not fight the same war 
again. We agree that Iraqi leaders need to do more to improve 
governance and address unresolved issues to better meet the needs of 
the Iraqi people. The Iraqi government's decentralization program, 
which helps bring responsibility for government services closer to 
local communities, is one example of our joint efforts. We will 
continue to work with a wide range of Iraqis across the political 
spectrum and civil society to advance this agenda. As a starting point, 
we consider stabilizing areas liberated from ISIS a key component in 
ensuring that displaced communities, primarily Sunnis and ethnic 
minorities, are able to return home in dignity and with greater 
autonomy from the central government to manage their affairs. These 
grassroots initiatives to promote reconciliation complement and 
reinforce the Government of Iraq's efforts at broader national 
reconciliation.
    Iraq will hold national elections in the spring of 2018, and the 
Iraqi people will be able to hold their leaders accountable for their 
performance in office. The United States will continue to work with the 
United Nations Assistance Mission for Iraq (UNAMI) to ensure that these 
elections occur on time and reflect the will of the Iraqi people. Our 
focus remains on supporting the constitutional system and strengthening 
democratic institutions that transcend the interests of individuals, 
political parties, or sectarian components of Iraqi society.


    Question 51. What are you asking other members of the anti-ISIS 
Coalition to contribute to reconstruction and stabilization of Iraq? 
What are members of the Gulf Cooperation Council contributing?

    Answer. The United States and our partners, particularly those in 
the Global Coalition to Counter ISIS, are making significant 
contributions to help Iraq as it recovers from destruction caused by 
ISIS. In March of this year, donors utilized the Counter-ISIS Coalition 
Ministerial in Washington, D.C. to make more than $2 billion in 
Coalition pledges for humanitarian assistance, stabilization, and 
demining support for Iraq and Syria. These contributions come on top of 
the $22.2 billion in humanitarian assistance, stabilization, demining, 
and economic support by coalition partners for Iraq and Syria since 
2014.
    The stabilization of liberated areas is the first step toward 
recovery and is instrumental in cementing gains made on the 
battlefield. Coalition governments from over twenty countries have 
contributed $411 million to the U.N. Development Program (UNDP) Funding 
Facility for Stabilization (FFS), which funds stabilization projects, 
such as efforts to rehabilitate infrastructure, grants to small 
business to help jump-start the local economy, technical support to 
local government, and grass-roots reconciliation programs. UNDP has 
initiated and/or completed over 1,000 stabilization activities in 28 
liberated areas of Iraq, including in Anbar, Salah ad Din, Ninewa, and 
Diyala provinces.
    Our assistance to UNDP is cost effective: for every $1 contributed 
by the United States, UNDP received roughly three times that amount 
from our Coalition partners. More importantly, we are seeing results: 
to date, stabilization initiatives have facilitated the return of 1.9 
million internally displaced Iraqis nationwide.
    Demining is another important area of Coalition support for Iraq. 
The United States and Coalition partners have contributed over $40 
million to fund mine clearance of high priority sites in Anbar and 
Ninewa provinces through a private contractor, Janus. The Janus Task 
Order is approximately 70 percent State Department funded, with the 
other 30 percent contributed by Coalition partners.
    Stabilization and demining are not possible without trusted local 
security. Italy is leading a Coalition police training program to build 
the capability of federal, local, and Kurdish police forces. Spain and 
the Czech Republic have also contributed trainers to this effort that 
to date has trained over 8,500 police officers across Iraq. Several 
other partners are exploring trainer contributions to increase the 
throughput of Iraqi police force generation.
    The World Bank's International Bank for Reconstruction and 
Development has provided Iraq with a $350 million loan for 
reconstruction; a significant portion of these funds will be directed 
toward the Sunni areas of Salah ad Din Province, and portions of the 
loan could also be directed toward Anbar reconstruction. Germany has 
also agreed to provide Iraq with a 500 million euro loan for 
reconstruction.
    Our engagement with Gulf Cooperation Council (GCC) members on 
support for Iraqi reconstruction and stabilization has proven 
effective. The United Arab Emirates has contributed $50 million toward 
Iraq stabilization. The Emirates Red Crescent provided over $10 million 
in humanitarian assistance to support IDPs in northern Iraq. Qatar 
donated $10 million to the Qatar Red Crescent Society for humanitarian 
assistance for Iraq, with a focus on food security and health care in 
predominantly-Sunni Anbar province. Additionally, the Qatari Foundation 
for Humanitarian Services (RAF) implemented a number of humanitarian 
projects for IDPs in Iraq's southern provinces. Kuwait's financial 
assistance to Iraq by suspending Iraq's obligation to pay 5 percent of 
Iraq's oil revenues to Kuwait as reparations for Iraq's 1990 invasion 
of Kuwait in both 2015 and 2016 freed up billions for Iraq to spend on 
domestic priorities. The Government of Kuwait also provided more than 
$9.5 million to U.N. humanitarian agencies and $500,000 to the Kuwaiti 
Red Crescent for humanitarian assistance to Iraqi IDPs.


    Question 52. I am concerned that, with Afghanistan policy 
deliberations reportedly fixated on a troop increase, we are missing 
the bigger point-that there is no solely military solution to the 
conflict. We need to encourage a negotiated political settlement, 
including an end to the Taliban's safe haven in Pakistan, and boost the 
Afghan government's ability to uphold justice and the rule of law in 
the face of rampant corruption and record-high civilian casualties: 
What is U.S. policy on Afghanistan? Should the U.S. play an active role 
in supporting political settlement? If so, what do you see as the role 
of the State Department?

    Answer. The National Security Council has been coordinating an 
interagency process to develop an integrated regional strategy that 
advances our vital interests in Afghanistan and the broader region. The 
strategy recognizes that there is no military solution to the conflict 
in Afghanistan.
    A negotiated political settlement with the Taliban is critical to 
ending the conflict and ensuring the long-term preservation of our 
national security interests. We have stated to the Afghan government 
and our NATO allies that it is our priority to launch a peace process, 
and we regularly engage Afghanistan's neighbors to press the Taliban to 
come to the negotiating table. The Department of State is taking a lead 
role in building a regional consensus in support of an Afghan peace 
process. The United States would only support an agreement to end the 
conflict if it ensured that the Taliban would cease violence, break all 
ties to international terrorists, and accept the Afghan Constitution, 
including its protections for women and minorities. These end-
conditions are necessary to ensure the gains achieved over the last 15 
years are protected.
    The integrated regional strategy is broadly focused on combatting 
terrorism and preventing wider conflicts. Afghanistan is nested in this 
strategy within a broader context to account for the dynamics and 
interdependencies among the South Asian nations and the region. The 
review process is ongoing, but has already resulted in some important 
decisions, including the President's decision in June to delegate 
authority over troop levels in Afghanistan to the Department of 
Defense. Meanwhile, as this strategic review continues, we remain fully 
engaged with our Afghan and international partners in advancing our 
common interest in a more stable, secure and self-reliant Afghanistan.


    Question 53. In your response to questions for the record for your 
confirmation hearing, you said that ``helping African countries 
strengthen democratic institutions and the rule of law should remain a 
primary U.S. objective.'' However the FY 18 budget request for such--
nearly two thirds lower than the FY 17 request--indicates that this is 
not a priority: How do you explain such a drastic draw back?

    Answer. Accountable, citizen-centered governance and independent 
civil society are bulwarks against state fragility and help promote 
stable and open economies. We will continue to support democracy, human 
rights, and governance (DRG) programs in Africa and work with our 
African and other international partners to support the consolidation 
of democracy, which promotes America's security and economic interests. 
As we focus on ensuring the effectiveness and efficiency of foreign 
assistance overall, a continued commitment to DRG in Africa is 
reflected in the request. The FY 2018 request includes $131.2 million 
for DRG in Africa, $20.1 million below FY 2016. The proportion of the 
non-health request for Africa to support DRG programs is 16 percent in 
the FY 2018 request as opposed to 9 percent in the FY 2016 actual 
level.
    Our DRG efforts in Africa span a wide range of country situations, 
from post-conflict states to consolidating democracies. In partnership 
with African governments, civil society, and international like-minded 
diplomatic missions, the U.S. government helps advance democracy and 
good governance in Africa by promoting the rule of law, credible and 
legitimate elections, a politically active civil society, and 
accountable and participatory governments. Support is also provided for 
anti-corruption reforms, strengthening the rule of law, effective 
service delivery, and improved accountability of African governments to 
their citizens.


    Question 54. Nigeria: The Nigerian Air Force mistakenly bombed an 
IDP camp in Rann in January, killing as many as 200 people. There has 
been no report to the public about what went wrong. The Army is accused 
of massacring 300 people and burying them in a mass grave in December 
of 2015.
    No one has been held accountable to date. In mid-2015, Amnesty 
International released a report alleging that the deaths of 8000 
civilians are attributable to the Nigerian military in northeast 
Nigeria, and that specific commanders had knowledge of torture, extra-
judicial killings and arbitrary detentions in overcrowded facilities.
    In your response to questions for the record for your confirmation 
hearing, you said that ``assistance on the improvement on human rights 
is something that must be considered on a case by case basis:''

   Have you reviewed the case of Nigeria?
   Why are we moving ahead with the sale of Super Tucanos without 
        getting assurances that the government will share with us the 
        findings of the investigation into the Rann bombing and 
        insisting on accountability for the Zaria massacre?

    Answer. In the State Department's conversations with the Nigerian 
government at all levels, we regularly underscore that human rights 
abuses and impunity for those violations tarnish Nigeria's 
international reputation, undermine its ability to establish trusting 
relationships with its citizenry, and impede our ability to serve as a 
partner in Nigeria's efforts to defeat Boko Haram and the Islamic State 
of West Africa. I will continue to urge timely and credible 
investigations into all allegations of human rights abuses, pursue 
broader and more transparent efforts to end impunity, and that 
individuals found guilty of wrongdoing be held to account.
    Nigeria is a critical partner in the fight against terrorism in 
Africa. As President Trump told President Buhari in their February 
phone call, we support Nigeria's interest in purchasing a close support 
aircraft capability from the United States to counter the regional 
threat of the Islamic State of West Africa and to defeat Boko Haram. 
This is part of our efforts to help professionalize the Nigerian 
security forces. The ultimate goal of U.S.-Nigeria security cooperation 
is to support the transformation of the Nigerian military into an 
operationally capable and professional organization which upholds 
international human rights standards and the Law of Armed Conflict in 
its operations and holds any violators to account.
    The bombing of Rann was a terrible tragedy. The strike appears to 
be the result of human error. When the incident occurred, the Nigerian 
government and military immediately assumed responsibility for the 
tragedy. The Nigerian air force also promptly stood up a six-person 
panel to investigate the incident. This and other investigations are 
ongoing. The Nigerian air force has also initiated a number of 
corrective actions to prevent future such mistakes, including closer 
coordination with humanitarian organizations active in the region. We 
support Nigeria's desire to acquire aircraft which are designed for 
more precise air-to-ground strikes, enabling pilots to positively 
identify targets prior to the release of weapons. Since this incident, 
the U.S. government has secured funding for air-to-ground integration 
training with the Nigerian military.


    Question 55. In your response to questions for the record for your 
confirmation hearing, you said that ``the situation in South Sudan is 
one of the pressing. in the world. It is critical to help build some 
political space for reconciliation between the government and rebel 
factions.'' The conflict continues to rage on. Nearly four million 
people have been forced to flee their homes; half of them children. 
Famine has been declared in parts of the country. A bipartisan group of 
Senators has asked for the appointment of a special envoy. The 
nomination of an Assistant Secretary of State for Africa would be a 
welcome step as well: In your six months as Secretary, what steps have 
you taken to, as you say, ``help build some political space?'' Are 
there international efforts to implement the 2015 peace agreement?

    Answer. We are currently pressing our partners, notably the Inter-
Governmental Authority on Development (IGAD), the Troika (Norway and 
the United Kingdom), the African Union (AU), and the United Nations to 
work with us to open the political space and develop a way forward. In 
recent months, we have encouraged the African Union and the U.N. to 
take an active role in pressing all parties in South Sudan to implement 
a cessation of hostilities in conjunction with the resumption of an 
inclusive political process. Only an end to the fighting combined with 
a renewed political process can lead to a lasting, stable peace.
    We have also pressed IGAD to work towards the political resolution 
of the South Sudan conflict with more urgency. After consistent 
diplomatic pressure from the United States and our Troika partners, 
IGAD held an Extraordinary Summit on June 12 where it called for the 
rapid convening of a ``High-level Revitalization Forum'' of the 2015 
peace agreement that would be open to all ``estranged parties.'' This 
marked the first regionally-sanctioned call for renewed political talks 
between the core warring parties since the resumption of hostilities in 
July 2016.
    In parallel to our efforts to work with international and regional 
partners to achieve a cessation of hostilities and initiate a credible, 
inclusive political process, the United States continues to address the 
humanitarian crisis, providing emergency, life-saving assistance to 
those affected by the conflict. The United States has provided more 
than $2.5 billion in emergency humanitarian assistance since December 
2013 to conflict-affected South Sudanese and South Sudanese refugees in 
neighboring countries.


    Question 56. I and a bipartisan group of Senators including several 
on this committee have introduced a resolution calling for greater 
respect for human rights in Ethiopia. In your response to questions for 
the record for your confirmation hearing, you said that you would 
``engage Ethiopia to express our concerns about violations of human 
rights and support for responsible governance.'' You also said that you 
would work closely with us to support greater democracy and human 
rights: What have you done since becoming Secretary to follow through 
on your commitment to engage Ethiopia on these issues?

    Answer. Ethiopian Prime Minister Hailemariam and I spoke on March 
1, and we discussed a range of issues concerning the relationship 
between the United States and Ethiopia, including those related to 
human rights and governance. The Department of State and the United 
States Embassy in Ethiopia advocate for human rights by attending the 
trials of arrested journalists, bloggers, and opposition party 
officials; by raising issues pertaining to these detentions, including 
the government's use of the Anti-Terrorism Proclamation and its 
continued state of emergency to stifle dissent; by advocating for rule 
of law and assisting legal defense clinics; by calling for respect of 
religious freedom; by supporting access to social media and sponsoring 
events through our visiting speaker program; by applying Leahy vetting 
to all applicable bilateral assistance programs; by calling publicly 
and privately for evidence-based investigations and prosecutions; by 
having our Resident Legal Advisor connect Ethiopian judges and 
prosecutors with U.S. counterparts to expand best practices, and by 
working with Ethiopian nongovernmental organizations to assist the 
justice sector in efforts to improve accountability and ethics.


    Question 57. In recent years, a succession of new and re-emerging 
infectious diseases have caused outbreaks and pandemics that have 
affected thousands of people worldwide. In just the last month we have 
seen the emergence of Ebola in DRC; Zika in India; Middle East 
Respiratory Syndrome coronavirus in Saudi Arabia, UAE and Qatar and 
avian flu in China. Given the extraordinary challenges we've seen with 
global health security over the last couple of years: Please explain 
how eliminating the global health security account and instead 
instituting a one-time transfer of $72.5 million from Ebola funds (33 
percent cut from FY 16 funding levels) will protect Americans at home 
and abroad from infectious disease threats?

    Answer. The FY 2018 request continues to support Global Health 
Security by requesting to use $72.5 million in remaining FY 2015 Ebola 
emergency funds, which would maintain a straight-line of support for 
global health security in development programs at the FY 2016 levels.
    The remaining balances from the Ebola response are an appropriate 
source of funding for programs whose objective is to prevent and 
contain future outbreaks of existing or new diseases. Programming these 
funds will enable the U.S. government, in partnership with other 
nations, international organizations, and public and private 
stakeholders, to prevent avoidable epidemics that could spread to the 
United States, detect threats early, and respond rapidly and 
effectively to disease outbreaks in an effort to prevent them from 
becoming global pandemics.
    The budget pursues greater efficiencies and leveraging of 
resources. Funding will enable sustained support for global health 
security and the building of country-level systems to prevent, detect, 
and respond to emerging disease threats to the American people.


    Question 58. With the recent reemergence of Ebola in Africa, in 
your view, is reprogramming Ebola funds appropriate at this time?

    Answer. Redirecting a portion of the remaining balances from the 
Ebola response will provide an appropriate source of funding for 
programs whose objective is to prevent and contain future outbreaks of 
new or existing diseases, such as Ebola. Programming these funds will 
enable the U.S. government, in partnership with other nations, 
international organizations, and public and private stakeholders, to 
prevent avoidable epidemics that could spread to the United States, 
detect threats early, and respond rapidly and effectively to disease 
outbreaks in an effort to prevent them from becoming global pandemics.
    The budget pursues greater efficiencies and leveraging of 
resources. Funding will enable sustained support for global health 
security and the building of country-level systems to prevent, detect, 
and respond to emerging disease threats to the American people.


    Question 59. Last week, an alarming New York Times report included 
projections that drug overdose deaths in the United State likely 
exceeded 59,000 in 2016. This staggering figure is largely driven by 
illicit heroin and fentanyl analogs. As a result, drug overdoses are 
now the leading cause of death among Americans under 50. While our 
country needs a comprehensive solution that also includes improved 
public health interventions, we desperately need better 
counternarcotics cooperation with our closest partners: Given the scope 
of this tragedy, can you explain why, in FY 2018, the administration 
has proposed a 32 percent cut to the International Narcotics Control 
and Law Enforcement budget over the level enacted by Congress for FY 
2017?

    Answer. The FY 2018 budget reflects the President's ``America 
First'' agenda that prioritizes the well-being of Americans, bolsters 
U.S. national security, secures our borders, and highlights U.S. 
economic interests. As we work to streamline efforts to ensure 
efficiency and make effective use of U.S. taxpayer dollars, we 
acknowledge that we have to prioritize and make some tough choices. 
Focusing our efforts will allow us to advance our most important policy 
goals. While the administration has proposed a reduction of 32 percent 
to the International Narcotics Control and Law Enforcement (INCLE) 
budget over the level enacted by Congress for FY 2017, we will 
concentrate resources where they offer the most value and impact to 
U.S. national security priorities. The Department of State is also 
helping lead U.S. implementation of President Trump's February 9, 2017 
Executive Order 13773 on Enforcing Federal Law with Respect to 
Transnational Criminal Organizations and Preventing International 
Trafficking, and in this regard is working to ensure that U.S. foreign 
assistance programs are aligned with U.S. interagency efforts to combat 
illicit drug trafficking and related transnational organized crime 
threats. This includes activities funded through the INCLE budget that 
address the U.S. drug epidemic by strengthening our partners' capacity 
to combat transnational organized crime, to include illegal narcotics 
trafficking. INCLE resources for counternarcotics will focus on 
programs that directly impact the flow of illegal drugs, particularly 
fentanyl and other opioids, to the United States. These programs 
address national security interests and align with long-term strategic 
goals for engagement and assistance.
    Projects funded with INCLE resources bolster partner countries' 
criminal justice systems, including their ability to cooperate 
effectively with U.S. law enforcement, strengthen law enforcement and 
judicial capabilities, counter drug flows, combat transnational crime, 
and address the underlying conditions, such as corruption and weak rule 
of law, that foster state fragility and spur irregular migration to the 
United States. This includes improving foreign law enforcement and 
intelligence gathering capabilities; enhancing the effectiveness of 
criminal justice sectors to allow foreign governments to increase drug 
shipment interdictions; effectively investigating, prosecuting, and 
convicting major narcotics criminals; and breaking up major drug 
trafficking organizations. These activities enable foreign governments 
to be stronger partners with U.S. law enforcement and criminal justice 
agencies in investigating and prosecuting transnational crime and 
combatting the trafficking of dangerous drugs to the United States. 
INCLE projects also fund multilateral counterdrug information sharing 
systems run by the United Nations Office of Drugs and Crime (UNODC) and 
the International Narcotics Control Board (INCB). INCLE funding, and 
that of other donors, enables critical global awareness of emerging 
threats from synthetic drugs, including fentanyl analogues and new 
psychoactive substances.


    Question 60. Is it the administration's intention to weaken 
international cooperation to combat heroin and fentanyl trafficking? 
Are you trying to cut efforts to reduce the volume of lethal drugs 
entering our country?

    Answer. The Department of State's most urgent drug control priority 
is to reduce the flow of illicit opioids and other lethal drugs 
entering the United States. The current opioid epidemic is our 
country's worst drug-related public health crisis in decades, and the 
Department of State is proactively working along multiple lines of 
effort to address this national emergency. This includes integrating 
U.S. law enforcement and policy efforts to combat drug trafficking as 
part of our interagency efforts to implement President Trump's February 
9, 2017 Executive Order on Enforcing Federal Law with Respect to 
Transnational Criminal Organizations and Preventing International 
Trafficking.
    We are particularly working to improve cooperation with our 
neighbors, Mexico and Canada, to reduce illicit opioid production and 
improve interdiction efforts on our continent. Building on prior 
security collaboration, the Department of State is working with the 
Government of Mexico to identify new opportunities to combat 
transnational criminal organizations, including by disrupting the 
business model of their drug trafficking networks. In Mexico, the 
Department's Bureau of International Narcotics and Law Enforcement 
Affairs (INL) administers programs to improve the effectiveness of 
Mexican efforts to eradicate opium poppy; train and equip Mexican law 
enforcement to identify and dismantle clandestine drug laboratories, 
including through safe handling of interdicted fentanyl; upgrade 
Mexico's National Drug Control System to track legitimate precursor 
chemicals entering Mexico to avoid their diversion to illicit 
production of fentanyl and other drugs; and build Mexican investigative 
capacities to interdict drugs and dismantle drug trafficking 
organizations. By building the capacity of Mexican security 
institutions to strengthen borders and ports, interdict drugs, 
including heroin and fentanyl, disrupt illicit financial networks, and 
bring criminals to justice, our security assistance will continue to 
provide the lasting change both nations seek.The United States works 
with Mexico and Canada through the North American Dialogue on Drug 
Policy to develop a greater shared understanding of drug flows and drug 
threats within North America and we are working together to confront 
these threats. For example, we have agreed to improve cooperation by: 
(1) sharing results of research and analysis of heroin, fentanyl, 
methamphetamine, and precursor chemicals; (2) exploring ways to better 
track cross-border illicit financial transfers; and (3) coordinating 
our messaging to countries outside of North America on mitigating the 
impact of the illicit opioid threat to our continent.
    The Department has also expanded its engagement with China to 
tighten controls over the production and traffic of illicit fentanyl 
and other dangerous synthetic drugs including support for the annual 
meeting of the United States--China Joint Liaison Group on Law 
Enforcement (JLG). The State Department, along with the Departments of 
Justice and Homeland Security, co-chairs this meeting to address broad 
law enforcement cooperation. Through this forum, the United States has 
provided China with updated lists of New Psychoactive Substances (NPS), 
assigning greatest priority to fentanyl-related substances, together 
with relevant scientific data and samples to facilitate expediting 
China's process.
    Since 2015, China has taken unprecedented action, controlling 138 
NPS and establishing an expedited mechanism to control other synthetic 
drugs that have no known medical use. This March, in response to our 
engagement, China announced control on four fentanyl analogues, 
including carfentanil, which is even more potent than fentanyl and 
responsible for a rash of deaths in the United States. All four of 
these fentanyl analogues were on the priority list of fentanyl 
analogues the Drug Enforcement administration (DEA) shared with China 
during the JLG Counter Narcotics Working Group (CNWG) in September 
2016.
    Because drug trafficking networks are adaptable and can shift to 
new sources of supply and transit routes in response to law enforcement 
pressure, we also remain committed to continuing our work to reduce the 
illicit drug trade in Afghanistan, where the majority of the world's 
illicit opium originates. INL continues to build Afghan capacity to 
conduct eradication, interdiction, alternative development, demand 
reduction, and public information programs.
    We are also heavily engaged in multilateral venues to combat the 
trafficking of illicit drugs to our streets. In particular, our support 
to the United Nations Office of Drugs and Crime (UNODC) and the 
International Narcotics Control Board (INCB), and outreach to key 
international partners in the U.N. Commission on Narcotic Drugs (CND), 
has paid dividends. Last March, the 53 member states of the U.N. 
Commission on Narcotic Drugs voted in favor of implementing 
international controls on ANPP and NPP--the two primary precursor 
chemicals used to produce illicit fentanyl and fentanyl analogues. This 
action should help reduce the availability of chemicals used for the 
illicit manufacture of fentanyl and its analogues.


    Question 61. DHS Secretary Kelly has spoken at length about how 
U.S. engagement in Central America can address the root causes of 
irregular migration, mitigate humanitarian concerns, and uphold U.S. 
national security. In fact, he is hosting a conference this week with 
Central American leaders to strengthen that cooperation. However, your 
State Department is proposing 30 percent cuts to funding for the very 
programs needed to improve security conditions, combat corruption, 
defend human rights, and create economic opportunity. How will these 
cuts undermine cooperation that Secretary Kelly has said is important 
to U.S. national security?

    Answer. The United States is providing a total of $1.3 billion in 
FY 2015 and FY 2016 assistance to Central America. Congress directed an 
additional $655 million for Central America in the FY 2017 
appropriation. Prior year U.S. assistance in Central America will 
continue to have a positive impact as we implement programming well 
into FY 2018. This level of funding, when combined with the FY 2018 
request of $460 million, represents a significant investment by the 
American taxpayer in dismantling criminal networks and addressing the 
underlying causes of illegal migration and illicit trafficking.
    The FY 2018 funding will enable us to focus efforts in areas that 
will have the greatest potential for transformative impact on U.S. 
national security. The Department and USAID will implement an 
integrated approach to crime and violence prevention through programs 
that reduce gang violence and the influence of organized crime across 
borders; promote good governance, anti-corruption, and fiscal 
management; and foster prosperity through regional integration and the 
creation of sustainable jobs for citizens, which in turn will create 
opportunities for U.S. companies.
    We are also encouraging increased private sector investment in the 
Northern Triangle and to mobilize additional support from other partner 
nations and institutions. For example, 60 private sector 
representatives from the Northern Triangle countries, Mexico, and the 
United States participated in the Central America conference in Miami 
in June. Moreover, Mexico co-hosted the event with the United States 
and representatives from Chile, Canada, Colombia, Spain, and 
international financial institutions also attended.


    Question 62. Additionally, as I have repeatedly raised the 
importance of making sure that our assistance in Central America is 
consequential, what efforts will you undertake to assess the impact of 
our engagement? I am particularly concerned about challenges of 
corruption and human rights abuses; how will you prioritize these 
issues?

    Answer. Human rights abuses are symptomatic of the high levels of 
impunity prevalent in the region for most kinds of crime. U.S. 
assistance efforts build professional and accountable civilian police 
forces throughout the region, and support campaigns against impunity 
and public corruption to strengthen the rule of law. We will direct 
U.S. assistance to support the Honduran government's implementation of 
a protection mechanism to safeguard human rights defenders, 
journalists, social communicators, and justice operators with the 
objective of protecting and promoting freedom of association, 
expression and other fundamental human rights. A key goal is to 
strengthen national level institutions so they are more transparent and 
responsive to citizen's needs. As part of this, the United States also 
supports the Organization of American States' Mission to Support the 
Fight Against Corruption and Impunity in Honduras (MACCIH), an anti-
corruption commission charged with preventing and combatting corruption 
and impunity and improving the rule of law in Honduras.
    With our support, the Salvadoran government has taken important 
steps to establish and implement a plan to create a professional, 
accountable civilian police force and curtail the role of the military 
in internal policing and to reduce venues for corruption. This plan 
includes strengthening the regional police offices in charge of 
investigating police misconduct, such as the San Miguel investigative 
office responsible for the Eastern region of El Salvador. We also 
direct U.S. assistance to the Salvadoran Attorney General's efforts.
    In Guatemala, the United States actively supports the U.N. 
Commission Against Impunity in Guatemala, the Public Ministry, and 
civil society organizations working to strengthen the rule of law, 
expand access to justice, and prosecute officials who commit abuses. We 
direct U.S. funding to programs that educate Guatemalan National Police 
and our funding also supports the Body for the Analysis of Attacks 
against Human Rights Defenders to strengthen government protection of 
key members of civil society.


    Question 63. As Venezuela trends towards failed state status, the 
country is suffering an economic and humanitarian crisis marked by 
growing human rights abuses and an increasingly authoritarian 
government. While the administration has emphasized multilateral 
diplomacy and used targeted sanctions, you have zeroed out all funding 
to address the situation, including critical assistance for democratic 
civil society and human rights defenders. As you know, I introduced a 
bipartisan bill on Venezuela with members of this committee that 
includes humanitarian aid, supports multilateral efforts, codifies 
additional targeted sanctions, and requires increased intelligence 
reporting on corruption: What is your assessment of the trajectory of 
Venezuela's crisis and what is the administration's policy for 
responding? Will you commit to working with members of this Committee 
on our bipartisan legislation to address the Venezuelan crisis?

    Answer. Yes, I will commit to working with the committee. We are 
following developments in Venezuela. Based on current assessments, 
Venezuela's crisis is worsening as evidenced by the rise in deaths 
related to violent protests, economic dysfunction, and acute medicine 
and food shortages. It is in this context that the U.S. government is 
working with democratic governments throughout the Americas, to support 
a unified regional approach to help Venezuela find a peaceful, 
democratic, and comprehensive solution to its current problems. At the 
Organization of American States General Assembly, the voices of 20 
member states representing the vast majority of the population of our 
hemisphere demonstrated that despite the Venezuelan government's 
efforts to silence dissent, the international community will continue 
to speak up for democratic principles and respect for human rights. Our 
region continues to be seriously concerned about the function of 
democracy in Venezuela and we are working with a growing group of like-
minded countries to promote a sustainable Venezuelan-led solution. Such 
a solution should involve the National Assembly. We will explore every 
option in our diplomatic and legal toolkit, including the use of visa 
restrictions and targeted sanctions to hold accountable those 
individuals, regardless of their rank or position, who participate in 
actions that undermine democratic processes or institutions, abuse or 
violate human rights, and restrict freedom of expression or freedom of 
peaceful assembly.


    Question 64. Last month, DHS granted a short six-month extension of 
Temporary Protection Status (TPS) for more than 58,000 Haitians in the 
U.S. given the precarious conditions stemming from natural disasters in 
Haiti. While I support the extension, I am concerned that Haiti will 
adequately equipped to receive more than 58,000 people come January 
2017. As you know, the U.S. has committed billions in foreign 
assistance to Haiti, especially after the devastating earthquake of 
2010 and Hurricane Matthew in 2016: In an era of reduced budgets, 
including our funding for Haiti, how will you ensure that U.S. 
assistance in Haiti is consequential? Are you concerned that the return 
of more than 58,000 individuals will be counterproductive to our 
efforts in the country?

    Answer. Following two years of political impasse and stalled 
elections, Haiti now has a democratic government in place with an 
elected president, a confirmed cabinet, and a complete Parliament. We 
are encouraged by the progress in Haiti, and believe the post-election 
stability, combined with President Moise's private sector experience, 
will lead to more effective development. The government of Haiti is 
focused on reforms to bolster economic opportunities that allow Haitian 
citizens to help build their country. In addition, the Haitian 
government affirmed its commitment to ensuring Haitian citizens, who 
may be affected in the event that TPS is not extended, return to Haiti 
safely, with dignity, and opportunities.
    Continued U.S. assistance will promote good governance, fight 
poverty by advancing economic development, and safeguard transparent 
and accountable government institutions.


    Question 65. In May, President Trump praised President Santos' 
efforts to bring peace to the Colombia and reaffirmed U.S. commitment 
to continued bilateral cooperation. The President also pledged U.S. 
willingness to support Colombia's efforts to address ongoing security 
challenges, including a spike in coca cultivation and cocaine 
production. As you know, Colombia is at a pivotal point as it 
transitions from armed conflict to the implementation of its peace 
accord. Successful implementation is imperative as the consolidation of 
peace and regional stability depend upon it. The administration's 
request proposes a nearly 30 percent reduction in funding levels for 
Colombia at a time when U.S. engagement is critical: Are you concerned 
that a reduction in funding for Colombia will undercut our ability to 
fulfill U.S. commitments to peace?

    Answer. As the President stated in his May 18 meeting with 
Colombian President Juan Manuel Santos, Colombia is a strategic U.S. 
partner, and the United States remains committed to helping the 
Colombian government secure a just and lasting peace. We have a vital 
national interest in Colombia's success. Colombia at peace will be an 
even stronger partner for us on countering drug-trafficking, organized 
crime, terrorism, and irregular migration. Securing the peace in 
Colombia will also increase trade and investment opportunities for U.S. 
firms.
    Our budget request reflects the administration's more constrained 
approach to foreign assistance. Building on prior year programs, U.S. 
assistance will help the Colombian government implement the peace 
agreement and focus on special U.S. capabilities and technical 
expertise to catalyze and enhance Colombia's own peace accord 
implementation and counternarcotics efforts.
    Our programming focuses U.S. assistance on: (1) security, including 
the government's counternarcotics efforts and reintegration of ex-
combatants; (2) the expansion of state institutions and presence in 
former rebel areas, including rural economic development, justice 
services, the military's civil engineering units, and humanitarian 
demining; and (3) justice and other support for victims.


    Question 66. Will these cuts limit our ability to combat drug 
trafficking and increased cocaine production?

    Answer. We remain deeply committed to supporting Colombian efforts 
to combat drug trafficking and roll back recent increases in coca 
cultivation and cocaine production. The administration's FY 2018 
Request includes an eight percent increase from the FY 2016 Actual 
levels for Department of State and USAID counternarcotics programs. The 
FY 2018 Request for International Narcotics Control and Law Enforcement 
(INCLE) for Colombia counternarcotics activities is $90.5 million, a 
slight increase over the FY 2016 Actual level. The Department will 
concentrate these resources on the highest priority activities. This 
will include assistance to help Colombia combat the increase in coca 
cultivation by supporting implementation of Colombia's counternarcotics 
strategy, including through land and maritime interdiction efforts, 
eradication, and police aviation programs. In addition to 
counternarcotics, INCLE funding will support activities that counter 
transnational organized crime, support police reform, and promote the 
rule of law.
    Additionally, the FY 2018 Request includes $57.4 million in ESF for 
USAID counternarcotics programming, a 16 percent increase above FY 2016 
Actual levels. This funding supports programs to improve the conditions 
necessary for inclusive, licit, rural economic growth-an important 
complement to the INCLE counternarcotics programs. USAID's programs 
will be prioritized to bolster citizen security and extend access to 
justice and other government services, all in support of U.S. national 
security and consistent with peace accord implementation.


    Question 67. As you know, I believe that it is critical for US 
security and prosperity to continue to invest in the Asia-Pacific. In 
particular I support the State Department and USAID taking a lead role 
in expanding maritime security in the South China Sea and promoting 
democracy and governance issues throughout the region: How does the 
budget request reflect the State Department's priorities when it comes 
to maritime security and democracy and governance funding in the Asia-
Pacific?

    Answer. We appreciate Congress's support for and attention to 
maritime security capacity building and advancing democracy and good 
governance in the Asia Pacific region.
Maritime Security
    The United States has made significant progress building the 
military and law enforcement capabilities of key partners in Southeast 
Asia, including maritime domain awareness and other maritime 
capabilities. The U.S. government uses several funding streams to build 
capacity in the Philippines, Vietnam, Indonesia, and Malaysia including 
Foreign Military Financing (FMF), International Military Education and 
Training (IMET), and DoD funding, including the Maritime Security 
Initiative (MSI). The State Department also supports maritime capacity 
building for law enforcement from the International Narcotics Control 
and Law Enforcement (INCLE) account. The Department of Defense uses its 
Maritime Security Initiative (MSI) to provide training and equipment to 
improve intelligence, surveillance, and reconnaissance (ISR) and other 
military capabilities.
    For example, in the Philippines, programs will promote the rule of 
law through modernization of the court system, which will likewise 
foster citizen confidence, reduce tolerance for extra-judicial 
killings, and combat corruption. U.S. assistance will continue to build 
trust by engaging citizen participation in local governments in 
Mindanao, and enhancing their ability to deliver services that are 
responsive to citizen needs. In Indonesia, democracy and governance 
efforts address corruption, weak rule of law, and ineffective 
government institutions by strengthening both the government and civil 
society institutions that are the frontline in the struggle against 
radicalism, intolerance, and violent extremism in Indonesia. The budget 
will also support civil society in Vietnam and reinforce democratic 
gains in Burma by supporting good governance and the peace process to 
end ethnic conflict.


    Question 68. China's official development assistance to African 
countries has increased by more than 780 percent since 2003. And just 
last month, President Xi Jinping pledged $124 billion for a new global 
infrastructure and development initiative called ``One Belt One Road.'' 
At the same time, the administration is proposing to close nine USAID 
missions and eliminate economic and development assistance to 37 
countries around the world. That includes zeroing-out Thailand, Laos 
and Cambodia in the proposed ESDF and cutting over $300 million from 
the EAP bureau:

   Are you concerned that your cutbacks to development assistance 
        could provide an opening for countries like China to exert 
        additional influence in Asia and around the globe?

    Answer. The Fiscal Year 2018 budget request will allow us to 
advance our foreign policy goals, while ensuring we are using U.S. 
taxpayer dollars as effectively and efficiently as possible. It 
includes substantial funding for many foreign assistance programs, but 
we have made tough choices to reduce funding for other foreign 
assistance initiatives. The budget request acknowledges that our 
operations must become more efficient, that our aid must be more 
effective, and that our primary mission must always be advocating for 
the national interests of our country. Focusing our efforts will allow 
us to advance our most important policy goals. We will continue to be 
the leader in international development, global health, democracy, good 
governance initiatives, and humanitarian efforts in Asia and around the 
globe. We are working with partners in the region to provide an 
alternative to Chinese state-directed financing, thereby mobilizing a 
broader effort beyond U.S. development assistance. This includes new 
approaches that engage other countries that share the same objectives 
for the region as we do, and that cooperate with the World Bank and 
other multilateral development institutions to improve the investment 
climate in ASEAN countries and attract more private sector financing to 
the region.


    Question 69. We are facing the largest refugee crisis in decades. 
We know that pregnancy related deaths and instances of sexual violence 
increase significantly during these times. In 2015, the U.N. estimated 
that 61 percent of maternal deaths worldwide occur in fragile states, 
many of them affected by conflict and recurring natural disasters where 
health services were not available to women. However, the State 
Department in April made a baseless determination to withhold funding 
for UNFPA, the leading provider of maternal and reproductive health 
care in humanitarian settings, and the FY 18 budget proposal reflects 
this decision:

   How are the State Department and USAID working to ensure the needs 
        of women in these crises are being met?

    Answer. We will continue to prioritize gender based violence 
prevention and response and reducing maternal deaths, including in 
humanitarian settings. The Department is continuing to work with 
partners to find alternative ways to use its funding originally 
intended for UNFPA to meet humanitarian challenges in conflict-affected 
countries.


    Question 70. Just thirteen years ago, the AIDS epidemic threatened 
the very foundation of societies in Africa- creating millions of 
orphans, stalling economic development and leaving countries stuck in 
poverty. Today, thanks to bipartisan commitment to PEPFAR-the largest 
commitment by any nation to combat a single disease internationally-we 
have made remarkable progress in our fight to stop HIV/AIDS in its 
tracks. Recently released data suggests that more than 11 million AIDS-
related deaths and 16 million infections have been averted worldwide 
since PEPFAR began. In 2016 alone, PEPFAR investments ensured that 
nearly 2 million babies were born HIV-free, that 6.2 million orphans 
and vulnerable children received care and support and that more than 
74.3 million people received HIV testing and counseling. There is broad 
international consensus that the next four years of action towards 
controlling AIDS is imperative if the AIDS crisis will be ended as a 
public health threat by 2030-a goal enshrined in the U.N.'s Sustainable 
Development Goals. According to UNAIDS, to achieve this by 2030, the 
number of new HIV infections and AIDS-related deaths will need to 
decline by 90 percent compared to 2010: Will the President's budget 
enable us to scale up our efforts around the globe? How does the 
President's budget move us toward the global goal to end AIDS as a 
public health threat by 2030?

    Answer. The nearly $5.0 billion requested for PEPFAR in the 
President's budget will allow the program to continue prioritizing 
smart investments that save lives and advance progress toward 
controlling the HIV/AIDS pandemic. The President's budget also supports 
PEPFAR's close collaboration with key partners, including host 
governments and the Global Fund to Fight AIDS, Tuberculosis and 
Malaria, all of which must step up their efforts to end the AIDS 
epidemic as a public health threat by 2030.
    With the President's budget, PEPFAR, in collaboration with host 
governments, will accelerate efforts toward achieving epidemic control 
in 13 high impact epidemic control countries by expanding the most 
impactful HIV services among the highest-HIV-burden locations and 
populations. PEPFAR will also focus on increasing partner performance 
and identifying and leveraging efficiency gains through the collection 
and use of more granular data (disaggregated by age, sex, and at the 
site level).


    Question 71. Given the wealth of rigorous evidence available about 
what works in HIV programming, how can you assure the American people 
that these cuts will not reverse the gains we've seen globally in 
mitigating the impact of HIV nor increase HIV-related deaths worldwide?

    Answer. In the 13 high impact epidemic control countries, PEPFAR 
will accelerate efforts to reduce HIV infections and AIDS-related 
deaths toward achieving epidemic control. We will expand the most 
impactful HIV prevention, treatment, and care services among the 
highest-HIV-burden locations and populations. This effort will be 
supported by using data to drive accountability, find efficiencies, 
leverage partnerships, and increase transparency.
    Outside of these 13 high impact epidemic control countries, PEPFAR 
will maintain its current level of antiretroviral treatment through 
direct service delivery and expand both HIV prevention and treatment 
services, where possible, through increased performance and efficiency 
gains. PEPFAR will also work with partner governments, the Global Fund, 
and others to determine how HIV prevention and treatment services can 
be expanded in cases where PEPFAR is not the primary funder and/or 
service delivery provider.


    Question 72. What is the rationale for zeroing out the $330 million 
in HIV and AIDS funding for USAID? Will the US meet our 33 percent 
contribution to the Global Fund?

    Answer. The FY 2018 budget consolidates all U.S. assistance for 
global HIV/AIDS efforts within the State Department to simplify the 
management and coordination of these investments. It is important to 
note that in the budget, USAID will remain one of the two (along with 
the Centers for Disease Control and Prevention) primary implementing 
agencies for PEPFAR, and will continue to implement a significant share 
of U.S. global HIV/AIDS assistance in this capacity.
    The budget includes $1.13 billion for the U.S. contribution to the 
Global Fund to Fight AIDS, Tuberculosis and Malaria, which keeps the 
U.S. on track to meet its commitment to match $1 for every $2 provided 
by other donors for the Global Fund's most recent 5th Replenishment 
period.


    Question 73. The President's budget would scale PEPFAR down to just 
12 focus countries to achieve epidemic control. OGAC indicates that 
since the budget release you have added one country to the list, so now 
there are 13: What was the criteria for determining the 13 epidemic 
control countries?

    Answer. Yes, Lesotho was added, bringing the total number of high 
impact epidemic control countries to 13. These 13 countries were 
prioritized based on several factors: HIV/AIDS burden; rate of new HIV 
infections (HIV incidence); number of AIDS-related deaths; and the 
potential for achieving epidemic control in the next 3.5 years--by 
2020.


    Question 74. Are you considering adding more countries to the list? 
Perhaps most importantly, how will you transition non-priority 
countries off PEPFAR programs?

    Answer. With the President's budget, PEPFAR will accelerate efforts 
toward reaching epidemic control in 13 high impact countries in the 
next 3.5 years--by 2020. Across its entire program portfolio, PEPFAR 
will maintain its current levels of antiretroviral treatment through 
direct service delivery as well as its current level of prevention 
services.
    Outside of the 13 high impact epidemic control countries, PEPFAR 
will expand both HIV prevention and treatment services, where possible, 
through increased performance and efficiency gains. PEPFAR will also 
work with partner governments, the Global Fund, and others to determine 
how HIV prevention and treatment services can be expanded in cases 
where PEPFAR is not the primary funder and/or service delivery 
provider.


    Question 75. OGAC indicates that current PEPFAR-supported ART 
patients (irrespective of where) will continue to receive these 
lifesaving drugs. Who will oversee the provision of ART in non-priority 
countries?

    Answer. In all of the countries its supports, PEPFAR will maintain 
its current levels of antiretroviral treatment through direct service 
delivery as well as its current level of prevention services. PEPFAR 
will expand both HIV prevention and treatment services, where possible, 
through increased performance and efficiency gains. Outside of the 13 
high impact epidemic control countries, PEPFAR will continue to work 
closely with partner governments, the Global Fund, and others to 
determine how HIV treatment services can be expanded in cases where 
PEPFAR is not the primary funder and/or service delivery provider.


    Question 76. Can you explain how all current HIV/AIDS patients 
would stay on treatment with a 15 percent reduction in resources?

    Answer. With the President's budget, PEPFAR is committed to 
maintain its current level of antiretroviral treatment through direct 
service delivery globally. This will be accomplished by increasing 
partner performance, identifying and leveraging efficiency gains 
through the collection and use of more granular data (disaggregated by 
age, sex, and at the site level), and prioritizing the strategic 
outcomes that are most directly related to achieving epidemic control.


    Question 77. The President's budget request does not include a 
voluntary contribution to UNICEF. While UNICEF would still be able to 
access funds for specific programs, like lifesaving measles 
vaccinations and humanitarian response, those funds do not support the 
staffing and infrastructure that makes UNICEF a global partner for the 
United States in helping children around the world. The lack of UNICEF 
support in the President's budget is also unfortunate given that the 
U.N. is in the process of choosing a new UNICEF Executive Director. The 
UNICEF Executive Director has always been an American, because of our 
historic strong support for that agency: What is the justification for 
eliminating the US voluntary contribution to UNICEF?

    Answer. The United States has traditionally been one of the top 
contributors to many U.N. funds and programs, including The United 
Nations Children's Fund (UNICEF).
    The President's request does not include funding for UNICEF from 
the International Organizations and Programs (IO&P) account. The IO&P 
account is only one of numerous USG sources of funding for voluntary 
contributions to international organizations. State Department and 
USAID funding may still be contributed to other U.N. organizations, 
such as UNICEF, if they are selected as implementing partners to 
execute specific foreign assistance programs, such as humanitarian or 
health programs.
    The absence of funding for these programs in the FY 2018 request is 
the result of prioritizing the use of scarce funding within overall 
budget constraints. The administration also believes that the high 
level of U.S. voluntary contributions has allowed other countries to 
lessen their voluntary contributions resulting in an unfair and 
disproportionate burden on U.S taxpayers.


    Question 78. The United States relies on a number of 
intergovernmental organizations, including the IAEA, CTBTO, and OPCW to 
assist the United States in combating the spread of chemical, 
biological, and nuclear weapons. The President's budget does not 
provide for specific funding levels for these organizations in his FY 
18 request: Will you commit to fully funding critical non-proliferation 
intergovernmental organizations at FY 2016 levels?

    Answer. With regard to the IAEA and the OPCW, the President's FY 
2018 budget request proposes to reduce funding for the Department of 
State's Contributions to International Organizations account by 
approximately thirty percent from the previous year to $1 billion. 
Specific amounts of funding for international organizations will be 
determined following an inter-Agency process that weighs U.S. national 
interests and the impact of funding reductions at each organization, 
with a particular emphasis given to how the organization advances U.S. 
national security.
    With regard to the Comprehensive Nuclear-Test-Ban Treaty 
Organization (CTBTO) Preparatory Commission (PrepCom), we intend to 
fully pay our assessment. The $29M requested in FY 2018 is essentially 
unchanged from FY 2017. Our requests have decreased since FY 2016 
because the fall in the value of the euro against the U.S. dollar means 
that fewer U.S. dollars are needed to pay the euro-denominated portion 
of our PrepCom assessment.


    Question 79. Is the United States planning on calling for a meeting 
of the Special Verification Commission to discuss Russia's continued 
violation of the INF treaty?

    Answer. The United States requested that the Special Verification 
Commission convene last fall. The session occurred November 15-16, 
2016. Belarus, Kazakhstan, Ukraine, and Russia participated, and the 
United States used the session to raise its concerns with Russia's 
violation. While no final decision has been made regarding whether to 
call an additional session of the Special Verification Commission, we 
are pursuing diplomatic engagement with Russia to pressure it to return 
to compliance with its INF Treaty obligations, including by raising the 
issue in appropriate venues. We have made very clear our concerns about 
Russia's violation, the risks it poses to European and Asian security, 
and our strong interest in Russia returning to compliance with the 
Treaty.


    Question 80. What steps is the United States taking to pressure the 
Russian Federation to abide by its commitments regarding the INF 
Treaty?

    Answer. The administration's review of U.S. policy toward Russia, 
and approach to enforcing compliance with arms control agreements such 
as the INF Treaty, is ongoing. As this review continues, we are 
pursuing diplomatic engagement with Russia to pressure it to return to 
compliance with its Treaty obligations, closely coordinating and 
sharing information with regional allies and partners, and considering 
responses to impose costs and deny Russia any significant military 
advantage from its violation.


    Question 81. Can you promise that you will fully consult and 
coordinate with our European allies and Congress before any decision is 
taken to withdraw from the INF Treaty?

    Answer. The administration has maintained close contact with 
Congress and European and Asian allies on developments relating to 
Russia's ongoing violation of the INF Treaty, and we will continue to 
do so. As the administration continues its review of Russia's violation 
in order to assess the viability of the Treaty, and the potential 
national security implications for the United States, we stand ready to 
continue to provide briefings and additional information related to our 
concerns with Russia's INF compliance and efforts to address this 
issue.


    Question 82. Currently, Foreign Service Officers newly-graduated 
from A-100 courses perform a consular tour for their first tour of 
duty. The current hiring freeze, and subsequent lack of A-100 
graduates, will presumably result in a severe dearth of Foreign Service 
Officers on consular tours. These consular officers are on the front 
lines when it comes to protecting our borders, as they make the first 
decision on whether or not to let foreign nationals into our country. 
With fewer officers serving in these roles, consular officials, 
workloads will become more overloaded, resulting in even shorter 
interview times and larger backlogs of paperwork. In addition, our 
consular operations in some countries, like India, are a profit-
generating enterprise. In India alone, the United States collected an 
estimated $180 million in visa revenue in 2016. These revenues also 
help offset the costs of consular operations in other countries with 
loss-making visa operations: Given the hiring freeze, what are the 
State Department's plans to sufficiently staff consular operations?

    Answer. The provision of consular services is one of the 
Department's highest priorities, a national security imperative, and a 
powerful driver of the U.S. trade and tourism sectors. Consular 
adjudication can only be performed by a U.S. citizen consular 
professional with an active consular commission. The Department has 
traditionally relied on Foreign Service Entry-Level Officers to fill 
consular positions through a requirement that all newly hired officers 
serve at least one year in a consular assignment. The current hiring 
freeze has widened the projected gap between hiring and near term 
adjudicator need beyond initial CA projections.
    Predating the hiring freeze, the Bureau of Consular Affairs (CA) 
and the Bureau of Human Resources (HR) anticipated that the demand for 
consular services would outpace the hiring of Entry-Level Officers. To 
address this deficit, the Department developed a range of hiring 
programs to diversify the pool of candidates available for assignment 
to entry-level consular positions, including Appointment Eligible 
Family Member Consular Adjudicators (CA-AEFMs), Civil Service 
Adjudicators, members of the Consular Fellows Program (CFP), and 
Register Candidate Consular Fellows. The CFP targets candidates with 
existing language skills in Arabic, Mandarin Chinese, Portuguese, 
Russian, and Spanish. CA and HR are working with the Foreign Service 
Institute (FSI) to ensure these hires have the language skills 
necessary to satisfy national security requirements prior to their 
assignments. These alternative hiring programs are funded by consular 
fees.
    To satisfy urgent staffing gaps while under the hiring freeze, we 
prioritize and deploy Temporary Duty (TDY) staff and utilize the CFP. 
CA's TDY program has grown dramatically in the past two years; in FY 
2015, our personnel completed 684 TDY assignments, more than a 156 
percent increase from the previous year. In FY 2016 our personnel 
completed 675 TDY assignments. The White House recognized the 
importance of the CFP in Executive Order 13780, which directed that 
``the Secretary of State shall immediately expand the Consular Fellows 
Program, including by substantially increasing the number of Fellows.'' 
The Department will hire up to 98 Consular Fellows in August 2017--the 
largest ever such class.


    Question 83. I have heard repeatedly from our European allies that 
the U.S. is not committed to upholding transatlantic partnerships and 
the democracy and human rights values on which they are based. In 
particular, there are increasing questions about the stance this 
administration is willing to take against Russian aggression toward 
Europe: What are the Department's plans for bolstering democratic 
institutions in Europe to defend against Russian aggression--this would 
include programs to promote anti-corruption, governance, and pushing 
back against disinformation.

    Answer. Supporting countries in strengthening democracy, human 
rights, and governance is critical for defending national security, 
fostering economic opportunities for the American people, asserting 
U.S. leadership and influence, and ensuring effectiveness and 
accountability to the American taxpayer.
    Europe remains an important priority for the Department and USAID 
as we work to counter Russian pressure and aggression through support 
for a strong, independent Ukraine, an economically and politically 
resilient Georgia, and Balkan countries able to resist the external and 
internal pressures that result in democratic backsliding. In 
particular, targeted U.S. foreign assistance will bolster long-term 
resilience against Russian pressure by building the accountability, 
transparency, and responsiveness of democratic governing institutions; 
fostering respect for human rights and the rule of law; fighting 
corruption; promoting citizen participation and engagement in 
governance and rule of law; strengthening civil society organizations 
and independent media; and promoting Euro-Atlantic integration.


    Question 84. To what extent will such programs be directed at 
countries in the Western Balkans especially vulnerable to Russian 
interference?

    Answer. The administration's request for the Western Balkans 
reflects a continued focus on consolidating democratic reform in the 
region as a means of countering Russian pressure and advancing national 
security interests relating to transnational crime, corruption, and 
violent extremism. Assistance will support our governmental and non-
governmental partners' efforts to reform weak democratic institutions 
and to fight corruption and organized crime. These efforts will build 
resilience against Russian pressure in the region, ensure continued 
momentum toward EU and NATO integration, and help to preserve a more 
even playing field for foreign investors. Bilateral and regional rule 
of law programs that provide technical assistance to special 
prosecutors who tackle high profile corruption and organized crime 
cases are prioritized throughout the region. Support for investigative 
journalism, independent media, and civil society will help to increase 
the reach of outlets producing objective news and to expose corruption. 
This support is critical to countering Russian disinformation and to 
keeping Euro-Atlantic integration on track in spite of Russian efforts 
to derail the process.


    Question 85. How are you working with Secretary Mattis to support 
European resilience in political-military, cybersecurity, and other 
critical spheres?

    Answer. The European Reassurance Initiative (ERI), including the 
$4.8 billion requested for FY 2018, provides funding to increase U.S. 
presence across Europe, expand U.S. participation in exercises and 
training activities with NATO Allies and partners, enhance 
prepositioning of U.S. military equipment in Europe, improve 
infrastructure at military installations, and provide assistance to 
build the capacity of our allies and partners to defend themselves and 
enable their full participation as operational partners in responding 
to crises.
    U.S. efforts under ERI and NATO's deterrence and defense decisions 
out of the 2016 Warsaw Summit--specifically to establish an enhanced 
Forward Presence in the Baltic States and Poland and a tailored forward 
presence in the Black Sea region, serve as an important deterrent to 
Russia.
    Further on the military side, the Alliance will continue to prepare 
for, deter and defend against attacks that employ chemical, biological, 
radiological, or nuclear material; to invest in robust, flexible, and 
interoperable military capabilities; and to protect our military supply 
chains and work to address, as appropriate, existing dependencies on 
Russian-sourced legacy military equipment through national efforts and 
multinational cooperation.
    On the civilian side, the Alliance will continue to improve civil 
preparedness, maintain and protect critical civilian capabilities. The 
Alliance will also strengthen and enhance, as a matter of priority, the 
protection of our national infrastructure and networks against the 
increasing threat and sophistication of cyber-attack.


    Question 86. Do you agree with the collective intelligence 
community view that Russia interfered in the 2016 election?

    Answer. As the U.S. intelligence community first reported in 
October 2016, the U.S. government is confident that the Russian 
Government directed the compromise and the subsequent release of emails 
in advance of the November 8 general election.
    The intelligence community assessed that Russia's activities were 
intended to influence the election, erode faith in U.S. democratic 
institutions, sow doubt about the integrity of our electoral process, 
and undermine confidence in the institutions of the U.S. government.
    The Department remains concerned by Russian efforts to interfere in 
elections in Europe and elsewhere. Russian tactics include 
disinformation campaigns, financial influence of political parties, and 
use of cyber operations.


    Question 87. Since coming into office, you have met with Russian 
Foreign Minister Sergei Lavrov on at least four occasions and had 
several phone conversations:

   Have you raised Russia's interference in our election with Lavrov?


    Question 88. How many times have you raised it? Please describe the 
nature of those conversations.


    Answer to Question 87 to 88. While I do not want to get into 
specifics of my diplomatic conversations, I assure you that the Russian 
Government is well aware of our concerns over its cyber activities 
directed against the United States and more globally. The Department 
has repeatedly raised its concerns with the Russian Government. The 
U.S. government will take action to protect our interests and to harden 
our defenses against malicious cyber activity. The Department also 
continues to maintain established means and modes of communication to 
ensure that the United States and Russia do not misunderstand one 
another.


    Question 89. What specific diplomatic measures are you taking to 
send a clear message to Russia that it cannot interfere in the 2018 
election?

    Answer. The Department has raised U.S. concerns repeatedly and at 
all levels with the Russian Government about its cyber activities. The 
Department also continues to maintain established means and modes of 
communication to ensure that the United States and Russia do not 
misunderstand one another.


    Question 90. Putin's aggressive foreign policy to undermine 
democratic processes and values in Europe and the United States is a 
function of his domestic policy to eliminate dissent and shore up his 
brittle, corrupt regime. So part of our response to Russian aggression 
must be to support to those Russians pushing for reform, transparency, 
and human rights in their own country. As you know, many of your 
predecessors met with human rights activists in Russia as a matter of 
course during their visits to Moscow, though you did not: Why did you 
not meet with human rights defenders and civil society activists during 
your visit to Moscow?

    Answer. I believe that the Department of State's mission is at all 
times guided by our longstanding American values of freedom, democracy, 
individual liberty, and human dignity.
    While I was not able to meet with civil society groups on this 
first trip, Department officials at all levels, including officials at 
the United States Embassy in Moscow, Russia, regularly meet with civil 
society groups. We believe that the Russian people, like people 
everywhere, deserve a government that supports an open marketplace of 
ideas, transparent and accountable governance, equal treatment under 
the law, and the ability to exercise their rights without fear of 
retribution. Although the space for civil society and free media in 
Russia has become increasingly restricted, Russian organizations and 
individuals continue to express a desire to engage with the United 
States. As long as this continues to be the case, the United States 
will support opportunities for direct interactions between Russians and 
Americans, including through peer-to-peer, educational, cultural, and 
other regional programs that provide exchanges of best practices and 
ideas on themes of mutual interest.


    Question 91. What is the State Department specifically doing to 
engage the Russian people?

    Answer. The Department of State maintains engagement with the 
Russian people in support of U.S. national interests. We use public 
diplomacy channels to build linkages between our societies. Our 
programs shape the perspectives of future Russian leaders and nurture 
relationships that anticipate improved political relations.
    U.S. public diplomacy operations overcome limitations through 
creative programming focused on Russian youth. When the government 
cancelled the 20-year old Future Leaders Exchange (FLEX) program for 
high schoolers in 2014, the Embassy pivoted and launched the YEAR (Year 
of Education in America for Russians) program, which sends college-age 
students on a similar one-year exchange and connects them to thousands 
of FLEX alumni across Russia.
    English programs are critical avenues to expose students and 
teacher/influencers to Western principles and sources of information. 
Our cultural programs provide a broader and more nuanced view of 
America, diluting the negative impact of Russian Government 
disinformation and propaganda.
    Embassy Moscow runs an American Center on the Embassy compound that 
attracts a significant audience. This American Center is the last 
remaining space in a network of 29 centers that the Russian Government 
shuttered over the past five years. Despite operating out of a 
temporary space, Embassy Moscow is seeing an increasing flow of 
Russians eager to use the space and attend American-themed programming.


    Question 92. How does this administration regard our long-standing, 
bipartisan support for Russians' human rights and their hope for 
transparent, accountable governance?

    Answer. We believe that the Russian people, like people everywhere, 
deserve a government that supports an open marketplace of ideas, 
transparent and accountable governance, equal treatment under the law, 
and the ability to exercise their rights without fear of persecution or 
retribution.
    The United States will continue to support longstanding efforts to 
ensure the rights of all Russians are protected, and promote values of 
freedom, democracy, individual liberty, and human dignity. In 
coordination with Allies and partners, we will call on the Government 
of Russia, in both public statements and private discussions, to uphold 
its international obligations and commitments to promote and protect 
human rights and fundamental freedoms. We will also urge Russian 
authorities to take steps to ensure the release of anyone wrongfully 
detained, conduct an independent and credible investigations into 
reported human rights violations, and hold any perpetrators 
responsible. Continued robust implementation of Magnitsky Act sanctions 
will also demonstrate our commitment to accountability for human rights 
abuses.


    Question 93. The Director of the U.S. State Department's Bureau of 
Energy Resources office for Europe, the Western Hemisphere and Africa, 
reportedly stated this past February that Russia's planned Nord Stream 
2 pipeline is ``a national security threat:'' Can you confirm that this 
is the official position of the U.S. State Department and explain what 
steps are being taken to counter this threat? If not, please explain 
what the official U.S. position is on Nord Stream 2.

    Answer. The United States has a clear interest in the energy 
security of our European allies and therefore we oppose Gazprom's Nord 
Stream II gas pipeline. We share many of our partners' concerns that 
this project strengthens Russia's dominance over Europe's gas sector, 
undermines European energy security, and hurts Ukraine. Some states in 
the Baltic Sea region also have raised broader security concerns about 
the project. The Director referenced these European concerns in the 
course of a panel discussion at a conference.
    We believe that energy security derives from a diversity of energy 
type, supply sources, and transshipment routes, as well as an 
integrated and efficient regional energy market. Russia has an 
established energy relationship with Europe and it is neither possible 
nor desirable to exclude Russian gas from the European market. However, 
Russia should play by the same rules as others; Russia should not be 
able to use its market position to either exert geopolitical leverage 
on its Eastern European neighbors or engage in anti-competitive 
practices. This is the message the State Department has conveyed to 
European interlocutors, many of whom share our apprehensions.
    Earlier this year, the European Commission stated that it considers 
Nord Stream II inconsistent with the core principles of the European 
Energy Union and would seek EU member state approval to lead 
negotiations with Moscow on the applicability of the principles of EU 
energy law to the offshore pipeline.
    Ultimately, the European Union and its member states must make 
their own energy choices, but our view is that Nord Stream II runs 
counter to Europe's own energy policy, energy security, and long-term 
interests, as well as to United States' and European Union efforts to 
support Ukraine in the face of Russian aggression.


    Question 94.  My understanding is that the Department is State is 
looking to apply some FY 17 funds to FY 18 for Embassy Security, under 
the argument that are excess funds available for Embassy construction 
and Embassy Security, with your budget proposal asserting that the ARB 
is fully funded. It is my understanding, however, that the ARB can only 
be considered fully funded because of funds applied from prior years 
and that in fact $300 million in additional funding is required in FY 
18 to meet the next set of ARB recommendations. $300 million might not 
be much in the context of a federal budget proposal that double counts 
$2 trillion, but that represents a large amount of money for State. 
Assuring that there are no embassy security vulnerabilities or 
exposures is a critical priority for me: How did you arrive at your 
budget proposal for Embassy Security?

    Answer. Consistent with the Benghazi Accountability Review Board 
recommendation, the FY 2018 Request provides $2.2 billion for Capital 
Security Cost Sharing (CSCS) and Maintenance Cost Sharing (MCS) in 
total when the Department's appropriated share is combined with other 
agency contributions and State consular fees. The State Department's 
appropriated share of the FY 2018 CSCS-MCS programs is $956.2 million, 
of which $337.8 million is requested in FY 2018 and $618.4 million is 
would be applied from the FY 2017 Security Assistance Appropriations 
Act (SAAA).
    The Department does not regard the SAAA funding as ``excess,'' but 
rather a reprioritization of available balances to provide State's 
share of the ARB recommended level for the CSCS and MCS program. The 
Department will formally notify such changes as part of the FY 2017 
Operating Plan for the ESCM account.


    Question 95. How will the FY 18 proposal, without borrowing from 
prior years, fully fund all the ARB recommendations?

    Answer. The FY 2018 Request provides $2.2 billion in total for the 
Capital Security Cost Sharing (CSCS) and Maintenance Cost Sharing (MCS) 
program, combining $337.7 million in new Embassy Security Construction 
& Maintenance (ESCM) funding, other agency contributions, consular fees 
retained by the State Department, and resources provided for ESCM in 
the FY 2017 Security Assistance Appropriations Act (SAAA). The FY 2018 
budget request includes language that would clarify that the 
Department's FY 2018 CSCS-MCS contribution would include ESCM 
appropriations provided under the SAAA. If ESCM appropriations provided 
under the SAAA are not utilized for the Department's FY 2018 CSCS-MCS 
contribution, the Department would need to identify other available 
funds to support the FY 2018 CSCS-MCS program at the $2.2 billion 
level.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Secretary Tillerson by Senator Johnson

    Question 1.  National security experts from every field and from 
both political spectrums are outspoken in their support of cultural 
programs such as the J-1 visa Summer Work Travel program, citing their 
immense strategic value and cost effectiveness. Please explain the 
administration's position on the strategic value of educational and 
cultural exchanges to U.S. national interests.

    Answer. Educational and cultural exchange programs increase 
American global competitiveness, create relationships and 
understanding, and contribute to increased national security in meeting 
the President's goal of ``building a more democratic, secure, and 
prosperous world.'' Exchange programs allow us to reach diverse sectors 
of American society and are vital to our diplomatic engagement 
worldwide, including with frontline states, countries in transition, 
emerging economies, and longstanding allies. Exchange programs benefit 
Americans, as more than 90 percent of the State Department's budget for 
exchange programs is either spent in the United States or invested 
directly in American citizens. Every exchange program involves 
Americans and brings the strengths of our society and its values to 
bear. In fact, more than 10,000 Americans, hailing from every state, 
have the opportunity to travel abroad each year on State Department-
funded exchange programs, ranging from Fulbright and Gilman to the 
National Security Language Institute for Youth. International students 
also contribute nearly $36 billion annually to the U.S. economy and 
local communities
    In addition to fully funded programs, the State Department's Office 
of Private Sector Exchange, which uses no appropriated funds, promotes 
greater understanding of the United States through a variety of 
programs dedicated to a particular group of foreign participants with 
whom the United States wishes to engage. One such initiative is the 
Summer Work Travel program (SWT), a privately-funded Exchange Visitor 
Program that places foreign students in a U.S. business or organization 
for a short period of time, typically during the summer months. This 
program allows thousands of Americans, including tens of thousands of 
volunteers, from all walks of life and every state, to host and 
interact with exchange participants from around the world. It also 
allows small and family-operated U.S. businesses in tourist 
destinations such as Ocean City, Maryland and the Wisconsin Dells to 
meet short-term, high volume worker needs during peak and shoulder 
seasons.
    Exchanges like SWT are a strong complement to U.S. Government-
funded programs, which are more uniquely able to reach underserved 
populations and people from countries that are foreign policy 
priorities for the United States. We will continue to support this 
critical outreach with a strategic focus to ensure our State 
Department-funded educational and cultural exchange programs are 
advancing America's foreign priorities.


    Question 2. In 1999, the United States Information Agency was 
folded into the State Department and U.S. public diplomacy has never 
recovered. There have been widely circulated reports suggesting the 
administration was considering a similar restructuring of USAID. Is the 
administration considering such a reorganization, and, if so, how will 
it ensure USAID retains its mission, culture, mandate, and expertise?

    Answer. We are reviewing options to ensure the efficiency, 
effectiveness, and accountability of the United States' diplomatic and 
development operations. This endeavor has no preconceived outcomes.
    The State Department and USAID recently completed collecting 
information on our organizational processes and culture through a 
survey that was made available to everyone in State and USAID. Over 
35,000 surveys were completed, and we also held in-person listening 
sessions with approximately 300 individuals to obtain detailed 
perspectives on what we do and how we do it. From this feedback, we 
have been able to get a clearer overall view of our organizations and 
will be able to make informed decisions on how we can produce a more 
efficient, effective State Department and USAID that maximize the 
expertise of staff and continue to deliver results for the American 
people.


    Question 3. Russia is prosecuting an information war in Europe 
designed to weaken EU and NATO solidarity. Does the administration 
intend to build a capacity to counter Russian propaganda and 
disinformation that is inimical to our interests? Does the 
administration believe the Department of State should play a leading 
role in such an effort?

    Answer. The goal of Russian disinformation and propaganda is to 
destabilize, distract, and divide our allies and partners in Europe and 
undermine transatlantic unity and U.S. interests. The State 
Department's public diplomacy programming, and our alignment with 
Allies and partners, including through NATO and the EU, enhances our 
collective resilience against Russian malign influence that threatens 
democratic institutions and processes.
    The Department of State has partnered with the Department of 
Defense and other members of the interagency to craft a whole-of-
government approach that addresses the challenge of disinformation and 
false narratives, including those that originate from Russia. A key 
channel is supporting U.S. Embassies in Europe so they can promote 
positive, accurate messages about the United States and our interests 
to effectively counter this propaganda. U.S. programs and initiatives 
also work to inoculate foreign publics by bolstering civil society, 
expanding media literacy, and supporting independent media.
    The 2017 National Defense Authorization Act broadened the mission 
of the Department of State's Global Engagement Center (GEC), providing 
it the statutory authority to ``lead, synchronize, and coordinate 
efforts of the Federal Government to recognize, understand, expose, and 
counter foreign state and non-state propaganda and disinformation 
efforts aimed at undermining United States national security 
interests.'' The GEC continues to engage in widespread consultations 
throughout the interagency and civil society to address its expanded 
mission.

                               __________


           Responses to Additional Questions for the Record 
          Submitted to Secretary Tillerson by Senator Menendez

    Question 1. How will this administration manage effective levels of 
assistance to the Northern Triangle countries and ensure that U.S. 
funds are beneficial and continue to address corruption, poverty, 
violence and development challenges?

    Answer. The United States is providing $1.3 billion in FY 2015 and 
FY 2016 assistance to Central America. Congress directed an additional 
$655 million for Central America in the FY 2017 appropriation. This 
level of funding, when combined with the FY 2018 request, represents a 
significant investment by the U.S. taxpayer in dismantling criminal 
networks and addressing the underlying causes of illegal migration and 
illicit trafficking, which include corruption, poverty, and violence. 
The FY 2018 request level of $460 million supports our programs in 
Central America that directly impact the well-being of Americans by 
bolstering U.S. national security and advancing U.S. economic 
interests.
    Assistance to El Salvador supports the strengthening of 
institutions responsible for investigating and prosecuting corruption, 
tax policy, and public finance management systems, and effective trade 
and business development services for small- and medium-sized 
enterprises. Assistance for Guatemala includes implementation of 
economic growth, health, and education programs in the Western 
Highlands, the area with the highest levels of out-migration to the 
United States, in addition to strengthening institutions that aid in 
the investigation and prosecution of corruption. Assistance for 
Honduras seeks to build on the Honduran government's efforts to achieve 
a properly trained and vetted civilian police force, and supports 
efforts to strengthen the capacity and independence of the Honduran 
Public Ministry to investigate and prosecute criminals. Assistance to 
Honduras also supports improved early-grade literacy and job training, 
particularly for youth and other vulnerable populations. Regional 
assistance for security, rule of law, and human rights programs 
implemented by the Department of State and USAID supports: community-
based violence prevention programs, anti-corruption initiatives and 
increased effectiveness of the judiciary and law enforcement, expanded 
vetted investigative and enforcement units for counternarcotics 
efforts, reform of prison systems, and improved border and maritime 
security.


    Question 2. State Department economic assistance and USAID support 
have committed to strengthening judiciary institutions, protecting 
human rights, and preventing violence in Mexico. This year already six 
journalists have been killed in Mexico and human rights defenders 
remain in danger. An effective response to addressing violence and 
corruption in Mexico involves maintaining this assistance including to 
the Mechanism to Protect Human Rights Defenders and Journalists, police 
reform, the independence of the attorney general's office and the 
transition to a new criminal justice system.

   How will the State Department continue to help these programs 
        ensure that Mexico advances towards addressing human rights and 
        corruption?

    Answer. Through the Merida Initiative, the United States and Mexico 
have forged a multi-faceted partnership to combat transnational 
organized crime and drug trafficking and to support Mexico's efforts to 
strengthen its security and justice institutions, enhance rule of law, 
improve border security, disrupt illicit financial networks, and 
promote respect for human rights.
    U.S. support for Mexico's ongoing transition to an accusatorial 
criminal justice system has been an integral component of our strategy 
to combat organized crime. A transparent, efficient, and effective 
criminal justice system is essential to the administration's goal of 
dismantling transnational criminal organizations and helps the 
Government of Mexico combat impunity. It also strengthens the rule of 
law by protecting due process, promoting assistance to crime victims, 
and strengthening human rights. As Mexico embarked on this set of 
reforms, the United States provides essential support for law 
enforcement professionalization, strengthening judicial institutions, 
training prosecutors and judges, curriculum support for law schools, 
accreditation of federal and state forensic laboratories and 
certification of their personnel, and improving the corrections system.
    The U.S. government continues to play a key role in supporting the 
Government of Mexico in standing up its Protection Mechanism which 
currently provides protection measures to more than 600 human rights 
defenders and journalists. USAID works with the Mexican government to 
increase prosecution of crimes against journalists, advocate for 
increased protection, and apply lessons learned from international best 
practices in protecting freedom of expression. USAID support to civil 
society groups, who advocate for threatened human rights defenders and 
journalists and help them learn self-protection methods, has been 
essential to the program.


    Question 3. As you know, a strong Mexican middle class, (as my 
colleague Senator Rubio often says) is the best economic partner we can 
hope for in Mexico. Do you believe cutting vital economic development 
programs that help build independent businesses and provide economic 
opportunities outside of organized crime serves American interests?

    Answer. Economic development investments build independent 
businesses that provide more economic opportunities. The United States 
makes substantial contributions to economic growth and development of 
the middle class in Mexico primarily through international financial 
institutions. In 2016, the United States supported $2.04 billion in 
commitments to projects in Mexico via the Inter-American Development 
Bank. In 2016, the United States supported $100 million in World Bank 
projects in Mexico and $350 million to date in 2017. Given the 
importance of macroeconomic stability to ensuring growth of a strong 
middle class in Mexico, the United States has also supported an $85 
billion Flexible Credit Line from the International Monetary Fund which 
the Mexican authorities have used as a precautionary measure to protect 
against global market volatility.
    The Overseas Private Investment Corporation (OPIC) and the U.S. 
Export-Import Bank (EXIM) also have significant engagement in Mexico. 
As of September 2016, EXIM had authorized over $8 billion in lending, 
insurance, and guarantees to help Mexican firms purchase U.S. products. 
OPIC currently has $781 million in active projects helping to develop a 
wide range of Mexico's economic sectors, including wind, solar, and 
other renewable energy projects which generate demand for U.S. products 
and services.
    Reflecting the U.S. government commitment to tackling the issue of 
transnational criminal organizations, USAID provides support through 
the Merida Initiative to train at-risk youth to gain the skills 
required to either obtain employment or further education, thereby 
drying the pool of recruits for these organizations.


    Question 4. What is your assessment of the trajectory of 
Venezuela's crisis and what is the administration's policy for 
responding?

    Answer. The U.S. government is working with democratic governments 
throughout the Americas to support a unified regional approach to help 
Venezuela find a peaceful, democratic, and comprehensive solution to 
its current problems. At the Organization of American States General 
Assembly, the voices of 20 member states representing the vast majority 
of the population of our hemisphere demonstrated that despite the 
Venezuelan government's efforts to silence dissent, the international 
community will continue to speak up for democratic principles and 
respect for human rights. Our region continues to be seriously 
concerned about the functioning of democracy in Venezuela and we are 
working with a growing group of like-minded countries to promote a 
sustainable Venezuelan-led solution. Such a solution should involve the 
National Assembly.
    We will explore every option in our diplomatic and legal toolkit, 
including the use of visa restrictions and targeted sanctions to hold 
accountable those individuals, regardless of their rank or position, 
who participate in actions that undermine democratic processes or 
institutions, abuse or violate human rights, and restrict freedom of 
expression or freedom of peaceful assembly.


    Question 5. Will you commit to working with members of this 
Committee on our bipartisan legislation to address the Venezuelan 
crisis? How will your request for no funding address your ability to 
respond to the Venezuelan crisis?

    Answer. Yes, I will commit to working with the committee on your 
legislation and other approaches to this serious problem. We will 
support all efforts that would appropriately address the Venezuelan 
crisis. I am convinced that we can maximize the effectiveness of our 
programs.
    While there is no funding requested in FY 2018, the FY 2017 
appropriation provided support for democracy in Venezuela, consistent 
with current USAID programs. These funds will allow us to continue our 
programming for the near future. The Department will engage and support 
human rights and democracy activists diplomatically. We will work with 
partners in the region to promote peaceful solutions in Venezuela. We 
want the Venezuelan people to thrive under a representative democracy 
that respects the constitutional roles of Venezuela's different 
branches of government, especially the role of the National Assembly.


    Question 6. The Inter American Foundation was on the list of 
federal agencies that may be revoked based on the FY 18 budget 
proposal. As you know Mr. Secretary, the IAF has demonstrated to be an 
economically well-run small independent agency that has provided 
effective aid to reduce poverty in Latin America and Caribbean for the 
last four and a half decades. Its position in the region helps to 
address the roots of the migration and refugee crisis in the Northern 
Triangle of Central America, with its community development projects 
focused on poor rural areas affected by drought and coffee blight and 
its programs for at-risk youth in rural and urban areas. Will the 
administration revisit this decision?

    Answer. The Inter-American Foundation (IAF) is a separate legal 
entity from the State Department, with independent authority, its own 
enabling legislation, and separate Congressional appropriations. 
Accordingly, the State Department's budget does not include funding for 
the IAF. We refer you to the IAF for further details on the FY 2018 
request.
    The FY 2018 President's Budget supports the President's priorities 
to defend national security, assert U.S. leadership, foster 
opportunities for U.S. economic interests, and ensure accountability to 
the U.S. taxpayer. The administration had to make some tough choices, 
including eliminating Federal funding for agencies that serve niche 
missions and may duplicate the efforts of other federal programs or the 
non-profit and private sectors, in order to focus our limited foreign 
assistance resources on advancing our most important policy goals and 
national security interests.
    The $1.1 billion Department of State and U.S. Agency for 
International Development (USAID) FY 2018 request for the Western 
Hemisphere, includes assistance to address weak governance, insecurity, 
corruption, uneven economic growth, poverty, and human rights under the 
U.S. Strategy for Engagement in Central America. To advance prosperity 
and governance objectives under the Strategy pursuant to the FY 2016 
Consolidated Appropriations Act, the IAF is receiving $6 million of FY 
2016 Development Assistance for the Empowering Community Prosperity and 
Resilience program via a non-expenditure transfer from USAID.


    Question 7. Can you confirm if the Egyptian government, for 
example: has freed political prisoners, is enforcing laws or policies 
to govern democratically, is taking necessary steps towards protecting 
and advancing the rights of women and religious minorities, and is 
providing detainees with due process of law?

    Answer. Egypt has made some efforts in these areas, including the 
new church construction law and legislation restricting female genital 
mutilation. The overall human rights situation, however, has 
deteriorated. As noted in the Department's 2016 Human Rights Report, 
the most significant human rights problems in the country were 
excessive use of force by security forces, deficiencies in due process, 
and the suppression of civil liberties. Although the government has 
freed some prisoners, it has not freed many prisoners arrested for 
their political affiliations or activism. The continued restriction of 
civil society is deeply concerning.


    Question 8. After President el-Sisi signed an oppressive new law 
confining civil society and reports of an increased crackdown against 
civil society organizations in Egypt, do you believe the Egyptian 
government is enforcing reforms that protect ``the ability of civil 
society organizations and the media to function without interference"?

    Answer. I testified previously that we were extremely disappointed 
by the recent legislation that President Sisi signed regarding NGO 
registration and preventing certain NGOs from operating. Looking at 
this legislation as it is written gives me strong doubts that they are 
engaged in reforms that protect the ability of civil society to 
function without interference, but we need to remember that the law has 
not been implemented yet and much will depend on the way in which the 
legislation is applied. We continue to raise our serious concerns about 
this legislation and the overall human rights situation in Egypt.


    Question 9. What examples, if any, can you give as evidence of 
those actions by the Egyptian government? What examples, if any, can 
you specify as evidence of the Egyptian government violating those 
principles?

    Answer. A notable improvement was the acquittal and release of Aya 
Hijazi, her husband and their colleagues. We are glad to see her back 
in the U.S. The passage of the new Church Construction Law was also a 
step in the right direction. The government, at its own expense, 
finished rebuilding the churches burned by rioters under the previous 
government and religious dissident Islam el-Beheiry was pardoned by the 
President.
    Despite these steps, our human rights report makes clear areas of 
continued concern. Significant human rights problems include lack of 
due process, including the excessive use of preventative custody and 
pretrial detention, trials involving hundreds of defendants in which 
authorities did not present evidence on an individual basis, and the 
use of military courts to try civilians. Civil society activists are 
regularly subjected to asset freezes, travel bans and arrests. The 
government failed to resolve the ongoing ``foreign funding case'' which 
involved convictions against U.S. citizens and Egyptian employees of 
U.S. registered non-profits. We will continue to stress the fundamental 
importance of respect for human rights and the need for a robust civil 
society.


    Question 10. Do you believe that Egypt's new NGO law defies the 
Brownback Amendment by allowing the Egyptian government veto power over 
U.S.-funded democracy programs?

    Answer. The Department of State and USAID implement programs 
consistent with the Brownback Amendment. Many of the practical 
implications of Egypt's new NGO law are not yet clear, and we are 
trying to get a better understanding of the law and how it may impact 
our programs and implementing partners. We continue to make clear to 
Egyptian government our commitment to supporting Egypt's stability, 
which requires, among other things, respect for civil society. We will 
continue to monitor closely Egypt's implementation of its new NGO law.


    Question 11. In broader terms, under this new law, what type of 
economic, development, or democracy programming is even possible for 
U.S. assistance to support in Egypt?

    Answer. On May 24, 2017 President al-Sisi signed a new law 
governing NGOs. The law contemplates extensive government oversight, 
onerous regulatory burdens, and high registration fees for NGOs. It 
imposes severe consequences-including imprisonment-for failure to 
register properly or even for conducting a survey without Egyptian 
government permission. Many of the practical implications of the new 
NGO law remain unclear, and we are in the process of determining how 
the law will impact our programs and implementing partners.
    State and USAID have deep experience operating in challenging 
environments and consistently find ways to adapt our programming to new 
and difficult circumstances. We will continue to monitor these 
developments closely.


    Question 12. In your view, should the repeal of this NGO law be a 
pre-requirement to the United States giving continued economic aid to 
Egypt?

    Answer. The Egyptian government is an important partner on a number 
of key U.S. foreign policy priorities. While there has been some 
progress over the last few months in the bilateral relationship, we 
were extremely disappointed when President al-Sisi signed the NGO law. 
From the time the parliament proposed this legislation until President 
al-Sisi approved it, the United States clearly and repeatedly 
communicated our concerns about the law. We do not want to slow the 
progress we have made in our bilateral relationship, but a strategic 
relationship is a two-way street that requires trust and credibility. 
We are therefore considering a range of options to respond to recent 
developments.
    A strong U.S.-Egypt partnership that includes economic assistance 
helps strengthen Egypt's security and social safety net, grow its 
economy, and build accountable government institutions--which is 
ultimately in the best interest of both Egypt and the United States.
    We have reiterated our concerns to Egyptian officials about the law 
and will continue urging them to mitigate the effects of the law 
through the implementing regulations that are due this July. We must 
continue to press the Egyptians to implement and enforce the law in a 
manner that preserves reasonable means and sufficient freedom for U.S. 
assistance programs and civil society to operate. With Egypt, as is the 
case around the world, we use a wide range of tools including our 
assistance and diplomatic engagement to advance U.S. interests. We 
continuously assess how these tools can be utilized and believe we can 
achieve our foreign policy goals most effectively with fewer 
limitations on the funding we are appropriated.


    Question 13. Nearly 300,000 women die of complications related to 
pregnancy and childbirth every year, and 225 million women in 
developing countries want to avoid pregnancy but are not using an 
effective contraceptive method. Evidence shows that fully meeting the 
need for both contraceptive and maternal and newborn health services 
saves more lives and is more cost-effective than funding only maternal 
and newborn health services. In fact, every additional dollar spent on 
contraceptive services will save almost $1.50 in the cost of providing 
pregnancy-related and newborn health care. Moreover, maternal deaths 
would drop by two-thirds and newborn deaths by three-fourths. 
Supporting family planning services is one of the most effective and 
cost-effective tools we have in saving mothers' and newborn lives. Yet, 
this administration proposes eliminating this funding entirely. Why is 
this administration proposing a more expensive, inefficient and 
ineffective way to reduce maternal and newborn deaths?

    Answer. Preventing maternal and child deaths remains a priority for 
this administration. By focusing our efforts on global health programs 
in maternal and child health, nutrition, and malaria we will continue 
to save the lives of women and children, while ensuring that other 
donors contribute their fair share toward global challenges.


    Question 14. Nearly 300,000 women die of complications related to 
pregnancy and childbirth every year, and 225 million women in 
developing countries want to avoid pregnancy but are not using an 
effective contraceptive method. Evidence shows that fully meeting the 
need for both contraceptive and maternal and newborn health services 
saves more lives and is more cost-effective than funding only maternal 
and newborn health services. In fact, every additional dollar spent on 
contraceptive services will save almost $1.50 in the cost of providing 
pregnancy-related and newborn health care. Moreover, maternal deaths 
would drop by two-thirds and newborn deaths by three-fourths. 
Supporting family planning services is one of the most effective and 
cost-effective tools we have in saving mothers' and newborn lives. Yet, 
this administration proposes eliminating this funding entirely: What is 
your view on the Global Gag rule, or the Mexico City Policy? Do you 
believe it is furthers our interests abroad?

    Answer. ``Protecting Life in Global Health Assistance,'' implements 
what the President has made very clear: U.S. taxpayer money should not 
be used to fund foreign organizations that perform or actively promote 
abortion as a method of family planning in other nations. The policy, 
which applies to global health assistance furnished by all U.S. 
departments or agencies, will not impact the total amount of U.S. 
government funding for these programs. Departments and agencies will 
make available to other organizations any funding they would have 
awarded to NGOs that do not agree to the terms of the policy. Given the 
expansive nature of the new policy, the Department will undertake a 
review of the effectiveness and impact of the policy's application 
after the first six months of implementation, which could include 
identifying implementation issues and the impact on our partnerships 
with other donors and any other new information affecting 
implementation going forward.


    Question 15. Nearly 300,000 women die of complications related to 
pregnancy and childbirth every year, and 225 million women in 
developing countries want to avoid pregnancy but are not using an 
effective contraceptive method. Evidence shows that fully meeting the 
need for both contraceptive and maternal and newborn health services 
saves more lives and is more cost-effective than funding only maternal 
and newborn health services. In fact, every additional dollar spent on 
contraceptive services will save almost $1.50 in the cost of providing 
pregnancy-related and newborn health care. Moreover, maternal deaths 
would drop by two-thirds and newborn deaths by three-fourths. 
Supporting family planning services is one of the most effective and 
cost-effective tools we have in saving mothers' and newborn lives. Yet, 
this administration proposes eliminating this funding entirely. Can you 
say that with these cuts to maternal and child health, nutrition, and 
other core global health programs will keep us on track for reaching 
those goals? The money that doesn't go to saving these people, is it 
more important for it to go to defense funding?

    Answer. The Department believes the prevention of maternal and 
child death is an important global health goal. As we work to ensure 
that U.S. taxpayer dollars are used efficiently and effectively, we 
must prioritize our international assistance and make some difficult 
choices.


    Question 16. What actions can you take to help these individuals 
that are committed to the Department and furthering diplomacy?

    Answer. We understand your concern about the recent letter sent to 
the current cohort of Fellows offering them the choice of entering the 
next available Foreign Service Generalist Orientation Class (A-100) or 
entering the Consular Fellows Program in the interim. Historically, 
Fellows have entered the Foreign Service as Foreign Service officers on 
career conditional appointments in the regularly scheduled July and 
September A-100 classes. However, given the current hiring constraints, 
the next A-100 has not yet been scheduled.
    We have offered the current cohort of Pickering and Rangel Fellows 
the opportunity to join our Consular Fellows Program, where they will 
play a crucial role in our visa security efforts, doing the same work, 
with the same responsibilities and authority as career Foreign Service 
Officers. Consular Fellows are members of the Foreign Service and are 
often the first U.S. Government official foreigners meet. Service in 
the Consular Fellows Program would count toward Fellows' service 
obligations under the fellowships. If an individual Pickering or Rangel 
Fellow chooses not to join the Consular Fellows Program, he/she may 
choose to wait and enter the next scheduled A-100 class, depending on 
his/her personal and individual circumstances. Fellows who choose to 
begin their service as Consular Fellows will be placed in the next 
available A-100 class upon completion of their one or two two-year 
Consular Fellows tour(s). Time spent as Consular Fellows will count 
towards their Pickering or Rangel Fellowship service commitment and 
will fulfill their Foreign Service Generalist consular tour 
requirement. As Consular Fellows, they may also be eligible for the 
Student Loan Repayment Program and a recruitment incentive payment of 
10 percent of basic salary, if authorized. As we have conveyed to the 
Fellows, the Department's commitment and intent to hire every 
qualifying Fellow into an A-100 class regardless of which option they 
choose has not changed.
    The Department is committed to the Pickering and Rangel Programs as 
our premier diversity recruitment programs, which together are 
responsible for 21 percent of the diversity currently in the Foreign 
Service. We value these talented individuals and recognize that their 
selection as Pickering and Rangel Fellows is testimony to their 
substantial promise and abilities. It remains our hope that regardless 
of which option a Fellow may choose now, they will make their careers 
in the Foreign Service. We will continue to keep Congress apprised of 
the status of the A-100 course.


    Question 17. Do you think the President's hiring freeze further 
inhibits and constrains the State Department? Wouldn't you consider the 
above counterintuitive?

    Answer. The President's government-wide hiring freeze was in place 
from January 23 through April 12 of this year. At the end of the 
freeze, I chose to continue it for the Department of State, with 
exemptions on a case-by-case basis, pending a comprehensive review of 
the efficiency and effectiveness of the Department, which is going on 
now.
    We're allowing normal attrition to bring the numbers down. As we 
look forward, we will continue to replenish our Foreign Service Officer 
corps. We are mindful of not diminishing the strength of our Foreign 
Service.
    We remain flexible. I have granted several exemptions in order to 
support our safety, security, and health and I continue to entertain 
requests for exemptions from throughout the Department on a case-by-
case basis.
    As part of these efforts, I aim to make the Department of State 
lean, accountable, and more efficient. Continuation of the hiring 
freeze is a necessary, but temporary part of that effort.



                               __________


            Responses to Additional Questions for the Record
Submitted to <greek-l>Witness deg. Secretary Tillerson by Senator Young

    Question 1. On May 25, in anticipation of Ambassador Haley's trip 
to Geneva, I convened a subcommittee hearing on the United Nations 
Human Rights Council (UNHRC). That hearing and the testimony of the 
witnesses underscored two leading problems with the U.N. Human Rights 
Council. First, some of the world's worst human rights abusers are 
members of the human rights council; and second, the Council exhibits a 
shameful and systematic anti-Israel bias. What specific steps do the 
Department of State and our mission at the U.N. plan to take to address 
these two problems at the U.N. Human Rights Council?

    Answer. I share your serious concerns about the membership and 
anti-Israeli bias of the United Nations Human Rights Council (UNHRC).
    Although, at its best, the UNHRC calls out human rights violations 
and encourages positive action, all too frequently it fails to act as 
it should--not addressing critical situations for political reasons--
and undermines its own credibility. Countries with poor human rights 
records are routinely elected to the Council, where they use their 
position to shield themselves and frustrate efforts to safeguard 
fundamental freedoms. The UNHRC maintains a clear anti-Israel bias in 
the persistence of Agenda Item 7.
    This administration believes that reforms are urgently needed to 
strengthen the Council's membership and revise its agenda.
    Toward that end, we are calling on member states to join together 
in the months ahead to develop and enact changes to the Council's 
election procedures, accountability measures, standing agenda, and 
operations to ensure that the world's most critical human rights 
situations--regardless of where they take place--are addressed fully 
and effectively.
    If such reforms are not possible, I have been clear that we will 
have to reevaluate our participation in the UNHRC.


    Question 2. The Center for Strategic and International Studies 
(CSIS) recently published a report on why the merger of the U.S. 
Information Agency (USIA) into the State Department in 1999 was a poor 
decision with long-lasting and negative repercussions on the post-9/11 
war of ideas. Have you read this report and how do you believe it might 
inform current reorganization discussions?

    Answer. The State Department is reviewing and taking into 
considering a wide range of ideas, including those from CSIS, without 
having any restrictions placed on the internal working groups tasked to 
provide recommendations to bring greater effectiveness and efficiency 
for all employees in completing their missions and objectives. I look 
forward to working with you and the Committee as we develop specific 
proposals in the months ahead.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Secretary Tillerson by Senator Coons

    Question 1. Multiple families in Delaware have been impacted by the 
Ethiopian government's decision to suspend international adoptions. 
What is the status of the State Department's inquiry into the 
suspension and ensuring that adoption cases underway prior to April 
21st will be resolved?

    Answer. Since Ethiopia's April 2017 suspension of intercountry 
adoptions, Department of State officials have vigorously engaged with 
the Ethiopian government to strongly advocate for a way forward for 
cases in process. On June 1, an official from the Ministry of Woman and 
Children's Affairs (MOWA) told Embassy Addis Ababa that MOWA would 
resume issuing Vital Signature letters for cases with Federal First 
Instance Court (FFIC) approval, which is a legal adoption.
    Since June 1, MOWA has issued documents allowing more than 24 
adopted children with FFIC approval to obtain Ethiopian passports and 
initiate their U.S. immigration processes. MOWA continues to process 
cases in all stages of the adoption process and has informed the 
Embassy they will have an ``exit strategy' for remaining cases. The 
Department of State continues to request information on the status of 
pending cases.
    Ethiopia's adoption policy has reportedly changed to favor domestic 
placements over international adoptions. The Ethiopian government has 
not released an official statement on the suspension or the reported 
policy change. The Department of State will continue to advocate for 
intercountry adoption as an option for Ethiopian children in need of 
permanent homes.


    Question 2. As a part of the hiring freeze, I understand that the 
State Department has decided to freeze the accession for all current 
Rangel and Pickering fellows. Last week, all current Pickering and 
Rangel fellows who were about to start A100 were told were told that 
those classes were on hold indefinitely. Both the Pickering and Rangel 
fellowships are premier accession programs into the Foreign Service and 
have served as vital pathways for increasing the diversity in the ranks 
of Foreign Service Officers. The actions taken to freeze these programs 
show a disturbing lack of attention and commitment of the crucial 
importance of diversity in the State Department. What are your plans 
for these important programs?

    Answer. The Department is committed to the Pickering and Rangel 
Fellowship diversity recruitment programs, which were established to 
increase diversity in the Foreign Service. Fellows are trained to and 
expect to join the Foreign Service upon the completion of the programs. 
Historically, the Fellows have entered the Foreign Service as career 
conditional entry level officers. As of June 13, the Department was 
unable to offer this year's cadre of Fellows a spot in an A-100 class 
at that time, as had been customary. We value these talented 
individuals and are determined to bring their skills into the 
Department. Although the Department was not able to offer the Fellows a 
spot in an A-100 class as of that date, the Department offered them the 
opportunity to join the Consular Fellows Program as an alternative to 
waiting until the next A-100 class. Fellows were given the option to 
choose to enter the Foreign Service as a Consular Fellow now, or wait 
until the next A-100 class, depending on their personal and individual 
circumstances. Fellows who would have chosen to begin their service as 
Consular Fellows would have been placed in the next available A-100 
class upon completion of their one or two two-year Consular Fellows 
tour(s).
    Since that time the Department has offered all eligible Fellows 
spots in the July and September 2017 A-100 entry level Foreign Service 
Officer classes. On July 24 we welcomed 35 Pickering and Rangel Fellows 
into the Foreign Service, and we will welcome another 24 on September 
18.



                               __________


            Responses to Additional Questions for the Record
          Submitted to Secretary Tillerson by Senator Portman

    Question 1. When you were here last, you spoke about the importance 
of supporting Ukraine against Russian aggression and maintaining 
sanctions against Russia for its purported annexation of Crimea and 
ongoing activities inside eastern Ukraine. Having engaged with the 
Russians on this issue, what do you think the Russian goals are in 
Ukraine?

    Answer. Russia has opposed any attempts by former Soviet states to 
integrate with NATO or the European Union (EU). Russia's violation of 
Ukraine's sovereignty and territorial integrity came as a response to 
Ukrainian efforts to sign a cooperation agreement with the EU, and 
Moscow's main goal is likely to exercise veto power over Ukraine's 
strategic foreign policy decisions.
    This administration believes that Russia needs to make the first 
step toward ending the conflict in eastern Ukraine, including 
implementing a lasting and durable ceasefire, withdrawing heavy 
weaponry, and granting OSCE monitors full and safe access. Russia, and 
the forces it leads in the Don River Basin (Donbas) continues to 
systematically obstruct the operations of the Special Monitoring 
Mission (SMM), which is a vital component to implementation of the 
Minsk agreements. We have called on Russia to compel the so-called 
``separatists'' they equip, lead, train, and fight alongside, to 
immediately end their campaign of harassment aimed at the SMM and allow 
their operations to continue. The administration has stated that Russia 
must adhere to its commitments under the Minsk agreements.
    Russian involvement in Ukraine remains a significant obstacle to 
improving U.S.-Russian relations. If Russia wants to move the U.S.-
Russia bilateral relationship to a better place, it needs to begin by 
making a visible, verifiable, and irreversible improvement in the 
security situation in eastern Ukraine now.


    Question 2. When you were here last, you also stated your support 
for providing defensive lethal assistance to Ukraine, as part of a 
comprehensive strategy to give Ukraine the tools to needs to defend 
itself. Do you still hold this position?

    Answer. While the United States has not provided lethal defensive 
weapons to Ukraine, we have not ruled out the option of doing so. As I 
stated previously, Ukraine has a right to defend itself against Russian 
aggression. We are closely examining how to best use our security 
assistance funding going forward to bolster Ukraine's ability to defend 
its sovereignty and territorial integrity. The United States continues 
to focus on finding a diplomatic solution to the crisis in eastern 
Ukraine through the full implementation of the Minsk agreements. In 
response to Russian aggression, the United States has committed more 
than $600 million in security assistance to provide training and 
equipment to help Ukraine defend its sovereignty and territorial 
integrity, better monitor and secure its borders, and deploy its forces 
more safely and effectively. We have also established a Multinational 
Joint Commission and a training group to coordinate international 
efforts and help build Ukraine's defense capacity to deter further 
Russian aggression. As I have told my Russian counterpart directly, our 
Minsk-related sanctions will remain in place until Russia fully 
implements its commitments, and our separate Crimea-related sanctions 
will remain in place until Russia returns the peninsula to Ukraine.


    Question 3. What is the role you see for the EU, particularly the 
French and the Germans, in helping to resolve the situation in Ukraine? 
Do you agree that it is important for the United States to assume a 
leadership role in urging our allies to remain united on this issue?

    Answer. The EU has been a reliable and crucial partner in 
implementing and maintaining sanctions on Russia in response to its 
aggression in Ukraine. On June 22, EU leaders agreed to extend the 
economic sanctions against Russia for its failure to implement the 
Minsk Agreements. We anticipate this political decision to be formally 
adopted by the Council of the EU in the coming weeks.
    France and Germany play a flagship role in resolving the conflict 
in eastern Ukraine and are working through the Normandy process to 
achieve sustainable peace as outlined in the Minsk Agreements. Shortly 
after his inauguration, newly elected French President Macron called 
for a Normandy Quartet (Germany, France, Russia and Ukraine) Heads of 
State summit, demonstrating France's commitment to the implementation 
the Minsk peace agreements.
    We are exploring ways that we can accelerate a resolution of the 
conflict and put an end to the human suffering in eastern Ukraine. We 
want to supplement the work that is already taking place and find a 
meaningful way to contribute in consultation with all parties involved.


    Question 4. With regards to Ukraine, in what areas have you seen 
the greatest progress in implementing reforms? In what areas should the 
United States encourage greater progress?

    Answer. Ukraine has made significant progress in implementing key 
reforms since the Revolution of Dignity in 2014. In the area of 
macroeconomic reforms, Ukraine has passed two IMF-compliant national 
budgets, continues to clean-up the banking sector, relaxed currency 
controls, and is actively pursuing pension reform.
    In the energy sector, reform of state-owned natural gas company 
Naftogaz, including more professional corporate management of the 
enterprise, enabled Naftogaz to be a net contributor to the national 
budget for the first time last year. Ukraine also increased gas tariffs 
to 100 percent of cost recovery in order to more accurately reflect 
market prices and lower Government expenses, passed an electricity 
market law (a key requirement under the EU's Third Energy Package), and 
adopted the Law on the Regulator, which increased the political and 
budgetary transparency of the National Energy Regulatory Commission.
    The United States will continue to encourage greater progress in 
the following areas: anticorruption and judicial sector reforms 
(including the formation of an anticorruption court); corporate 
governance reform and privatization efforts; and, continuing to meet 
required conditions for additional funding under the $17.5 billion IMF 
program.


    Question 5. What is your assessment of the impact of these proposed 
cuts on our efforts to support Ukraine and other post-Soviet states 
attempting to forge an independent and democratic future?

    Answer. The President's FY 2018 budget request for Europe and 
Eurasia will allow us to continue to support the work of the Department 
and USAID to strengthen resilience, reduce vulnerability to Russian 
aggression and malign influence, and support the Euro-Atlantic 
aspirations of our partners in the region.
    The United States remains firmly committed to Ukraine's sovereignty 
and territorial integrity, and sanctions against Russia will remain in 
place until Russia fully implements its commitments under the Minsk 
agreements and returns control of the Crimean peninsula to Ukraine. In 
addition, the FY 2018 request supports Ukraine's reform agenda and 
efforts to accelerate Ukraine's integration into Europe. It also 
provides assistance to resist Russian aggression and malign influence 
region wide, with a particular focus on conflict mitigation, anti-
corruption, rule of law, democratic governance, trade and investment, 
financial sector reform, and economic and energy diversification.


    Question 6. Please explain why you propose cutting funding to post-
Soviet states like Ukraine, often considered among the states most 
vulnerable to Russian influence, considering that countering Russian 
aggression and malign influence is considered one of the main 
objectives of regional assistance?

    Answer. As we work to streamline efforts to advance the security 
and prosperity of the American people and ensure efficiency and 
effectiveness of U.S. taxpayer dollars, we have had to prioritize and 
make some tough choices.
    With the President's FY 2018 Request for Europe and Eurasia, we 
will target our assistance areas where we see the greatest risk of 
Russian malign influence and the greatest opportunity to achieve 
success, retaining focus on our highest priorities, engaging other 
countries to advance our shared interests, and leveraging our funds 
with other donors wherever we can. U.S. foreign assistance programs 
will seek to counter Russian covert and overt malign influence by 
improving democracy and good governance; expanding civic engagement and 
independent media; increasing defense capabilities; strengthening rule 
of law and anti-corruption measures; and, promoting European 
integration, trade diversification and energy security. This includes 
continuing support for a strong, independent Ukraine, an economically 
and politically resilient Georgia, and Balkan countries that are able 
to resist external and internal pressures that result in democratic 
backsliding.


    Question 7. Would you agree that the dangers posed by extremist 
messaging and state-sponsored information operations represent a 
critical national security threat to the United States?

    Answer. Yes, both extremist messaging and state-sponsored 
disinformation operations represent a critical national security threat 
to the United States.
    GEC leads the USG effort to deny extremist groups a digital safe 
haven even as they lose territory on the ground. We recognize that the 
information battlespace is as important as the physical battlespace. 
Any long-term strategy to counter violent extremism needs to focus on 
preventing the recruitment of terrorists. As we continue to defeat ISIS 
on the battlefield, we must continue to fight them aggressively online 
to prevent their ability to increase their online presence and inspire 
audiences to commit violence in response to territorial losses. That is 
precisely why the USG originally established the Global Engagement 
Center (GEC) last year and charged it with leading the coordination of 
federal government efforts to counter the messaging of non-state 
actors. The GEC is focused on countering the recruitment efforts of 
terrorist groups such as ISIS and exposing and countering their warped 
and perverse ideology.
    In December 2016, the U.S. Congress expanded the GEC's mission and 
granted it new legal authorities out of growing concern about the 
adverse effects of state-sponsored propaganda and disinformation 
efforts on U.S. national security. State-sponsored propaganda and 
disinformation have emerged as clear national security concerns, 
increasing in overall size and sophistication. State-sponsored 
disinformation operations impact United States foreign policy 
objectives. Disinformation operations create a lack of confidence in 
foreign populations and sow seeds of doubt in the susceptible 
populations living in our allied and partner nations.
    As stated in the Director of National Intelligence's January 2017 
report, countries and entities involved in spreading disinformation 
during election campaigns in Western democracies will apply what they 
have learned ``to future influence efforts worldwide, including against 
US allies and their election processes.'' It is critical that efforts 
to counter both extremist messaging and state-sponsored disinformation 
are fully supported with policy authority and funding. We appreciate 
the important leadership and support that Congress has provided the 
GEC.


    Question 8. Where does the Department stand on carrying out this 
important mandate? I understand that the Center itself has been 
established, and your budget requests $34.4 million for the GEC in FY 
18. Have you requested any funds yet from DoD?

   If so, have these funds been received?
   If not, why not? What needs to happen first?

    Answer. In addition to the GEC's base budget request, the FY 2017 
NDAA authorizes the Secretary of Defense to transfer up to $60 million 
to the State Department to support the GEC in FY 2017 and FY 2018, 
provided that the amounts otherwise made available to the GEC do not 
exceed $80 million in each of those years. To date, the GEC has not 
received any funding from DoD or from any other sources to conduct the 
expanded counter state propaganda and disinformation mission. The 
entirety of the GEC's current FY 2017 and planned FY 2018 base budgets 
are required to conduct its counterterrorism mission. No additional 
funds were included in these base budgets for the GEC's counter state 
disinformation mission.
    The GEC is focused on requesting the $60 million from the Pentagon. 
GEC's leaders have held meetings with my senior advisors, including a 
recent briefing with my Deputy Chief of Staff, on the topic of this 
transfer of funds from DoD. My Department is currently assessing all 
the implications of this potential transfer of funds, with an eye 
toward ensuring that funding exists to support these vital efforts 
beyond FY 2018.
    Since the enactment of the FY 2017 NDAA in December, GEC leadership 
and GEC's counter state disinformation office have consulted with 
interagency colleagues to gain a deeper understanding of current USG 
efforts to counter state-sponsored propaganda and disinformation. These 
consultations with our DOD partners include EUCOM, PACOM, CENTCOM, 
SOCOM, OSD/SOLIC and the Joint Staff (J39). Consultations with bureaus 
within the State Department have included EUR, AF, NEA, CT, and EAP. 
Further, the GEC continues to engage with foreign governments and 
various experts in civil society to help us achieve our new mission, 
including engagements with individuals from NGOs, donor organizations, 
and academia.


    Question 9. What are the current scope and scale of the Center's 
operations, and what is its strategy for countering the challenges 
emanating from Russia, China, Iran and other nation-state practitioners 
of information warfare?

    Answer. The GEC's efforts include building a community of interest 
domestically and abroad. Domestically, this effort includes 
collaborating across the interagency to map current counter foreign 
propaganda and disinformation efforts, identifying where gaps exist, 
synchronizing those efforts to reduce redundancy, and integrating 
technology and data science. The GEC plans to counter foreign state 
propaganda and disinformation efforts, in coordination with our NATO 
and civil society partners, to prevent foreign actors from dominating 
the information environment.
    Abroad, the GEC is expanding the community of interest with its 
network of allies and nongovernmental partners. The GEC plans to engage 
in activities that include the sharing of information intended to 
expose propaganda and disinformation campaigns, and the local 
operatives who support them. This effort will support the GEC's ability 
to forewarn foreign audiences of disinformation, and provide an avenue 
to disseminate fact-based narratives that counter the propaganda and 
disinformation of our adversaries. GEC's proactive measures to expose 
propaganda and disinformation campaigns will include leveraging 
academics and think tanks who report on regional disinformation trends 
and campaigns and training journalists to identify and report on 
disinformation and propaganda. The GEC will support foreign partners to 
make their governments and communities more resilient to propaganda and 
disinformation.


    Question 10. After engaging with the Russians on Syria, Ukraine, 
the Intermediate Nuclear Forces (INF) treaty, and other issues, what 
areas of common interest do you see, and what is the your assessment of 
the likelihood of progress on these areas any time soon?

    Answer. The United States is open to working with Russia where we 
can find areas of practical cooperation that will benefit the American 
people and serve our national security interests. Where we do not see 
eye-to-eye with Russia, the United States will continue to stand up for 
the interests and values of America, our allies, and our partners.
    The United States remains committed to a peaceful resolution to the 
conflict in eastern Ukraine. We continue to support the Minsk 
agreements as the best path towards peace. Sanctions against Russia 
will remain in place until Russia fully implements its Minsk 
commitments. Crimea-related sanctions will remain until Russia returns 
control of the peninsula to Ukraine.
    In Syria, the United States supports any effort that can genuinely 
de-escalate the violence in Syria, ensure unhindered humanitarian 
access, focus energies on the defeat of ISIS and other terrorists, and 
create the conditions for a credible political resolution of the 
conflict.
    On arms control, Russia continues to implement and comply with the 
New START Treaty, but we are concerned about Russia's behavior in a 
number of areas, including Russia's violation of the Intermediate-Range 
Nuclear Forces Treaty. In the near future we plan to start a dialogue 
with Russia on Strategic Stability issues.


    Question 11. The previous administration was infamously slow in 
rolling out a Russia strategy. Does the Trump administration have one? 
If not, has a process to develop one begun?

    Answer. Currently, our bilateral relationship is at a low point. 
The President has asked me to begin a re-engagement process with Russia 
to see if we can first stabilize the relationship, and then identify 
areas of mutual interest where we can begin to rebuild some level of 
trust. As this process has developed, the Department of State has 
worked closely with National Security Staff and other U.S. agencies.
    Our overall strategy is to work with Russia where we can find areas 
of practical cooperation that will benefit the American people, such as 
counterterrorism, defeating ISIS in Syria, promoting strategic 
stability and scientific research. I have stressed that while the 
United States is willing to work with Russia in areas of common 
concern, we will hold Russia accountable when it violates international 
norms. Where we do not see eye-to-eye with Russia, the United States 
will continue to stand up for the interests and values of America, our 
allies, and our partners.
    Russian aggression in Ukraine remains a significant obstacle to 
improving U.S.-Russian relations. I made clear to Russian Foreign 
Minister Sergey Lavrov that as we search for common ground, Russia 
needs to make the first step toward ending the conflict in eastern 
Ukraine, including implementing a visible, verifiable and irreversible 
ceasefire, withdrawing heavy weaponry, and granting OSCE monitors full 
access. I have repeatedly emphasized, including to Russian Federation 
President Vladimir Putin and Foreign Minister Sergey Lavrov during my 
April 12 visit to Moscow that Russia must adhere to its commitments 
under the Minsk agreements.
    On Syria, the United States supports any effort that can genuinely 
de-escalate the violence in Syria, ensure unhindered humanitarian 
access, focus energies on the defeat of ISIS and other terrorists, and 
create the conditions for a credible political resolution of the 
conflict. I have been clear with Minister Lavrov: Russia should use its 
influence to de-escalate the situation, sustain momentum against ISIS, 
and rein in the Assad regime. The continued brutality of the Assad 
regime, including its use of chemical weapons, presents a clear threat 
to regional stability and security as well as to the national security 
interests of the United States and our allies. We have agreed that the 
way to bring stability to Syria must come through diplomatic and 
political means.
    We continue to face a number of problems with Russia on compliance 
with its arms control obligations. While Russia continues to implement 
the New START Treaty in a pragmatic manner, we are concerned about 
Russia's behavior in a number of areas, including Russia's violation of 
the INF Treaty. This is creating a lack of trust and is an impediment 
to improving the bilateral relationship.


    Question 12. What are the strategic implications for the United 
States of its shift to bilateral negotiations?

    Answer. The United States remains fully committed to strengthening 
its economic relationships across the Asia-Pacific region. Our overall 
engagement strategy does not depend on a single agreement or 
initiative. Our goal is to advance our economic relationships in the 
region through bilateral FTAs and other bilateral frameworks with 
countries that agree to meet the high standards we have set.
    While negotiating agreements on a bilateral basis may take more 
time, it will provide us the greatest prospect for achieving our 
economic goals.
    Through our bilateral engagements, including our dialogues with 
China and Japan, and work through regional bodies such as the Asia-
Pacific Economic Cooperation (APEC) forum and the Association of 
Southeast Asian Nations (ASEAN), we seek to spur domestic reforms that 
will lead to high standards on trade and investment throughout the 
Asia-Pacific region. Our strategy will allow us to set regional norms 
that encompass high standards, ensure the best possible outcomes for 
U.S. competitiveness, and reflect U.S. leadership in the Asia-Pacific.


    Question 13. Can smaller trade agreements with advanced regional 
economies like Japan, New Zealand, and Australia serve as a starting 
point for the promotion of high-quality, high-standard trade practices 
throughout the broader regional economy?

    Answer. The United States will elevate our Asia-Pacific dialogue on 
trade and investment through high quality and high standard bilateral 
agreements. Pursing bilateral agreements with some of our most 
important regional trading partners can spur a race to the top by 
developing high standards that reduce barriers to trade and investment 
and enhance market opportunities for U.S. companies. Our strategy will 
promote regional norms based on these high standards, which we expect 
will lead to economic and job growth in the United States and other 
countries in the region.


    Question 14. What are the potential strategic implications for the 
United States of the current economic initiatives in the Asia-Pacific 
region in which it is not participating, including the Asia 
Infrastructure Investment Bank, the One Belt, One Road Initiative, and 
Regional Comprehensive Economic Partnership (RCEP)?

   How should these strategic considerations affect U.S. trade and 
        economic policy in the region?

    Answer. The United States is committed to engaging broadly and 
deeply throughout the Asia-Pacific region. We have encouraged China and 
others in the region to ensure that regional initiatives promote and 
uphold internationally accepted best practices in infrastructure 
development and financing and adopt an open and inclusive approach to 
their overseas infrastructure projects. We are committed to improving 
regional connectivity and economic development and are exploring 
opportunities to increase U.S. firms' participation in this process.


    Question 15. Do you think the One Belt, One Road Initiative will be 
able to succeed in financing considerable infrastructure development in 
the region?

   If that infrastructure is built, how will it alter regional and 
        global trade flows, and what would that mean for China's soft 
        power in the region relative to that of the United States?

    Answer. We are encouraging Beijing to provide greater transparency 
as it develops OBOR, including information about OBOR projects' scope, 
location, financing, and timelines. While much about OBOR remains 
unclear, the initiative eventually is expected to result in many new 
large-scale infrastructure and other development projects in the 
region, and we are encouraging China to uphold internationally accepted 
best practices and adopt an open and inclusive approach.


    Question 16. Do you agree that the Assad regime's actions have 
helped fuel the growth of ISIS?

   Can a durable peace settlement be reached with Assad still in 
        power?
   If Assad is removed, will the United States work to maintain some 
        of the government institutions needed to maintain stability?
   What role do you envision the Russians playing in achieving this 
        peace settlement?
   What happens after ISIS is defeated? How should the U.S. and its 
        coalition partners consolidate the gains their short and 
        medium-term actions are designed to achieve?

    Answer. For over six years, the conflict in Syria has created 
continued violence and a political vacuum in many parts of the country 
where ISIS was able to take significant territory. In these past six 
years, Assad has not focused on defeating ISIS. On the contrary, Syria 
is a state sponsor of terrorism and allowed ISIS to flourish, not 
focusing its efforts on the terrorist group or other terrorists active 
in Syria such as al-Qa'ida (AQ). Too often, the Assad Regime has 
attacked civilians, hospitals, and schools rather than ISIS. The 
regime's brutality and continued assaults on the Syrian people is a key 
ISIS recruiting tool for Syrians and foreign fighters, and continues to 
provide ISIS the space to operate.
    An end to the conflict must begin with a de-escalation of the 
violence, a defeat of ISIS and other terrorists, and ultimately a 
political solution. We want to see Syrian parties work together to 
advance the U.N.-facilitated political process, as called for in U.N. 
Security Council resolution 2254. We have stated on multiple occasions 
that we do not believe you can have a stable, peaceful Syria with Assad 
in charge. We do not, however, seek the complete dissolution of the 
Syrian state, which would likely result in further chaos, violence, and 
instability.
    The United States has already provided more than $900 million in 
non-lethal and stabilization assistance to the Syrian people since the 
start of the conflict. We are supporting moderate Syrians who serve as 
a bulwark against violent extremists who seek to exploit the vacuum in 
security and services, bolstering moderates' ability to play a role in 
Syria's future. These programs also support our highest national 
security priority, defeating ISIS and AQ, by stabilizing areas 
liberated from ISIS in order to help prevent its return. In addition, 
the United States has contributed more than $6.5 billion in 
humanitarian assistance to Syria and its neighbors since the start of 
the crisis, reflecting U.S. leadership in meeting dire humanitarian 
needs.
    The Assad regime remains in power because of Russian and Iranian 
support. Russia, with Iran and Turkey, began the Astana Process in 
December 2016. Through this process, the three countries hope to 
implement de-escalation areas throughout Syria in an effort to decrease 
violence. The United States is only an observer in this process. The 
goals set forth in Astana are important ones: de-escalate the violence; 
guarantee access for humanitarian assistance to communities in 
desperate need; and defeat ISIS. For these goals to be met, Russia must 
use the leverage they claim they have with the Assad regime. Although 
we welcome any actions that de-escalate the violence in Syria, we 
continue to have serious concerns about the Astana process, including 
the involvement of Iran as a so-called ``guarantor."
    As the United States and our Counter ISIS Coalition partners 
continue to make progress against ISIS on the battlefield, we are 
funding humanitarian assistance to those in need, supporting the 
destruction and removal of explosive remnants of war, providing 
stabilization assistance to resume essential services (e.g. water, 
electric, schools and medical facilities), jumpstarting local markets, 
and supporting bottom-up reconciliation efforts and the provision of 
psychosocial support to consolidate these military gains. Together, as 
a Coalition, working by, with, and through our partner forces on the 
ground we have liberated over 23,000 square kilometers ISIS once 
controlled in Syria. As a result of our efforts, and thanks to 
congressional support, ISIS has been unable to recapture a single inch 
of territory from Coalition-partnered forces. We are helping local 
partners hold ground against ISIS, restore services, clear schools and 
clinics of explosive hazards, care for displaced persons, and help 
families return home. This is critical to ensure the enduring defeat of 
ISIS and AQ and preventing the resurgence of other extremist groups. 
Post-ISIS stabilization assistance will seek to support local 
governance and civil society organizations that are civilian-led and 
prove themselves to be inclusive and representative of the populations 
they serve and create the necessary space for a political resolution to 
the broader conflict.
    The United States will continue to support constructive efforts to 
de-escalate the violence in Syria and ensure humanitarian aid reaches 
those in need, while continuing the fight against ISIS and AQ.


    Question 17. In your budget, the Foreign Military Financing (FMF) 
account would be reduced by 19 percent compared to FY 2017 enacted 
funding, with 95 percent of the request allocated to four countries: 
Israel ($3.1 billion), Egypt ($1.3 billion), Jordan ($350 million), and 
Pakistan ($100 million). By contrast, these countries comprised 85 
percent of FMF funding in FY 2016. The remaining $200.7 million would 
be for a global account to be allocated as necessary, on a grant or 
loan basis, to meet pressing security challenges.
    What is the perceived benefit to such an account compared to the 
current FMF structure? On what basis would allocation decisions for the 
global account be made? Would Defense Department-administered train-
and-equip funding -which has significantly expanded in recent years -
make up the difference in FMF funds?

    Answer. The global FMF fund would permit the Department to allocate 
funds according to current priorities during the year of appropriation. 
This approach permits greater flexibility, selectivity, and 
responsiveness than the previous structure, which required the 
Department to determine and publish requested bilateral allocations 
years before the funds would be implemented.
    The Department will determine allocations during the year of 
appropriation based on administration priorities, available funding, 
and likelihood of program success.
    State and DoD are working together to develop processes to 
synchronize security assistance planning and programming across the two 
agencies. At the direction of Secretary Mattis and myself, the 
Departments have established a new State-DoD Security Sector Assistance 
Steering Committee that is taking on this important task. While State 
and DoD assistance authorities are not identical, the Departments will 
work together to ensure that our respective authorities and resources 
advance the administration's foreign policy and national security 
priorities.


    Question 18. Under what scenarios do you anticipate FMF loans being 
provided in FY 2018 as opposed to grants? How might the proposed 
provision of loans instead of grants impact the participation of 
various countries, and their desire to acquire U.S.-origin equipment in 
general?

    Answer. The Department will pursue loans with partners that the 
U.S. government has determined as able to fulfill their financial 
commitments without significant risk or are developing military 
capabilities that advance core U.S. foreign policy priorities.
    It is not yet clear whether a transition from grants to loans will 
lead to a reduction or an increase in the amount of U.S. defense 
articles and services purchased, granted, and/or loaned around the 
world. Partners may have the opportunity to borrow more than they 
received in the past in grant assistance, allowing recipients to 
purchase more American-made defense equipment and services. However, 
not all recipients may be appropriate loan partners for the United 
States, due to their limited national budgets or other circumstances 
that could limit their ability to repay the loan. Some recipients may 
not be willing to accept or be able to repay a loan from the U.S. 
government, which must, by law, be offered at an interest rate of no 
less than five percent and with a term of no more than 12 years. In 
some circumstances, past FMF recipients may also choose to seek loans 
or assistance from other international suppliers. However, these 
possibilities are mitigated by the fact that some of the largest 
recipients will continue to be funded with FMF grant funds at 
significant levels, and by the high quality of defense articles and 
services produced by the United States compared to other possible 
suppliers.



                               __________


            Responses to Additional Questions for the Record
          Submitted to Secretary Tillerson by Senator Merkley


    Question 1. Do you pledge to preview any proposed redesign of the 
State Department with members of this committee from both parties, to 
solicit feedback, and to only proceed with a plan that Senator Corker 
and Senator Cardin-collectively representing the views of the 
committee's broader membership-can support?

    Answer. The Department of State (State) takes very seriously its 
responsibility to consult with Congress on its plans and vision for the 
future of the agency.
    Executive Order 13781 of March 13, 2017, calls for each agency to 
submit a plan, due in September, to improve the efficiency, 
effectiveness, and accountability of that agency. State and U.S. Agency 
for International Development (USAID) are working to meet this deadline 
and have begun to discuss goals, priorities and the strategic direction 
of the organizations to adapt to the changes that we will face over the 
next twenty years. We are looking at aligning resources, people, and 
our overarching mission, including restructuring State and USAID's 
operations, in order to deploy the talent and resources of State and 
USAID in the most efficient way possible. This review has no 
preconceived outcomes.
    In the first ``listening'' phase of this discussion, we engaged 
Insigniam, a consulting firm, to conduct a survey made available to all 
of our State and USAID colleagues, including employed family members, 
locally-engaged staff, and contractors. Insigniam also held in-person 
listening sessions with approximately 300 individuals, including 
Committee staffers, to obtain their perspective on what we do and how 
we do it. The surveys and listening sessions, all of which occurred in 
early-mid May, collected information on our organizational processes 
and culture, including what activities to eliminate, ideas for 
restructuring the organization, ideas for improving organizational 
efficiency and effectiveness, and workforce management. Insigniam 
compiled the results and generated a report, which was previewed to me 
on May 30. From this feedback, we have been able to get a clearer 
overall view of our organization. We are still analyzing the feedback 
we have received, and intend to use the results of the report as input 
to efficiency improvements as part of our larger efforts called for 
under E.O. 13781.
    Before the end of June, I will communicate with all State and USAID 
employees, as well as the Committee and others in Congress, about the 
results of the report and the plans for the second phase of this 
endeavor. The general intent for the second phase is to engage the 
State and USAID community to design how the agencies will function for 
the next twenty-plus years. We will seek the input of the Committee and 
others in Congress throughout this process. The recommendations, 
blueprints, and new vision that emerge from the redesign phase will be 
presented to OMB in September as part of the requested Agency Reform 
Plan, and will be fully discussed with the Committee and others in 
Congress before implementation begins in FY 2018.


    Question 2. Will you commit that the United States will adhere to 
Article 5 of the North Atlantic Treaty and come to the mutual defense 
of any North Atlantic Treaty Organization ally, even if that member 
does not meet its two percent of GDP defense spending target?

    Answer. I assure you President Trump, as well as myself and 
Secretary Mattis, all agree that collective defense in accordance with 
Article 5 is a bedrock principle of NATO and underpins the 
transatlantic relationship. We have all reaffirmed this publicly. I 
look forward to continuing to reaffirm the United States' ironclad 
commitment to Article 5, including at the next meeting of NATO Foreign 
Ministers.
    An effective deterrent and a meaningful Article 5 commitment also 
require that Allies shoulder their fair share of the burden to 
strengthen our collective defense capabilities. We continue to stress 
to Allies the importance of meeting their commitments to move towards 
spending at least two percent of GDP on defense by 2024, and to invest 
those resources in ways that enhance our collective capabilities.


    Question 3. What is the administration's policy on the New START 
Treaty? Will you advocate for an extension of the treaty beyond its 
current February 2021 expiration date to ensure that legally binding, 
verifiable limits remain on Russia's nuclear arsenal?

    Answer. The administration is reviewing its Russia policy, 
including Russia's arms control implementation and compliance. Russia 
is in compliance with the New START Treaty. The administration is 
focused on reaching the New START Treaty's central limits by February 
2018 and will then assess next steps in strategic arms control.


    Question 4. Does President Trump plan to discuss the future of New 
START and Russian non-compliance with the INF Treaty directly with 
President Putin when they meet on the margins of the G-20 meeting in 
July? Will you recommend to him that he do so?

    Answer. The administration is reviewing its Russia policy, 
including Russia's arms control implementation and compliance. Even 
while the review is underway, we still plan to raise Russia's INF 
violation with Russian officials in appropriate venues to inform them 
that this violation impedes progress toward improving our bilateral 
relationship, and that Russia must take the first steps toward 
resolution.
    On New START, the administration is focused on reaching the New 
START Treaty's central limits by February 2018 and will then assess 
next steps in strategic arms control.


    Question 5. Do you support the United States playing an active role 
in negotiating a political settlement in Afghanistan, and, if so, what 
are the broad contours of a political agreement that would be 
acceptable to the administration?

    Answer. A negotiated peace accord with the Taliban is critical to 
ending the conflict and ensuring the long-term preservation of our 
national security interests. We have signaled to the Afghan government 
and our NATO allies our priority to launch a peace process, and we 
regularly engage Afghanistan's neighbors to press the Taliban to come 
to the negotiating table.
    The broad outlines of an acceptable agreement to end the conflict 
would require the Taliban to cease violence, break all ties to 
international terrorists, and accept the Afghan Constitution, including 
its protections for women and minorities. These end-conditions are 
necessary to ensure the gains achieved over the last 15 years are 
protected.


    Question 6. What steps are you taking to press Russia to adhere to 
the Minsk agreements, and how would you categorize your progress to 
date? Is the administration planning to increase or relax sanctions 
against Russia to encourage its adherence to the agreements?

    Answer. The United States remains committed to the Minsk 
agreements, but we are not satisfied with the progress of their 
implementation. We have called on Russia to use its influence over the 
so-called separatists to accept the International Committee of the Red 
Cross proposal to protect critical infrastructure and implement 
measures to ease the impact of the fighting on the local population.
    Russia-led separatists have continued to obstruct the operation of 
the SMM. The SMM is a vital component to implementation of the Minsk 
agreements. Parties that threaten it--or refuse to stop the threats 
against it--are signaling their contempt for the peace process for 
eastern Ukraine. We have called on Russia to compel the separatists 
that they lead, train, and fight alongside to end their campaign of 
harassment aimed at the SMM immediately and stop the harassment of SMM 
monitors, and to allow SMM operations to continue unimpeded.
    The United States remains deeply disturbed by the escalating 
violence in eastern Ukraine, and continues to fully support Ukraine's 
sovereignty, independence, and territorial integrity within its 
internationally-recognized borders. Ukraine-related sanctions on Russia 
will remain in place until Moscow reverses the actions that triggered 
them, and we will keep them in place until Moscow fully honors its 
commitments to resolve the crisis in Ukraine.


    Question 7. Former Secretaries of State Powell, Rice, Clinton, and 
Kerry all met with civil society groups during visits to Russia. You 
declined to meet with any civil society representatives during your 
first visit there. Why did you choose to forgo meeting with civil 
society groups on your trip, and what steps do you plan to take to 
ensure that our bilateral relationship with Russia adheres to U.S. 
values?

    Answer. I believe that the Department of State's mission is at all 
times guided by our longstanding American values of freedom, democracy, 
individual liberty, and human dignity.
    While I was not able to meet with civil society groups on this 
first trip, Department officials at all levels, including officials at 
the United States Embassy in Moscow, Russia, regularly meet with civil 
society groups. We believe that the Russian people, like people 
everywhere, deserve a government that supports an open marketplace of 
ideas, transparent and accountable governance, equal treatment under 
the law, and the ability to exercise their rights without fear of 
retribution. Although the space for civil society and free media in 
Russia has become increasingly restricted, Russian organizations and 
individuals continue to express a desire to engage with the United 
States. As long as this continues to be the case, the United States 
will support opportunities for direct interactions between Russians and 
Americans, including through peer-to-peer, educational, cultural, and 
other regional programs that provide exchanges of best practices and 
ideas on themes of mutual interest.


    Question 8. Did you raise Russia's interference in the 2016 
presidential election cycle during your May 2017 meeting with Russian 
Foreign Minister Sergei Lavrov? Have you or any other State Department 
officials addressed this issue in meetings with Russian counterparts?

    Answer. While I do not want to get into specifics of my diplomatic 
conversations, I assure you that the Russian government is well aware 
of our concerns over its cyber activities directed against the United 
States and more globally. The Department has repeatedly raised its 
concerns with the Russian government. The U.S. government will take 
action to protect our interests and to harden our defenses against 
malicious cyber activity. The Department also continues to maintain 
established means and modes of communication to ensure that the United 
States and Russia do not misunderstand one another.


    Question 9. President Trump has indicated a willingness to 
``renegotiate'' the Paris Agreement following the U.S. withdrawal. 
Given that the United States designs its own commitments under the 
Paris agreement and could have changed them rather than withdraw, what 
would be the administration's objective in renegotiating the Paris 
Agreement? What, if anything, is being done by the State Department to 
secure a new agreement?

    Answer. As the President indicated, we will begin negotiations to 
re-enter either the Paris Agreement or an entirely new deal. We will 
engage with partners and stakeholders to identify a path forward. It is 
important to note that the President is not walking away from engaging 
on the issue of climate change. The administration will work to ensure 
that America remains the world's leader on environmental issues, but in 
a way that is fair and where the burdens and responsibilities are 
equally shared among the nations around the world.


    Question 10. While I would have disagreed with this policy, the 
administration could have reduced U.S. commitments while remaining in 
the Paris Agreement. What specific provisions of the Paris Agreement-
apart from the U.S. pledge, which could have been altered-did the 
President object to that prompted the decision to withdraw?

    Answer. The President has made clear that he does not want to 
commit the United States to a set of actions, policies and measures 
that produce burdens specific to the United States that other countries 
do not face. He expressed concerns that implementing the U.S. pledge 
would have resulted in job losses in the United States, while other 
countries, especially economic competitors, were not taking on 
similarly rigorous targets. In addition, the President expressed 
concern that prior financial pledges to developing countries were not 
in the best interest of American taxpayers, and that major emerging 
economies were not taking on commensurate commitments. With that being 
said, the President is intent on staying engaged on the issue of 
climate change and interested in finding a way to reenter the Paris 
Agreement on terms that are more fair to the American worker and 
American consumers.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Secretary Tillerson by Senator Booker

Democracy and Governance
    Question 1. According to Freedom House, freedom in the world has 
been in decline over the last decade. Meanwhile, the Fiscal Year 2018 
budget proposes a 50 percent cut in spending for Democracy, Rights, and 
Governance (DRG) programming from Fiscal Year 2010. There has long been 
a bipartisan consensus in the United States that democracies are more 
adaptable to change, more resilient, and therefore more stable.

   Do you believe that helping countries strengthen democratic 
        institutions and the rule of law should remain a primary U.S. 
        objective?
   In light of Russia's efforts to undermine Western Democracies and 
        the threats to rule of law in many African countries such as 
        DRC, in which an American, Michael Sharpe was killed 
        investigating reports of state-backed atrocities, do you 
        believe that deep cuts to DRG programming undermines our own 
        security interests?

    Answer. Supporting countries in strengthening democracy, human 
rights, and governance (DRG) is critical for defending national 
security, fostering economic opportunities for the American people, 
asserting U.S. leadership and influence, and ensuring effectiveness and 
accountability to the American taxpayer. As has been the case for many 
years, Democracy, Human Rights and Governance (DRG) programs 
implemented by both USAID and the State Department seek to build the 
accountability, transparency, and responsiveness of democratic 
governing institutions; foster respect for human rights and the rule of 
law; fight corruption; promote citizen participation and engagement in 
governance and rule of law; and strengthen civil society organizations 
and independent media.
    Some of our most pressing national security threats at their core 
stem from other countries' poor governance and from the absence of the 
rule of law, including weak or nonexistent democratic institutions, a 
lack of accountability, corruption, low citizen engagement, and human 
rights abuses. DRG investments are critical to addressing the societal 
conditions that lead to violent extremism, radicalization, migration, 
instability, and organized crime. In FY 2018, DRG programs will be 
targeted to promote effective, accountable and democratic institutions 
and a vibrant civil society, which creates the conditions for long-term 
security Furthermore, DRG programs will strength the rule of law, 
diminish corruption, and encourage government transparency.

 Long Term U.S. Investment
    Question 2. I understand that USAID Missions are--in some cases--
holding back funding for long-term development programs because they do 
not want to start programs they worry they will have to cut in FY 2018 
or beyond. I am extremely concerned by this as long-term development 
programs are essential for addressing the drivers of violence, poverty, 
and insecurity around the world. If programs continue on cost-
extensions or are switched to short-term, year-long programs, they will 
not be as efficient or effective.

   How does your budget support effective programming that must take 
        more than a year or two to work and have impact?

    Answer. USAID implements multi-year programming subject to the 
availability of funds. While USAID programs are funded by single fiscal 
year through the annual appropriations process, USAID's operational 
model requires multi-year planning designed to achieve longer term 
development objectives in a given country or region based on the best 
available evidence and analysis. In response to lessons learned, 
changes in partner country context, or the availability of resources, 
USAID can adapt its programming in order to continue to achieve 
effective and sustainable results and advance U.S. foreign policy.

Nigeria
    Question 3. Senator Paul and I sent you a letter last week 
expressing concern about the reported sale of Super Tucano aircraft to 
Nigeria. The Nigerian Air Force mistakenly bombed an IDP camp in Rann 
in January, killing as many as 200 people. There has been no report to 
the public about what went wrong. The Nigerian Army is accused of 
massacring 300 people and burying them in a mass grave in December of 
2015.
    No one has been held accountable to date. In mid-2015, Amnesty 
International released a report alleging that the deaths of 8000 
civilians are attributable to the Nigerian military in northeast 
Nigeria, and that specific commanders had knowledge of torture, extra-
judicial killings and arbitrary detentions in overcrowded facilities.
    In your response to questions for the record for your confirmation 
hearing, you said that ``assistance on the improvement on human rights 
is something that must be considered on a case by case basis.''

   Have you reviewed the case of Nigeria?
   Why are we moving ahead with the sale of Super Tucanos without 
        getting assurances that the Nigerian government will share with 
        us the findings of the investigation into the Rann bombing and 
        insisting on accountability for the Zaria massacre?

    Answer. In the State Department's conversations with the Nigerian 
government at all levels, we regularly underscore that human rights 
abuses and impunity for those violations tarnish Nigeria's 
international reputation, undermine its ability to establish trusting 
relationships with its citizenry, and impede our ability to serve as a 
partner in Nigeria's efforts to defeat Boko Haram and the Islamic State 
of West Africa. I will continue to urge the Government of Nigeria to 
undertake timely and credible investigations into all allegations of 
human rights abuses, pursue broader and more transparent efforts to end 
impunity, and hold individuals found guilty of wrongdoing to account.
    Nigeria is a critical partner in the fight against terrorism in 
Africa. As President Trump told President Buhari in their February 
phone call, we support Nigeria's interest in purchasing a close support 
aircraft capability from the United States to counter the regional 
threat of the Islamic State of West Africa and to defeat Boko Haram. 
This is part of our efforts to help professionalize the Nigerian 
security forces. The ultimate goal of U.S.-Nigeria security cooperation 
is to support the transformation of the Nigerian military into an 
operationally capable and professional organization that upholds 
international human rights standards and the Law of Armed Conflict in 
its operations and holds any violators to account.
    The bombing of Rann was a terrible tragedy. The strike appears to 
be the result of human error. When the incident occurred, the Nigerian 
military immediately assumed responsibility for the tragedy. The air 
force also promptly established a six-person panel to investigate the 
incident. This and other investigations are ongoing. The Nigerian air 
force has also initiated a number of corrective actions to prevent 
future such mistakes, including closer coordination with humanitarian 
organizations active in the region. We support Nigeria's desire to 
acquire aircraft designed for more precise air-to-ground strikes, 
enabling pilots to positively identify targets prior to the release of 
weapons. Since this incident, the U.S. government has secured funding 
for air-to-ground integration training with the Nigerian military.


    Question 4. administration's Africa Policy: South Sudan, as you 
know is experiencing a famine, DRC is facing a political crisis that 
has thrown the country into turmoil, Mali and Central African Republic 
continue to experience conflict and violence. Meanwhile, there has not 
been a nomination for an Assistant Secretary for Africa, there is no 
Senior Director for Africa at the NSC, and despite a bipartisan call 
for a Special Envoy for Sudan and South Sudan, none has been appointed. 
What we do see are major cuts to our programs in Africa at the same 
time that Ambassador Haley promises deep cuts to peacekeeping 
operations on the continent.

   Can you explain to this committee this administration's plan or 
        strategy for Africa?
   Can you provide this committee with a commitment for the 
        appointment of a special envoy for Sudan and South Sudan and an 
        Assistant Secretary for Africa?

    Answer. The Department's strategy for sub-Saharan Africa focuses on 
four key priorities for the region: advancing peace and security; 
spurring economic growth, trade, and investment; strengthening 
democratic institutions; and promoting opportunity and development.
    We seek to advance peace and security in the region by: countering 
transnational threats, like terrorism and transnational crime; 
addressing economic and political drivers of violent conflict; 
preventing, mitigating, and resolving armed conflict; and advancing 
regional security cooperation and security sector reform.
    Our strategy also promotes the implementation of legal, regulatory, 
and institutional reforms that spur and sustain growth, trade, and 
investment as a way to encourage development of local capacity. We 
support deeper economic integration across Africa to enable greater 
levels of trade, provide a further boost to diversification and 
sustainable growth, and create broader and more diverse markets.
    We also recognize the foundational importance of democracy, human 
rights, and governance to Africa's future and U.S. foreign policy 
objectives on the continent and seek to strengthen democratic 
institutions. Working in partnership with African governments and civil 
society, we aim to help strengthen governance institutions, protect the 
democratic and development gains, and prevent democratic backsliding.
    Finally, we seek to accelerate development in sub-Saharan Africa by 
reducing poverty and addressing constraints to growth. Without the 
proper investments in African institutions, grievances about service 
delivery, corruption, poor health outcomes, a lack of economic and 
educational opportunities, and food insecurity will only increase 
forced migration and regional instability.
    With the recent confirmation of the Deputy Secretary, and an 
ongoing Department-wide organizational assessment, we are evaluating 
various roles, including special envoys.

Food Security/Famine
    Question 5. Famine has been declared in parts of South Sudan, and 
another three countries-Yemen, Somalia, and northeastern Nigeria-are 
currently facing the threat of famine, leaving 20 million people at 
risk from starvation and disease. These countries are also some of the 
most unstable in the world, and harbor terrorist groups like ISIS, Al 
Shabaab, and Boko Haram.
    Since food insecurity is one of the main drivers of instability, 
the national security implications of this famine for the United States 
are real and urgent. However, the administration's FY 18 request 
proposes to cut overall funding for humanitarian assistance by $4.2 
billion (44 percent).

   Do you agree with the premise that there is a link between 
        humanitarian crises and national security threats?

    Over the past three months, we have seen testimony on Capitol Hill 
from the Commanders of CENTCOM, AFRICOM, PACOM, SOUTHCOM, EUCOM, and 
SOCOM, the Chairman of the Joint Chiefs of Staff, and the Secretary of 
Defense calling the State Department and USAID ``indescribably 
critical'' and expressing ``unqualified support'' for sufficiently 
resourcing our diplomats and development experts.

   Do you agree with these military leaders that the State Department 
        plays a critical role in the whole-of-government approach to 
        national security?
   Did you speak with Secretary Mattis and other military leaders when 
        creating this budget?

    Answer. Many of the most exigent global threats to U.S. national 
security today emanate from conflict-affected and fragile states with 
poor governance, the absence of the rule of law, corruption, weak or 
nonexistent democratic institutions, and human rights abuses. Indeed, 
crises in these countries have sparked historic levels of displaced 
people around the world, which have required increasing amounts of U.S. 
and other international humanitarian resources to respond. These crises 
also create enabling environments for ISIS and other transnational 
terrorist groups to operate.
    The United States is committed to doing our fair share to respond 
to humanitarian crises. With our FY 2018 budget request, we will remain 
a leading contributor of humanitarian assistance. We are also asking 
our international partners to step up their efforts and contribute 
more. We continue to respond robustly to the famine or threat of famine 
in South Sudan, Somalia, Yemen and Nigeria, providing nearly $1.2 
billion in FY 2017 to date for these crises. At the same time, I 
believe we must focus on addressing the fundamental conditions that 
give rise to these crises and work to prevent new ones from emerging. 
This requires aggressive diplomacy and targeted assistance to resolve 
conflicts, promote good governance, and promote stabilization. Our 
budget request in FY 2018 includes dedicated resources to support 
conflict mitigation, stabilization, and human rights and governance 
programming in Afghanistan, Iraq, Nigeria, Somalia, Syria, Yemen, and 
elsewhere. That said, as I stressed in my opening remarks, I believe it 
is our people first and foremost--not the level of resources--that will 
determine our ability to meet these important goals.
    The Department of State and USAID have indispensable roles to play 
in a whole-of-government effort to address these challenges, including 
working with the Department of Defense (DoD). We partner closely with 
DoD in Washington on strategy and policy. In the field, our partnership 
with DoD is essential to ensure that bilateral partners help share the 
burden to address today's national security threats. In conflict 
environments, State Department and USAID also work closely with 
Department of Defense to bring complementary civilian tools to bear to 
address critical violent extremist threats and stabilization 
challenges. Alongside the National Security Council, we are reviewing 
how we can enhance our collective efforts and collaboration to address 
fragile states and promote stabilization. In addition, Secretary Mattis 
and I have committed our departments to work more closely together on 
security sector assistance (SSA) efforts. We have established a new 
State-DoD SSA Steering Committee that is working to review how can 
optimize our respective resources and authorities to advance an 
``America First'' foreign policy that prioritizes U.S. national 
security and maximizes the value of U.S. taxpayer dollars. Improvements 
in how we provide SSA will enable our partners to provide greater 
security and stability, which in turn reduces one of the key drivers of 
the current humanitarian crises.

Bipartisan Support for 150 Budget
    Question 6. Nine former U.S. Ambassadors to the United Nations--a 
bipartisan mix of Republican and Democrats--recently sent a letter to 
Congressional leaders urging full funding for the organization, deeming 
the UN an ``indispensable instrument,'' and making clear how 
counterproductive slashing contributions would be.
    They said that, ``Withholding or slashing funding for the U.N. 
alienates allies whose support is critical to our reform priorities, 
undermines essential U.N. activities that promote core American 
interests and values, and costs us more over the long term. It also 
cedes the agenda to countries that can be hostile to our interests and 
more than willing to see the U.S. give up its seat at the table."
    Have you had any conversations with former U.S. leaders and or 
former U.S. Ambassadors to the U.N. like John Negroponte or Tom 
Pickering or former Secretary of State Albright about their experiences 
and why they deem it an institution worth supporting?

    Answer. I welcome every opportunity to hear from the many 
experienced diplomats and senior leaders that have shaped American 
foreign policy over the years. I share the opinion of many from whom I 
have heard that the United Nations must be an important element of U.S. 
global leadership. As you know, the President has made clear his belief 
that the United Nations has enormous potential, but to realize that 
potential, reform must be prioritized.
    In addition to seeking reforms to improve U.N. efficiency, 
effectiveness, and accountability, the administration strongly believes 
that a more equitable burden-sharing among U.N. member states is 
warranted. The proposed budget reflects that thinking, while charting a 
course for continued U.S. leadership at the United Nations.

Education and Cultural Affairs
    Question 7. I believe educational and cultural exchange programs 
fully align with the Department's stated policy priorities of 
supporting U.S. national security and strengthening our economy.
    There is strong bipartisan consensus in Congress that exchange 
programs are a critical diplomacy tool. They create important 
relationships between Americans and leaders around the world who gain a 
profound understanding of the U.S. and our values. In fact, 1 in 3 
world leaders today are exchange alumni. Exchange programs also 
directly benefit the U.S. economy: almost all of the appropriated 
exchanges funds are spent in the United States or on Americans. 
Exchange visitors coming to the U.S. also contribute significantly to 
the local economies of all 50 states.
    Yet the administration's budget proposes a 55 percent funding cut 
for these programs. I am convinced that such cuts would greatly harm 
our nation's diplomacy efforts. As your esteemed colleague, Defense 
Secretary James Mattis, has suggested, the way to reduce the 
possibility of war is to increase people-to-people diplomacy. This is 
at the heart of cultural and educational exchange.

   Can you share with us the Department's views about funding these 
        programs and the need to ensure a comprehensive mix of 
        federally and privately funded exchanges?

    Answer. The State Department recognizes the important contribution 
of exchange programs to advancing our foreign policy priorities. All of 
ECA's exchange programs engage in strategic public-private 
collaboration that leverages the expertise, networks, and resources of 
the Department with those of partner governments, the private sector, 
NGOs, and academic institutions to increase ECA's effectiveness in 
advancing U.S. foreign policy goals. Partnerships bring new resources--
human, in-kind, financial--to address challenges or fill gaps best met 
through long-term and sustainable cooperation between the public and 
private sectors.
    Through these partnerships, ECA expands global opportunities for 
American citizens and organizations, engages a domestic American 
audience in the work of diplomacy, and showcases American leadership. 
At the same time, ECA oversees a broad array of private sector (J-1) 
exchanges that bring researchers, medical doctors, and others to the 
United States at their own expense. These private exchanges have 
positive impact on American workplaces and in our economy, while 
helping to build foreigners' positive views of the United States. In 
2016, ECA's Private Sector Programs welcomed more than 300,000 new 
exchange visitors in thirteen categories to the United States from more 
than 200 countries and territories. These private sector programs are 
self-sufficient and do not draw from appropriated funds.

                               __________

              Additional Material Submitted for the Record


           Letter to Senator Cardin from Ronald J. Daniels, 
                  President, Johns Hopkins University

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


             Material Submitted for the Record by Care USA

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
